<html>
<title> - COAST GUARD AND NATIONAL OCEANIC ATMOSPHERIC ADMINISTRATION (NOAA) FISCAL YEAR 2004 BUDGET REQUESTS</title>
<body><pre>[Senate Hearing 108-899]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-899

                   COAST GUARD AND NATIONAL OCEANIC 
                   ATMOSPHERIC ADMINISTRATION (NOAA) 
                    FISCAL YEAR 2004 BUDGET REQUESTS

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON OCEANS, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

20-473 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel

                                 ------                                

           SUBCOMMITTEE ON OCEANS, FISHERIES, AND COAST GUARD

                  OLYMPIA J. SNOWE, Maine, Chairwoman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
TRENT LOTT, Mississippi              JOHN F. KERRY, Massachusetts
KAY BAILEY HUTCHISON, Texas          DANIEL K. INOUYE, Hawaii
GORDON SMITH, Oregon                 JOHN B. BREAUX, Louisiana
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2003...................................     1
Statement of Senator Inouye......................................     3
    Prepared statement...........................................     4
Statement of Senator Snowe.......................................     1
Statement of Senator Stevens.....................................    44

                               Witnesses

Collins, Admiral Thomas H., Commandant, U.S. Coast Guard.........     5
    Prepared statement...........................................     7
Hecker, JayEtta Z., Director, Physical Infrastructure Team, 
  General Accounting Office (GAO)................................    21
    Prepared statement...........................................    24
Lautenbacher, Jr., Conrad C., Vice Admiral, U.S. Navy (Retired); 
  Undersecretary of Commerce for Oceans and Atmosphere and NOAA 
  Administrator..................................................    11
    Prepared statement...........................................    14

                                Appendix

Barnes, Joseph L., National Executive Secretary, Fleet Reserve 
  Association, prepared statement................................    62
Kerry, Hon. John F., U.S. Senator from Massachusetts, prepared 
  statement......................................................    59
Response to written questions submitted to Admiral Thomas H. 
  Collins by:
    Hon. John B. Breaux..........................................    75
    Hon. Ernest F. Hollings......................................    70
    Hon. John F. Kerry...........................................    71
    Hon. Trent Lott..............................................    68
    Hon. Olympia J. Snowe........................................    66
Response to written questions submitted to Conrad C. 
  Lautenbacher, Jr. by:
    Hon. Ernest F. Hollings......................................    85
    Hon. John F. Kerry...........................................    88
    Hon. Olympia J. Snowe........................................    77
Smith, Hon. Gordon H., U.S. Senator from Oregon, prepared 
  statement......................................................    60
U.S. Coast Guard, prepared statement.............................    61

 
                   COAST GUARD AND NATIONAL OCEANIC 
                   ATMOSPHERIC ADMINISTRATION (NOAA) 
                    FISCAL YEAR 2004 BUDGET REQUESTS

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                               U.S. Senate,
            Subcommittee on Oceans, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Olympia J. 
Snowe, Chair of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. The hearing will come to order.
    Admiral Collins, Admiral Lautenbacher, Ms. Hecker, I would 
like to thank you all for testifying here this afternoon on a 
critical hearing on the Coast Guard and the NOAA fiscal year 
2004 budget requests. While these two agencies are located in 
different departments, there can be no question they both share 
in the vital mission of protecting, preserving, and 
safeguarding the marine environment and the people who interact 
with and rely on that environment. Therefore, it is entirely 
appropriate that we are discussing their fiscal year 2004 
budget requests together this afternoon.
    As I said last month at our hearing on the Coast Guard's 
historic transition to the new Department of Homeland Security, 
the Coast Guard is the cornerstone of the new department and is 
uniquely positioned to perform its indispensable homeland 
security mission. This homeland security role is critical, but 
not exhaustive as we continue to rely on the Coast Guard for 
search and rescue, drug enforcement, interdicting illegal 
aliens before they reach our shores, enforcing our fisheries 
laws and regulations, and protecting our environment. The 
challenge is to strike the proper mission balance. That is the 
context in which we are compelled to consider this budget 
request, because the Coast Guard today is at a crossroads.
    The events of September 11th have forever changed America 
and the Coast Guard, but we must not lose sight of the fact 
that each of the Coast Guard's missions are national security 
priorities we simply cannot afford to shortchange.
    Therefore, I am very pleased the Administration has 
requested approximately $6.7 billion in funding for the Coast 
Guard, which is about a 10 percent increase over last year. 
This follows onto the additional increases that were included 
in last year's budget of 18 percent over the previous year.
    This budget request proposes adding an additional 2,000 
personnel and implementing numerous programs to improve 
homeland security, such as six new maritime safety and security 
teams, additional sea marshals, more port security boats, and 
enhancements for achieving maritime domain awareness. I am also 
pleased that the Administration is seeking an additional $26 
million in search and rescue funding to increase staffing at 
small boat stations and command centers.
    Nevertheless, while these increases may initially appear 
sufficient and they certainly are welcome, I remain concerned 
that even they may not be enough. We need the Coast Guard to 
protect our ports and waterways, but we also need it to carry 
out the totality of its more traditional missions on which we 
have come to rely.
    Operational units are continuing to operate at a much 
higher tempo than before September 11th, and the men and women 
of the Coast Guard are working harder today than ever before. I 
am particularly concerned that the Administration's request of 
$500 million for the Deepwater Project is insufficient. The 
original Deepwater plan called for $500 million a year for 20 
years in fiscal year 1998 dollars. For fiscal year 2004, that 
amount would be almost $550 million. Therefore, the 
Administration's request underfunds Deepwater by approximately 
10 percent.
    The fact is, we have underfunded this critical program in 
each of its first 2 years. If we accept the Administration's 
request, we will underfund it once again. Should this trend 
continue, I understand the original 20-year time line would be 
extended to 27 years. Given our post-September 11th 
circumstances, this is neither prudent, nor wise. Rather, we 
ought to be accelerating the modernization of our Deepwater 
assets as they constitute our first line of defense at sea. We 
cannot wait an additional 20 or 30 years down the line.
    I was pleased that the Deepwater Acceleration Feasibility 
Study released yesterday by the Coast Guard, as required under 
the Homeland Security Act, found that the 10-year acceleration 
time line is feasible. Not only that, it would also save 
taxpayers an estimated $4 billion, or 20 percent, in 
acquisition costs while providing significantly increased 
operational capacity and capability sooner rather than later.
    Admiral Collins, I look forward to hearing your thoughts on 
these and a number of other critical issues that obviously are 
important to us and to your service.
    Ms. Hecker, I thank you for being here today. I know that 
the GAO is reorganizing to create a new homeland security team 
that will cover the Coast Guard, and consequently, this will be 
your final opportunity to testify before our Subcommittee. And 
while I will leave it to you whether that is a cause for sorrow 
or celebration, let me thank you for the service that you have 
provided us over the past several years. Your testimony and 
recommendations have been extremely helpful to us as we perform 
our oversight role.
    Admiral Lautenbacher, I want to welcome you today, as well, 
and to thank you for your leadership at the helm of NOAA. I do 
not have to tell you that NOAA is a broad-ranging agency on 
which the people in my home state rely each and every day. In 
myriad and essential ways, your agency has a direct impact on 
their lives. We count on NOAA for reliable weather predictions 
to scientifically based fisheries management to coastal zone 
management to better understanding global climate change. Of 
course, these needs are not unique to Maine. More than half of 
our country's population lives on the 10 percent of our land 
designated as a coastal zone. Our coastal population grows 
every year, placing increased strains in coastal sources and 
our marine ecosystem. Our nation is facing unprecedented 
challenges in managing these resources, and we look to NOAA to 
take the lead.
    On the homeland security front, I know that NOAA is hard at 
work ensuring its navigation, charting, and weather predictions 
help keep our ports secure and ready to facilitate any 
potential emergency response effort.
    In New England, we continue to be consumed by the 
groundfish crisis in which litigation and uncertain scientific 
data threaten to potentially and permanently change our coastal 
communities and their way of life. Our fisheries management is 
largely affected by a complicated stock assessment process that 
is still fraught with uncertainty, and it demands improvement.
    Fisherman and managers alike need flexibility and an 
adaptive system that is responsive enough to allow for short-
term adjustments, yet is stable enough to allow for long-term 
predictability and planning based on sound science. As I have 
said, it is imperative that science serve as the backbone of 
all our decisions. Cooperative research is one area in which I 
believe we can bring scientists and fisherman together to 
produce the science we need to better understand and manage our 
fisheries resources. I cannot emphasize enough the importance 
of cooperative research.
    I also advocate moving forward towards a global ocean 
observing system that will provide us with the critical 
environment data to improve fisheries modeling and management, 
coastal planning, and harmful algal blooms management and 
mitigation. The Gulf of Maine Ocean Observing System offers an 
outstanding example of a way to reach our goals.
    The bottom line is, now more than ever, circumstances 
require NOAA to be a leader in the science-based management and 
adequate budgets will be a key component in achieving that 
success. I recognize your budget only shows a modest growth 
consistent with inflation, but in this time of tight budgets I 
believe we need to ensure this funding is directed where it is 
most needed.
    So, again, Admiral, thank you for being here. Thank you, 
Admiral Collins and Ms. Hecker, for offering your insights this 
afternoon.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you, Madam Chair. I wish I could be 
here all afternoon, but circumstances require my presence 
elsewhere.
    However, I want the record to show that since Hawaii is an 
insular state, we look upon the Coast Guard as special 
citizens. Hardly a day goes by that you do not see something on 
the front page where the Coast Guard is rescuing somebody on 
the high seas.
    And Madam Chair, you may not realize this, but on a per-
capita basis, Coast Guard's men and women contribute more to 
United Way than the citizens of Hawaii. That is how good of 
citizens they are.
    And there is a saying in Hawaii, ``Whatever the Coast Guard 
wants, the Coast Guard gets.''
    [Laughter.]
    Senator Inouye. And so I will vote blindly with you, Madam 
Chair.
    [Laughter.]
    Senator Inouye. That is the only way to go.
    I need not emphasize to Admiral Lautenbacher that NOAA is 
very important to us. Our coral beds are important to us. Our 
fisheries are important to us. And we count upon you to make 
certain that generations to come will be able to enjoy them.
    So you have got my vote. If the Chair says you do not have 
enough, you do not have enough, and I am on the appropriating 
committee.
    [Laughter.]
    Senator Snowe. You see? We make a great team. You see what 
I mean?
    [Laughter.]
    Senator Inouye. So, if I may, may I request that my full 
statement be submitted for the record?
    Senator Snowe. Without objection, so ordered.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Admiral Collins and Admiral Lautenbacher, thank you for joining us 
today. Hawaii is an island state that depends heavily upon the sea for 
shipping goods, food, and recreation. This means we rely upon the 
services your agencies provide, from port security to the protection of 
natural resources. I am therefore very interested in ensuring both the 
U.S. Coast Guard (USCG) and the National Oceanic and Atmospheric 
Administration (NOAA) are adequately funded to carry out their 
missions.
    Of particular concern to me, is how the Coast Guard's traditional 
missions will fair under the new Department of Homeland Security. Over 
the past year and a half, we have seen increased funding for these 
traditional missions, yet they are still funded at less than pre-9/11 
levels. It was evident after 9/11 that the Coast Guard was stretched 
thin, but even with an increase in funding, the addition of new 
missions and mandates has placed an even greater strain on its 
resources. The Coast Guard's deployment overseas to support Operation 
Enduring Freedom, the Global War on Terrorism, and Combatant Commander 
requirements that may support other military contingencies will only 
increase the pressure. Even without the November 2002 Coast Guard 
internal communication to cut back on non-homeland security missions in 
order ``to further compensate for the increased demands of the Coast 
Guard's Maritime Homeland Security Mission,'' one can see from the 
agency's ever-broadening responsibilities that the Coast Guard would 
benefit greatly from the support of additional funding.
    I hope your testimony regarding the President's Fiscal Year 2004 
budget request for the U.S. Coast Guard and NOAA will address how the 
growing needs for fisheries enforcement, deployment of weather buoys, 
response to hazardous material spills, and the other programs that 
require close collaboration between your agencies will be met.

    Senator Snowe. I thank you, Senator Inouye, for your 
statement. We appreciate it.
    Admiral Collins?

STATEMENT OF ADMIRAL THOMAS H. COLLINS, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Collins. Madam Chair, the good Senator from Hawaii, 
thank you so much. It is great being with you this afternoon. 
And I would like to thank the subcommittee for enduring support 
of the Coast Guard and all its missions.
    I am sure you would be interested to know that we 
transferred to the new Department of Homeland Security. We did 
it smoothly and successfully on 1 March of this year. And as we 
speak, we are very busily and aggressively engaged in drafting 
the rules and the processes and procedures to implement the 
Maritime Transportation and Security Act that the President 
signed last fall.
    And due, in large measure, to the support of this Committee 
in fiscal year 2002 and 2003, I am very pleased to report the 
Coast Guard is growing in capacity and capability. And this 
should come as welcome news to anyone with interest in our 
ability to conduct our wide range of missions.
    The fiscal year 2004 budget continues this trend of a more 
capable Coast Guard thanks to the incredibly strong support of 
President Bush and Secretary Ridge. If we receive the 
appropriation requested in the President's budget, by the end 
of fiscal year 2004 we will have grown by over 4,100 personnel 
and increased our overall budget by over $1.6 billion, an 
increase of more than 30 percent of the fiscal year 2002. The 
budget requests a total, as you have noted, Madam Chairman, of 
$6.7 billion, which reflects long-term commitments to both our 
homeland security missions and our non-homeland security 
missions. This includes a $455 million increment for operating 
expenses and $797 million for capital acquisitions.
    And while this increase is substantial, it is also 
absolutely essential to meet mission demands we are facing now 
and likely to face in the foreseeable future. It is essential 
if we are to build our homeland security capability. It is 
essential if we are to avoid technical obsolescence of our 
capital plan. It is essential if we are to maintain the 
operation excellence across the full range of our missions that 
you expect. Our operational excellence can be assured by 
careful attention to the readiness of our forces, superb 
stewardship of our resources, and most importantly, the 
development and well-being of our men and women.
    We have an enormous challenge ahead of us with respect to 
sustaining operational excellence, and I assure you that we are 
up to the task. And as the lead Federal agency for maritime 
homeland security, the Coast Guard is addressing the challenges 
of enhancing maritime security. Our efforts are guided by our 
maritime homeland security strategy, and our activities within 
our ports and waterways align with this strategy, and so does 
our budget. There is $142 million in a 1200-FTP growth 
increment in our operating expense request to support homeland 
security mission buildup. Overall, 44 percent of our budget is 
devoted to homeland security missions, as defined by the 
Homeland Security Act.
    I began my testimony by saying that operational excellence 
is critical to maintaining a balance of our missions, and I 
mean the full range of our missions--security, safety, 
environmental security, and interoperable missions with the 
Department of Defense. We must balance the rigors of homeland 
security with the demands of other crucial missions. We can, we 
are, and we will continue to do so, with your support.
    For example, our request includes continued focus on search 
and rescue mission readiness with an increase of $26 million 
and 529 personnel. That translates into over 950 new people 
being added to this mission area since 2001. And a thousand-
person increase in our Selected Reserve will help manage surge 
requirements as they occur.
    To continue to manage and balance this carefully, we must 
increase our capacity and capability. We are using our fleet 
and aircraft to the maximum to safeguard our nation, but these 
assets are getting old and more tired each year. Their 
readiness condition is eroding before our eyes.
    Just last week, for example, the Cutter SITKINAK was forced 
to return to drydock for the second time in 2 weeks to repair 
holes in her hull caused by corrosion. I have brought with me 
this morning a graphic example of that type of corrosion. This 
is from a sister vessel, the OCRACOKE, that has experienced 
similar types of hull corrosion. That is what we are facing in 
our 110-foot patrol fleet.
    As you can see, the watertight integrity----
    Senator Snowe. What is the age of this----
    Admiral Collins. Approaching 15 years.
    Senator Snowe. Fifteen years?
    Admiral Collins. Fifteen years. And they were designed for 
a hull service life of 15 years. That was the designed service 
life of those patrol boats.
    But maintenance costs there in the Coast Guard Yard--the 
Coast Guard Yard in Baltimore, are fixing that--but that is 
becoming typical of that patrol boat fleet. We are running our 
boats hard. We are getting good performance out of them, but we 
are consuming them with increased OP tempo, as you have alluded 
to, Madam Chairman.
    Another graphic example is the STORIS. You may recall that 
more than 2 years ago, the 60-year-old cutter STORIS was on a 
fisheries patrol in the Bering Sea when it spotted an illegal 
incursion over the maritime boundary line and loaded a boarding 
team and a boat crew into this motor surf boat. The weather was 
typical for the Bering Sea, lousy and rough. They got the boat 
lowered, but before they could unhook, a passing swell 
violently lifted and dropped the boat, shocking the system and 
breaking off the aft davit, which was original issue equipment 
on the old ship. Metallic debris rained down on the boat crew. 
And meanwhile, the boat, still attached to the forward fall, 
was buffeted by other waves and capsized, dumping nine of the 
crew into the Bering Sea, most of them wearing only Mustang 
suits, which are not designed to provide extensive protection 
from immersion in such cold weather. Had it not been for the 
quick response, professional response, of the ship's personnel, 
we possibly could have lost several crewman here. And 
thankfully, they all survived. After repairs, the cutter STORIS 
is still faithfully on patrol, a 60-year-old vessel.
    I could tell you many more stories like this if we had 
time, but let me summarize by saying that we have an incredible 
amount of work ahead of us to restore the readiness of our 
fleet. We will do it, in part, through application of new and 
developing technologies such as that being produced by the 
Integrated Deepwater System and Rescue 21. It is absolutely 
critical that we continue to receive the requested level of 
funding for these programs to ensure that our aging fleet is 
modernized and recapitalized and to provide the kind of 
network-centric capability that will help us mitigate the risk 
of a very porous maritime border.
    Building our capabilities in homeland security requires 
special emphasis in two areas, improving maritime domain 
awareness and increasing our maritime presence. The 2004 budget 
helps us in both regards.
    And I should stress that building out our homeland security 
through multi-mission platforms also have secondary and 
tertiary benefits to other missions. We are not building 
dedicated homeland security resources; we are building multi-
mission platforms that can surge to our missions across the 
board.
    The demands continue to grow on our organization. We are 
committed to operational excellence. Operational excellence 
depends upon good teamwork and partnerships within the 
Department of Homeland Security, but it also depends on 
resources. It depends on capability and capacity to apply them 
to the mission at hand.
    That is where we are. I think that 2004 marks a critical 
juncture for us so that we continue a multi-year effort to 
deliver the capacity and capability that the Nation needs of 
its United States Coast Guard.
    I look forward to working with Madam Chairman to these 
ends. Thank you very much.
    [The prepared statement of Admiral Collins follows:]

     Prepared Statement of Admiral Thomas H. Collins, Commandant, 
                            U.S. Coast Guard
Introduction
    Good morning, Madame Chairman and distinguished Members of the 
Subcommittee. It is a pleasure to appear before you today to discuss 
the Coast Guard's Fiscal Year 2004 budget request and its impact on the 
essential daily services we provide the American public.
    I am pleased to begin by saying that, as a result of support from 
the President, Secretary Ridge and the Department of Homeland Security, 
the Coast Guard's Fiscal Year 2004 budget contains significant 
increases to address all of our essential mission needs. The Coast 
Guard is the lead federal agency for the maritime component of Homeland 
Security and that, alongside Search and Rescue, is our top priority. In 
Fiscal Year 2004, we will continue to build upon the resource 
capabilities provided in last year's supplemental and the Fiscal Year 
2003 budget to provide layered maritime security operations, driven by 
performance and risk-based analysis. The Coast Guard will continue to 
make the ports less vulnerable to terrorists while still facilitating 
the use of the Marine Transportation System for legitimate purposes.
    The President has clearly indicated that protecting the American 
homeland is our number one priority and the Coast Guard has a critical 
role in that effort. The President's National Strategy for Homeland 
Security (dated 16 July 2002) stated:

        ``The Budget for Fiscal Year 2004 will continue to support the 
        recapitalization of the U.S. Coast Guard's aging fleet, as well 
        as targeted improvements in the areas of maritime domain 
        awareness and command and control systems . . . ''

    To that end, the Coast Guard's Fiscal Year 2004 budget proposes 
budget authority of $6.77 billion dollars and continues our effort to 
establish a new level of maritime safety and security. The Coast 
Guard's goal is to create sufficient capability to implement the 
maritime component of the President's National Strategy for Homeland 
Security while sustaining all our traditional missions in the way the 
American public expects and needs.
Transformation
    To implement the President's strategy, the Coast Guard must conduct 
a broad transformation of how we deliver services so that we can 
maintain the highest standards of operational excellence. Over the past 
few years, the Coast Guard has endeavored to gradually transform itself 
to meet future maritime threats but since September 11, 2001, that 
effort has become more urgent. The President's National Security 
Strategy requires transformation in all the military services, because 
the nation is facing new threats from an elusive and determined enemy. 
A convergence of three significant factors has clearly illustrated the 
need for a transformed U.S. Coast Guard:

  <bullet> The need to increase Maritime Homeland Security capability.

  <bullet> The need to sustain our performance across all Coast Guard 
        missions; and

  <bullet> The need to quickly implement the comprehensive requirements 
        of the Maritime Transportation Security Act of 2002.

    Immediately after the terrorist attacks on our nation, the Coast 
Guard established new port security zones, placed Sea Marshals on 
inbound merchant ships, conducted additional patrols off the coasts, 
established Maritime Safety and Security Teams to protect major ports 
and implemented new procedures to monitor vessel and crew movements 
within ports and coastal approaches. These increased responsibilities 
stretched already thin resources nearly to the breaking point and made 
it extremely difficult to continue serving other missions. To fill in 
the gaps, we activated nearly a third of our entire Selected Reserve 
force, and have quickly and effectively deployed the resources 
requested by the Administration and provided by Congress.
    The Fiscal Year 2004 budget provides the resources to continue the 
broad transformation that is necessary for the Coast Guard to provide 
the strength and security our nation requires. This transformation will 
not change the Coast Guard's essential character since it will remain a 
maritime, multi-mission, military service. Instead, the transformation 
will enable the Coast Guard to maintain operational excellence while 
conducting increased homeland security operations and sustaining 
traditional missions. To fulfill its responsibility to the American 
public, the Coast Guard is attempting to accomplish three primary 
objectives in Fiscal Year 2004:

  <bullet> Recapitalize legacy assets and infrastructure.
  <bullet> Increase Maritime Homeland Security Capabilities; and
  <bullet> Sustain non-Homeland Security missions.

Recapitalizing the Coast Guard
    To truly transform the Coast Guard, aging assets and infrastructure 
must be recapitalized. In addition to Rescue 21 (formerly known as 
National Distress and Response System Modernization Project or NDRSMP), 
which is on schedule for completion in Fiscal Year 2006, the Coast 
Guard's Integrated Deepwater System (IDS) will meet America's future 
maritime needs. Since September 11th, the Coast Guard is reassessing 
the scale and timing of the flexible Deepwater project. Based on the 
organization's current capacity levels and the required capabilities 
immediately needed for Homeland Security and the other missions the 
American public expects, the continued funding of Deepwater is 
imperative and makes both programmatic and business sense. The Coast 
Guard is requesting $500 million for the IDS.
    Several programmatic considerations reveal why the IDS is so 
essential for the safety and security of the American public:

  <bullet> Homeland Security necessitates pushing America's maritime 
        borders outward, away from ports and waterways so layered, 
        maritime security operations can be implemented. Deepwater 
        provides this capability.

  <bullet> Maritime Domain Awareness (MDA)--knowledge of all activities 
        and elements in the maritime domain--is critical to maritime 
        security. IDS will improve current MDA by providing more 
        capable sensors to collect vital information. Deepwater 
        provides this capability.

  <bullet> A network-centric system of Command, Control, 
        Communications, Computers, Intelligence, Surveillance and 
        Reconnaissance (C4ISR) is required for effective accomplishment 
        of all Coast Guard missions. Deepwater provides this 
        capability.

  <bullet> Interdiction of illegal drugs and migrants and protection of 
        living marine resources are important elements of Homeland 
        Security and require capable Deepwater assets. Deepwater 
        provides this capability. 

    The primary role of the Integrated Deepwater System in the Coast 
Guard Homeland Security mission is to fortify maritime security. The 
Deepwater Program will ensure the Coast Guard can continue to fulfill 
its mission of safeguarding the sovereignty, security, and safety of 
our homeland waters. The IDS concept pushes our borders out, through an 
effective use of MDA combined with layered assets throughout ports, 
waterways, coastal regions and far offshore to surveil, detect, 
classify, identify and prosecute those who would bring harm to our 
nation and our economically-critical natural resources. Deepwater 
assets will be able to counter threats throughout the maritime domain 
to thwart catastrophes to vulnerable infrastructure (oil rigs, 
deepwater channels, shipping) and keep commerce, especially military 
materiel load-out, safe in the near shore zones at harbor entrances and 
between ports. New assets include the conversion of five 110, patrol 
boats to more capable 123, patrol craft, seven Short Range Prosecutor 
small boats, funding for the first National Security Cutter (to be 
delivered in FY 2006), the continued development of an organization-
wide C4ISR network including a Common Operating Picture (COP), command 
and control system at four shore-based command centers and the 
establishment of an integrated logistics system.
    From a business perspective, the flexible IDS framework was 
designed to adapt to the kinds of changes the Coast Guard has 
experienced since the notional funding baseline was established in 1998 
and particularly since September 11, 2001. The IDS acquisition will 
replace or modernize obsolete and maintenance intensive assets that are 
not capable of meeting the current mission demand. The IDS will provide 
the required capabilities the Coast Guard needs to perform an enhanced 
level of maritime security operations sustain growing traditional 
missions and respond to any future crises, man-made or otherwise, that 
threaten America.
    Rescue 21 is also a transformational project as it will 
dramatically improve the Coast Guard's command and control 
communications network in the inland and coastal zone areas for SAR and 
all other Coast Guard missions. The improved Rescue 21 system will meet 
safety requirements for growing maritime traffic, as well as 
International Convention for the Safety of Life at Sea (SOLAS) treaty 
requirements. It will also be a critical component of our homeland 
security operations as it facilitates more effective monitoring and 
control of coastal assets.
Homeland Security Capabilities
    The Coast Guard is the lead federal agency for Maritime Homeland 
Security. As such, the Coast Guard's mission, in conjunction with joint 
and interagency forces, is to protect the U.S. Maritime Domain and the 
U.S. Marine Transportation System and deny their use and exploitation 
by terrorists as a means for attacks on U.S. territory, population and 
critical infrastructure. The Coast Guard will prepare for, and in the 
event of an attack, conduct emergency response operations. When 
directed, the Coast Guard, as the supported or supporting commander, 
will conduct military homeland defense operations in our traditional 
role as one of the five Armed Services.
    This budget submission is aligned with the Strategic Goals and 
Critical Mission Areas in the President's National Strategy for 
Homeland Security. The Coast Guard has developed a Strategy that 
implements the maritime component of the President's plan and the FY 
2004 budget continues to support those goals. It addresses both event-
driven and prevention-based operations through the following Strategic 
Objectives:

  <bullet> Prevent terrorist attacks within, and terrorist exploitation 
        of, the U.S. Maritime Domain.

  <bullet> Reduce America's vulnerability to terrorism within the U.S. 
        Maritime Domain.

  <bullet> Protect U.S. population centers, critical infrastructure, 
        maritime borders, ports, coastal approaches and boundaries and 
        ``seams'' among them.

  <bullet> Protect the U.S. Marine Transportation System while 
        preserving the freedom of maritime domain for legitimate 
        pursuits.

  <bullet> Minimize the damage and recover from attacks that may occur 
        within the U.S. Maritime Domain as either the Lead Federal 
        Agency or a supporting agency.

    The threats to the security of the United States extend beyond 
overt terrorism. Countering illegal drug and contraband smuggling, 
preventing illegal immigration via maritime routes, preserving living 
marine resources from foreign encroachment, preventing environmental 
damage and responding to spills of oil and hazardous substances are all 
critical elements of national and economic security. Every Homeland 
Security dollar directed to the Coast Guard will contribute to a 
careful balance between our safety and security missions, both of which 
must be properly resourced for effective mission accomplishment.
    Maritime Domain Awareness is the catalyst for effective Maritime 
Homeland Security and the Fiscal Year 2004 budget provides the 
resources to enhance the Coast Guard's ability to receive, fuse, 
disseminate and transmit intelligence data and leverage our recent 
inclusion in the National Intelligence Community. It includes new 
personnel, hardware and software to support the underlying information 
architecture for MDA, funds leased satellite channels and other 
connectivity solutions for our entire cutter fleet and establishes a 
prototype Joint Harbor Operations Center (JHOC) in Hampton Roads, VA, 
to provide surveillance as well as command and control capability for 
the critical infrastructure in this area.
    The Fiscal Year 2004 request also provides the capability and 
capacity to conduct layered maritime security operations. Six new, 
deployable Maritime Safety and Security Teams (MSST), for a total of 12 
teams, and over 50 Sea Marshals will be added throughout the country to 
protect our most critical ports. To increase Coast Guard presence in 
our ports and waterways, we are requesting 43 fully crewed and 
outfitted Port Security Response Boats, nine 87, Coastal Patrol Boats 
and the commencement of the Response Boat Medium acquisition which will 
replace our aging fleet of 41, utility boats. We are also standing-up 
Stations Boston and Washington DC to increase security and safety in 
these critical ports where more resources were needed. We are 
establishing two new Port Security Units, for a total of eight, to 
support domestic and overseas operational planning.
Sustaining Traditional Missions
    The Fiscal Year 2004 budget restores the Coast Guard's multi-
mission focus to near pre-September 11, 2001 levels. We will utilize 
performance and risk-based analysis to strike a careful balance between 
our safety and security missions as we attend to our ``new normalcy''. 
This delicate balance is critical to protecting America's economic and 
national security by preventing illegal activity on our maritime 
borders. It will also enable the Coast Guard to maintain its surge 
capability, which was evident before and after September 11, 2001. One 
of the Coast Guard's greatest attributes is our innate flexibility to 
immediately shift mission focus to meet America's greatest threat while 
maintaining other mission areas for the American public.
    While its primary focus is Search and Rescue (SAR), the Rescue 21 
project will transform the Coast Guard's command and control 
capabilities for all mission areas. Coupling this major acquisition 
with a staffing increase of nearly 400 new personnel at our SAR 
stations and Command Centers will ensure Coast Guard shore-side command 
and control networks and response units are properly equipped and 
staffed for multi-mission effectiveness. We are also requesting funds 
for the Great Lakes Icebreaker to ensure delivery in Fiscal Year 2006. 
This ship will perform aids to navigation functions as well as break 
ice to keep this critical commerce route open year-round.
    This budget also requests funding to fully train, support, and 
sustain the Coast Guard's Selected Reserve Force. The Reserve is 
significantly more than an augmentation force. It is an integral part 
of Team Coast Guard and provides daily support of all Coast Guard 
missions. Today's Coast Guard depends on Reserve personnel for day-to-
day activities in addition to the qualified military surge capacity a 
trained Reserve Force provides. The Coast Guard Reserve fills critical 
national security and national defense roles in both Homeland Security 
and direct support of Department of Defense Combatant Commanders. The 
Coast Guard Reserve provides the nation's only deployable port security 
capability and a cost-effective surge capacity for Coast Guard 
operations including quick response to natural or man-made disasters 
such as floods, hurricane relief, major pollution cleanup efforts, and 
rapid response to major catastrophes.
    The Coast Guard started an incremental reserve growth from 8,000 to 
9,000 in Fiscal Year 2003 and now 10,000 in Fiscal Year 2004. A robust 
and well-trained Reserve force of 10,000 SELRES members is an integral 
part of the Coast Guard's plan to provide critical infrastructure 
protection, coastal and port security, and defense readiness. Funding 
is essential to properly maintain readiness, alignment with DoD 
counterparts and to provide critical capabilities for DoD Combatant 
Commanders.
Conclusion
    There are challenges facing the Coast Guard: the obsolescence of 
our aging asset fleet; the complexity of recruiting, retaining, and 
training the talented workforce necessary to execute our missions; and 
moving into the new Department of Homeland Security.
    The President's Fiscal Year 2004 budget provides immediate 
capability for our Homeland Security responsibilities and continues to 
build upon past efforts to restore service readiness and shape the 
Coast Guard's future. It also demonstrates strong support for both the 
Deepwater project and Rescue 21. This budget will enable the Coast 
Guard to maintain operational excellence across all mission areas to 
meet the America's future maritime safety and security needs.
    I close with a quote from the National Strategy for Homeland 
Security which crystallizes the need for a transformed, multi-mission 
capable Coast Guard:

        ``The United States asks much of its U.S. Coast Guard and we 
        will ensure the service has the resources needed to accomplish 
        its multiple missions.''

    I have asked every member of the Coast Guard to continue to focus 
intently and act boldly on the three elements of my organizational 
direction: improving Readiness, practicing good Stewardship of the 
public trust and enhancing the growth, development and well being of 
our People. With this diligence in executing our multi-year resource 
plan, we will fulfill our operational commitment to America and 
maintain our high standards of excellence.
    Semper Paratus.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Senator Snowe. Thank you, Admiral Collins.
    Admiral Lautenbacher?

        STATEMENT OF CONRAD C. LAUTENBACHER, JR., VICE 
        ADMIRAL, U.S. NAVY (RETIRED); UNDERSECRETARY OF 
          COMMERCE FOR OCEANS AND ATMOSPHERE AND NOAA 
                         ADMINISTRATOR

    Admiral Lautenbacher. Thank you.
    Madam Chair, members of the staff, it is a great pleasure 
to be here. Thank you for this opportunity. I, indeed, wanted 
to echo what Admiral Collins has said about the support and 
cooperation we have had working with the Committee, and we 
appreciate that support.
    It is also a great pleasure to be here with Admiral Collins 
because there is a great deal of synergy and cooperation in the 
partnership between the Coast Guard and NOAA in terms of 
managing resources and in our EEZ, coastal-zone areas, 
fisheries, restoration, hazard mitigation, and worrying about 
navigation in that part of the world.
    I also have a fleet which is about as old as his, too. I 
would say that I can----
    [Laughter.]
    Admiral Lautenbacher. I did not bring any steel in, but we 
have some similar examples.
    [Laughter.]
    Admiral Lautenbacher. The opportunity that I have here 
today is to talk about our budget, so I would like to indicate, 
first of all, that NOAA is a very small agency with a huge 
impact. It is an essential part of the economic and homeland 
security of this nation. It is not appreciated completely by 
all of the American public, nor publicized to the degree it 
should be, but it is vital. Our statistics show that it adds up 
to--about $2.7 trillion of GDP is touched every day by the 
decisions and the types of material and services and products 
that NOAA puts out on a daily basis.
    The budget request this year is 3.3 billion. It is roughly 
a little bit higher than last year's $3.1 billion. It is 6 
percent above the President's request from last year, so it 
represents an indication by the Administration that this is a 
very important area to the nation. It is roughly 4 percent 
above our enacted request in the bill that was enacted several 
weeks ago by the Senate, so we are roughly in the same 
ballpark.
    People are our top resource, and I want to spend just a 
couple of minutes talking about the value of a scientific core 
that spreads the breadth of every discipline in ocean and 
atmospheric science put together in one place. That synergy of 
the people brought together from various parts of our country 
and various parts of these scientific disciplines is extremely 
important. I am asking for support this year for our ATBs, our 
adjustments to base, which essentially fund our people. It is 
important that we keep this resource that we have for our 
foundation in producing science. And I fully support everything 
Madam Chair said in her opening statement regarding the science 
base that is necessary to provide decisionmaking for our 
policymakers.
    So people are my top resource, and I ask for your support 
for the people that we have. And I might say that, in prudence, 
in good management, I am not asking for any more people this 
year. We have kept our level of personnel constant. So where we 
have needed more people, we have found offsets. So the number 
of people we are asking for is basically constant from last 
year, and I am asking for the money to support them in pay 
raises and cost-of-living adjustments.
    Our budget was created in six themes, and I think themes 
are more important than the various lines that we have inside 
NOAA, because they support the missions that we need to support 
the country. And so the themes, I will touch briefly on them--
infrastructure, maintenance, safety, and human capital, the 
guts of the organization where we have our expertise.
    People are the largest part of that, and there is roughly a 
$50 million increase in there which helps to defray the cost-
of-living and pay-raise increases which are required to keep us 
going at the same level as previous.
    Homeland security is the next theme, and homeland security 
is very important to us. We have two initiatives in there we 
think are worthy of note. One is the support of a scaled 
upgrade to our current NOAA Weather Radio System to an All 
Hazards Warning Network supported by the Department of Homeland 
Security and obviously by OMB and the Administration. NOAA 
Weather Radio is the only easily, rapidly available, 
automatically alarmed system for roughly 90 percent of the 
American public, who can have this radio from Radio Shack, 
Midland Radio, wherever--you know, I do not want to advertise 
particular brand names, but these can be bought very cheaply. 
It is an alarm system.
    What we are offering is a $5 million increment that will 
take a system which is designed for tornados and thunderstorms 
and hurricane and severe weather events and turn it into an 
automated system for all hazards. So within 2 minutes, an 
emergency manager in any county in the country, or any area, 
would be able to automatically put in public-service message 
through this transmission system, and it would be out in less 
than 2 minutes. Right now, it takes us over 7 minutes to do 
that kind of operation manually. We believe this is a great 
increase in public safety and are excited about the possibility 
of enacting this increment.
    Now, the other piece is a small piece that is added to our 
own security. NOAA's functions for the country are vital. We 
are looking to ensure that our operation can be maintained no 
matter what goes on, in terms of threats to our country. So 
there is a small increase of about $2 million for security in 
our weather forecast offices all around the nation, which, by 
the way, are very close to airports and are attached to the FAA 
system.
    In climate change, research, observations, and services, 
that is a major crosscutting theme in NOAA. We are asking for 
an increment of $17 million to improve our ability to provide 
critical decisionmaking information to both Congress and our 
Administration in an area that is very important. We have 
engaged this last year, I think, in some very significant 
improvements in the way that system in climate change research 
is managed. We are grateful for the support for the increment 
that we had last year. This new increment will go into the same 
sorts of uncertainties in determining the answers to some 
questions that are very important that come from an ocean 
observing system which you supported, work on carbon cycle, 
work on water cycle, aerosols in the atmosphere, computing 
capabilities to work on models we do not have today that would 
give us much more accurate results on what decisions could be 
made in future climate policies. That is an important piece of 
the Administration's $185 million climate change research 
initiative. It cuts across all agencies. I might add that NOAA 
is the lead agency in that coalition or partnership of Federal 
agencies that are working together across the entire government 
to produce a coherent climate change program.
    In ecosystem forecasting and management, I think when we 
talk about managing our living marine sources we are working on 
going toward an ecosystem foundation for all of the types of 
research and regulation that comes out of NOAA. It will be much 
better than what we are involved in now with single-species 
management, single-species plans, and one particular challenge 
after another. We have, in that part, a modest--I admit, it is 
a modest increase, but it is an increase of $27 million or so 
that go into the types of areas we are interested in, in terms 
of improving our fisheries management.
    The largest portion in that section, I might add, is for 
Sea Grant. I am proud to say that the Administration has Sea 
Grant within the NOAA budget this year and that we are 
delighted that it is back with us and we appreciate the support 
of the Senate and the House in that regard, and we look forward 
to working again with Sea Grant as part of our portfolio of 
research and outreach education tools.
    Energy and commerce has a small increase in it, but it is 
important because of our port system where we provide the types 
of timely information that allows our shipping to come in and 
out of major ports more rapidly and more safely--tides, winds, 
currents, forecasts, improved models for our pilots and people 
who manage our port system. We are also looking to improve 
modernization of the National Weather Service Cooperative 
Observer Network, which will allow better management of energy 
resources, fuel for our power plants. If we can cut back on the 
uncertainty of temperature forecasts, we can improve the 
allocation of fuel and the use of the generating resources 
inside our power plants across the country. That is an 
important improvement.
    Environmental monitoring and prediction, that system--that 
includes our satellite systems. I want to make a special plea 
for the GOES and the NPOESS, the polar orbiting and the 
geostationary satellites. These are the eyes of our nation. 
Without these satellite systems being replaced and serviced and 
data taken on a timely basis, this country would have a hugely 
difficult time in agriculture, maritime transportation, 
tourism, all of the things that rely on those eyes of the world 
to tell us about weather and extreme events and environmental 
management as we go into using it for ecosystem management, 
living marine resources, as well.
    In conclusion, I want to emphasize again that people are 
the most important priority that we have. I would like to 
certainly work with the Committee and the staff in articulating 
some of our needs and answering any questions that you may 
have.
    And once again, thank you very much for your support and 
the opportunity to appear today.
    [The prepared statement of Admiral Lautenbacher follows:]

 Prepared Statement of Conrad C. Lautenbacher, Jr., Vice Admiral, U.S. 
 Navy (Retired); Undersecretary of Commerce for Oceans and Atmosphere 
                         and NOAA Administrator
    Thank you, Mr. Chairman, and Members of the Committee, for this 
opportunity to testify on the President's FY 2004 Budget Request for 
the National Oceanic and Atmospheric Administration (NOAA).
    NOAA activities and operations contribute to the Nation's economic 
and environmental health. This budget request allows us to provide 
essential support to the programs that enhance our scientific 
understanding of the oceans and atmosphere, in order to help sustain 
America's environmental health and economic vitality. Please note that 
some increase amounts listed in this testimony may change as a result 
of the FY 2003 appropriation. Budget numbers in the testimony reflect 
the program changes from the FY 2003 President's Budget.
    NOAA is at the forefront of many of this Nation's most critical 
issues from weather forecasting to fisheries management, from safe 
navigation to coastal services and from environmental observations 
through NOAA's satellites to climate research and ocean exploration.
    The Administration requests $3.325 billion for these people, 
products and services for Fiscal Year 2004. This represents a very 
modest total increase of $190.0 million, only about 6 percent more than 
the FY03 request. It targets essentials, such as $238.5 million in 
program changes and $52.0 million in adjustments to base (ATBs), or 
mandatory cost increases, which are mostly inflationary costs related 
to salaries for NOAA employees.
    This budget request focuses on NOAA's core responsibilities: severe 
weather prediction; long-term climate and environmental trends; 
sustaining healthy marine habitats, robust ecosystems and coastal 
environments; and managing safety and environmental compliance issues 
impacting our people. People are NOAA's top resource, the heart and 
soul of NOAA operations. It is the people who work for NOAA who allow 
us to remain a premier oceanic and atmospheric science, service & 
stewardship agency.
    The Fiscal Year 2004 NOAA budget request is organized slightly 
differently than the NOAA budget requests that have been presented to 
Capitol Hill in past years. I believe that looking at the NOAA 
organization and programs through a thematic matrix yields a more 
complete view of the interrelationship of NOAA programs and project 
teams that cut across the traditional NOAA product and service lines. 
Organizing the budget in this manner demonstrates NOAA's commitment to 
addressing critical environmental issues in a multi-disciplinary 
manner. The six themes included in the Fiscal Year 2004 NOAA budget 
are: Infrastructure, Maintenance, Safety & Human Capital; Homeland 
Security; Climate Change, Research, Observations & Services; Ecosystem 
Forecasting & Management; Energy & Commerce; and Environmental 
Monitoring & Prediction. I would like to briefly address what is 
covered under each theme.
Infrastructure, Maintenance, Safety & Human Capital ($248.4M, $79.5M 
        increase)
    The full $52.0 million requested for adjustments to base (ATBs) 
appears in this theme. This is the most basic, fundamentally important, 
investment in the infrastructure category. It is the funding necessary 
to support NOAA's people, so they can continue to improve service and 
product delivery to carry out NOAA's mission. This figure includes the 
annualization of the 4.1 percent pay raise in FY 2003, the 2 percent 
pay raise requested in FY 2004, and the funds necessary to increase the 
NOAA Corps and improve ship crew training.
    The funds requested in this category will also assist NOAA in 
beginning to implement agency-wide management improvements. This 
includes addressing remediation projects to improve environmental 
safety and compliance at NOAA facilities, and participating in the e-
gov initiatives that make NOAA more accessible to the American public. 
Funding is also requested for operation and maintenance of the NOAA 
Ship FAIRWEATHER, weather forecast office and housing construction in 
Alaska and the Pacific Region, the $10.4 million NOAA share in the cost 
of the Center for Weather and Climate Prediction construction and the 
NOAA Satellite Operations Facility in Suitland, Maryland.
    This theme also includes investment in health and safety through 
improvements and upgrades in NOAA's facilities and equipment, such as 
the NOAA P-3 ``hurricane hunter'' aircraft. An investment of $1.7 
million this year is requested to upgrade the navigational system of 
this advanced atmospheric and environmental platform used for hurricane 
research.
    Among all the items included in this theme, the most important 
component of NOAA activities is the people who generate our products 
and services. Retaining and appropriately compensating the people at 
NOAA who are working to help us reach our goal of improving services 
delivery is crucial to attaining this goal. As you are aware, last year 
NOAA underwent an Agency-wide realignment to help move NOAA into a more 
efficient mode of operations. The Program Review Team (PRT) posed 3 
questions to the NOAA staff, the answers to which formed the core of 
the PRT report and recommendations:

        Is NOAA's organization aligned with its current missions, now 
        and for the future?

        Are NOAA's resources properly aligned with requirements?

        Is NOAA doing things as efficiently as possible?

    The goals of the PRT exercise were to improve NOAA business 
practices, including grant management and facilities planning, and to 
move towards becoming a citizen-centered, results-oriented, market 
based organization. This effort has resulted in several management 
improvements just in the last year, including the creation of the 
Planning, Programming and Integration (PPI) office, and establishing 
official matrix management teams for the Coral Reef, Habitat 
Restoration, Ocean Exploration and Climate programs. NOAA is also 
moving towards integrating program budgeting and performance, 
separating fisheries science and regulation, and strengthening NOAA 
administrative services by implementing Activity Based Costing (ABC), 
and Business Management Fund Development.
Homeland Security and Related Programs ($65.1M, $7.7M increase)
    The investments in this area focus on existing NOAA products and 
science which can be utilized for Homeland Security. Priorities are on 
the ``first responders,'' which enable NOAA technology to be accessed 
and used by local, state, and federal emergency managers. The funding 
provided under this theme provides critical infrastructure and enhanced 
security to current NOAA facilities.
    For first responders, NOAA is requesting $5.5 million to support a 
scaled upgrade of the current NOAA Weather Radio (NWR) network to an 
All Hazards Warning Network for civil emergency messages. The existing 
NWR network provides the most robust government-owned dissemination 
infrastructure capable of meeting the all-hazard dissemination 
requirements. This investment will decrease the time to disseminate 
civil emergency messages from an average of 7 minutes to 2 minutes. 
This request is a one-time cost. The funds will allow NOAA to modify 
existing Advance Weather Interactive Processing System (AWIPS) 
communications software to allow emergency managers to directly 
transmit a civil emergency message over secure lines. This modification 
will have immediate, nationwide impact because NWR is located in every 
state, linked to the Emergency Broadcast System, and NOAA weather radio 
receivers are widely available in the commercial market.
    The security and safety of NOAA facilities is an equally important 
element of this budget theme. $2.2 million is requested in the FY 2004 
budget for emergency preparedness and safety to improve the overall 
physical security at National Weather Service (NWS) facilities to 
preclude unauthorized individuals from entering and tampering with NOAA 
property. This investment will provide for alarm or monitoring systems 
at 92 weather forecast offices and national centers, as well as 
electronic or cipher door locks at 149 weather forecast offices or 
national centers. These small improvements will go a long way towards 
improving the safety and security of the physical workplaces of NOAA 
employees across the country.
Climate Change, Research, Observations & Services ($295.5M, $16.9M 
        increase)
    NOAA is requesting a $16.9 million increase for our climate 
research activities, which is just a portion of the government-wide 
$185 million Climate Change Research Initiative (CCRI). This funding 
will allow NOAA to complete 29 stations out of a network of 36 
atmospheric vertical profiling stations around North America, and begin 
producing improved decision support tools, including regional carbon 
maps. This theme also includes funding for the increased computing 
needs at the Geophysical Fluid Dynamic Laboratory (GFDL) in Princeton, 
New Jersey, and further development of the global ocean observing 
system to meet long-term observational requirements of operational 
forecast centers, research programs, and major scientific assessments. 
This initiative builds on the FY 2003 request, focusing on the 
effective use of scientific knowledge in climate policy and management 
decisions to reduce uncertainties in climate science and develop 
research and operational climate products based on science. This 
strategy is aligned with National Academy of Science recommendations, 
and takes operational climate forecast capabilities to a 24x7 world.
Climate Symposium Event
    From December 3-5, 2002, under the leadership of James R. Mahoney, 
Assistant Secretary of Commerce for Oceans and Atmosphere, NOAA and 12 
other U.S. Government Agencies hosted a major workshop in Washington, 
DC under the umbrella of the newly formed U.S. Climate Change Science 
Program (CCSP). The CCSP incorporates both the U.S. Global Climate 
Change Research Program and the Climate Change Research Initiative. The 
workshop responded to the President's initiative to make the U.S. 
global change and climate change science programs more objective, 
sensitive to uncertainties and open for public debate. The workshop 
specifically focused on reviewing the CCSP's draft strategic plan for 
climate change and global change studies, with an emphasis on 
developing short-term (two- to four-year) products to support climate 
change policy and resource management decision-making. The FY 2003 
budget for the CCSP is approximately $1.75 billion. The NOAA request 
for CCRI for Fiscal Year 2004 is $41.6 million, out of a government-
wide $182 million.
NOAA's Climate Services Program
    The nation needs accurate, comprehensive and timely information 
about climate variability and trends, climate change and climate 
uncertainties. NOAA's Climate Services Program is an integrated 
endeavor designed to develop and deliver climate information, thereby 
providing an improved basis for climate-related decision-making. NOAA's 
Climate Services Program will be managed in a new way within the 
organization. NOAA has instituted a new Climate Office. The new NOAA 
Climate Office will consist of representatives from each of the NOAA 
Line Offices (NOAA National Environmental Satellite, Data and 
Information Service (NESDIS), NOAA National Marine Fisheries Service 
(NMFS), NOAA National Ocean Service (NOS), NOAA National Weather 
Service (NWS) and NOAA Office of Oceanic and Atmospheric Research 
(OAR)) and will focus on all NOAA climate programs. This is in contrast 
with the current NOAA Climate Observations and Services Program office, 
which primarily focuses on new climate funding and only has 
representatives from OAR, NWS and NESDIS. The new NOAA Climate Office 
will work on NOAA's climate programs, as well as supporting NOAA's 
efforts in the interagency Climate Change Science Program. It will be 
established in accordance with the matrix management principles 
outlined in the Program Review Report (while the existing Climate 
Observations and Services Program office will form the basis of the new 
NOAA Climate Change and Variability Office and will continue to be 
hosted by OAR).
    One of NOAA's top strategic goals in this area is to understand and 
enhance society's adaptation to climate variability and change. NOAA 
has initiated a new Climate Services Program in an effort to coordinate 
climate activities across all NOAA line offices. NOAA is requesting 
$2.0 million to help improve our understanding of how climate change 
affects marine and coastal ecosystems in the Bering Sea and Gulf of 
Alaska. The waters of Alaska are the most productive fisheries in the 
world and are home to a wide variety of ecosystems. While NOAA is aware 
of changes occurring in the climate, we currently lack comprehensive 
understanding of how these processes can effect biological and other 
changes in marine ecosystems. The study of the effects of climate 
changes upon fisheries, marine mammals and birds, ocean temperatures 
and currents, and other impacted areas is an important task to ensure 
that the fisheries remain productive in the 21st century. These funds 
will be used to develop and implement models to understand these 
dynamics and will fund long-term observations and studies to correlate 
the relationships between climate and changes in marine ecosystems. 
Researchers in the Northwest Climate Impacts Group interact with 
stakeholders to develop and test products based on stakeholder's 
needs--linking climate and weather information to marine ecosystems 
(chiefly Pacific salmon); hydrology and water resources (including 
hydropower, forest resources), coastal resources; and health.
    NOAA's success in providing integrated climate services to the 
nation can be attributed to NOAA's unified strategy for transitioning 
research into systematic and sustained outreach. Specifically, NOAA's 
Climate Services Program will benefit from the participation of several 
NOAA line offices: NWS, NESDIS, and OAR are the primary producers of 
climate information within NOAA. It is also important to acknowledge 
the role of the NOAA Officer Corps. The NOAA Corps operates a fleet of 
research vessels and aircraft that directly contribute to and support 
these line offices with implementing their climate research, 
observations and service activities.
NOAA Climate Partnerships, Education, and Outreach Efforts
    NOAA maintains partnerships with universities, private industry, 
other U.S. agencies, nations and international bodies to observe and 
monitor the climate, further scientific knowledge, and make climate 
assessments/predictions. NOAA also works closely with private sector 
partners to develop products to meet stakeholders' needs and to ensure 
that the data and information delivered are readily understood and can 
be used to develop value-added tailored products and services for 
business, industry and the public.
    Climate is a key issue for NOAA and its strategic goals for the 
future. From observations to research to operational product delivery, 
NOAA maintains significant involvement in helping the nation and the 
world respond to the impacts of climate variability and change. NOAA 
manages several global data bases--for meteorology, oceanography, solid 
earth geophysics, and solarterrestrial sciences. From these sources, 
NOAA develops and provides environmental data and information products 
and services. NOAA gathers global data about the oceans, Earth, air, 
space, and sun and their interactions to describe and predict the state 
of the physical environment.
    The President's CCRI led to the creation of a new interagency 
framework to enhance coordination of Federal resources and research 
activities. Under this framework, thirteen Federal agencies are working 
together under the leadership of a Cabinet-level committee on climate 
change to improve the value of U.S. Climate Change research. Even in 
this time of difficult budget decisions, the President is committed to 
fully funding climate research so that we can continue to reduce the 
uncertainties associated with climate change.
Ecosystem Forecasting & Management ($1,017.1M, $76.0M increase)
    NOAA is the largest regulatory agency within the Department of 
Commerce. Most NOAA regulatory functions and activities are captured 
under this budget theme. $52.7 million of the increase in this theme 
involves investments in rebuilding fisheries, and conserving and 
restoring living marine resources and habitats. This theme focuses on 
enhancing the understanding of the physical, chemical and biological 
components of ocean and coastal ecosystems by supporting research and 
prediction of impacts of environmental factors on the distribution and 
fate of species and their habitats. Another important activity carried 
out under this theme is satisfying immediate legal and regulatory 
requirements of resource stewardship, including Section 7 consultations 
under the Endangered Species Act, Northeast Groundfish observers, 
regulatory streamlining, socioeconomic capacity and management of the 
Columbia River Biological Opinion process. This area also includes a 
reduction of $20 million for the Pacific Salmon Treaty for which all 
U.S. obligations have been met.
    The largest portion of the funding requested under this theme, 
$57.4 million, and 23 FTE, is for the National Sea Grant College 
Program. The Administration had previously requested that this program 
be moved to the National Science Foundation, and is now requesting that 
the program be retained within NOAA. This program serves more than 300 
participating institutions nationwide, and has a network of more than 
3,000 scientists, engineers, outreach experts, educators and students.
    Research initiated under this theme includes studying the influence 
of climate change on the stewardship of coastal and marine ecosystems, 
and the scientific basis for management of fisheries to rebuild 
fisheries and recover protected species. Specifically, as I mentioned 
earlier, this theme includes $2.0 million for improving the 
understanding and prediction of climate change on major U.S. marine and 
coastal ecosystems in the Bering Sea and the Gulf of Alaska.
    It also includes $3.0 million to modernize and expand stock 
assessments. This funding will add 170 research days at sea which will 
be used to improve the comprehensiveness, timeliness, quality and 
communication of state-of-the-art assessments to NOAA Fisheries and the 
Regional Fishery Management Councils. The resulting assessments will be 
of higher quality and more frequency, which reduces the uncertainty in 
choosing and monitoring rebuilding and management policies. This 
improvement in the scientific basis for mangement will raise the 
confidence and certainty of both fishery managers and the industry that 
our management strategies are necessary and sufficient to return the 
greatest benefits to the nation.
    $2.0 million is also requested for 10 FTE for Section 7 
consultations. This new funding will help NOAA meet the court-ordered 
deadlines to conduct consultations on pesticides with the Environmental 
Protection Agency (EPA).
    There is also $3.0 million included in this theme that will be used 
to increase the number of New England Groundfish observers to meet the 
court ordered level of 10 percent observer coverage in the region.
    The $3.1 million requested for the Federal Columbia River Power 
System Biological Opinion (Columbia River BiOp), and Basin-wide 
Recovery Strategy will be used to ensure that management activities 
necessary for this program are undertaken. This includes allowing NOAA 
fisheries to promote subbasin planning, enhance recovery planning, and 
review passage and screening enhancements in priority watersheds.
    The $2.8 million requested for reducing bycatch will be used to 
support approximately 2,000 days at sea for observers. These days at 
sea will be used to enhance and coordinate technical expertise to 
respond to bycatch issues, including examining existing bycatch 
reduction methods, evaluating their effectiveness, and designing and 
testing new methods. These additional funds would complement existing 
marine mammal efforts and the provisions of the Administration's 
legislative proposal for the Marine Mammal Protection Act to reduce 
mortality and serious injury of marine mammals incidental to commercial 
fishing. These efforts include the collection of data to assess the 
impact of fishery mortality on marine mammals and to evaluate and 
develop new fishing gear or practices.
    This theme also includes $1.5 million for regulatory streamlining 
activities, to improve NOAA's ability to administer the National 
Environmental Policy Act (NEPA) and other regulatory collection 
activities through the development of an information technology (IT) 
system.
Energy & Commerce ($116.0M, $7.7M increase)
    This theme includes a $17 million investment in the safety and 
productivity of our nation's waterways and harbors which will help 
sustain our economy by increasing the levels of trade and improve our 
abilities in forecasting regional climate and temperature variations 
which will serve to improve power forecasting and result in savings for 
the power industry and other public groups.
    This theme also incorporates $1.2 million to support our High 
Impact Weather investment. This investment enhances the modernization 
of the NOAA National Weather Service (NWS) Cooperative Observer 
Network, which provides the nation with a network of state-of-the-art 
measurement, monitoring, and communication equipment for surface 
weather data collection. This includes the modernization of 307 
Cooperative Observers Program (COOP) stations in New England.
    Also included is $2.0 million to build and maintain an additional 
100 electronic navigational charts (ENC) to provide contiguous coverage 
of the Gulf of Mexico and the east coast of the United States. This 
will go a long way towards helping us achieve our goal of expanding the 
ENC inventory to a total of 550 by 2006, just over half the 1000 ENCs 
required to achieve full coverage of all U.S. waters.
    Another element of this theme is the $1.0 million investment in the 
development of additional forecast model systems for key ports and bays 
to promote the safe and efficient transit of cargo through our 
waterways. This will provide full three-dimensional coverage of a 
commercial port for water levels, current fields, salinity and water 
temperature and help measure under-keel ship clearances.
    The $2.0 million for a Vessel Time Charter to expand our 
hydrographic surveying capacity is also included in this theme. The 
funds requested for this activity in FY 2004 build on the request from 
FY 2003, allowing the vessel to operate in both the Gulf of Mexico and 
Alaska, collecting data on an additional 550 square nautical miles. 
Using both government and private resources to collect this data will 
allow NOAA to accomplish this goal efficiently in FY 2004.
    Another system that requires upgrades is the National Water Level 
Observation Network (NWLON), which is over 20 years old. The requested 
$1.5 million for NWLON will be used to repair these ailing stations, 
which provide data used for nautical charting, real-time navigation, 
hazardous material response efforts, and tsunami and storm surge 
warnings, to name a few uses.
Environmental Monitoring & Prediction ($1,600.6 M, $99.5M increase)
    This theme is organized around two components-observing platforms 
and sustaining current capabilities. Environmental Monitoring and 
Prediction includes a $35.4 million investment by the Agency (not 
including $122.4 million for Geostationary Operational Environmental 
Satellite (GOES), Polar Operational Environmental Satellite (POES) and 
the National Polar Orbiting Operational Environmental Satellite 
(NPOESS)) to support technological advancements in NOAA's severe 
weather prediction efforts. This theme includes data collection 
activities on the status and health of the ecosystem. This area also 
covers the maintenance of the infrastructure needed to ensure basic 
operations and safety of NOAA employees, and incorporates and expands 
NOAA's satellite monitoring and in situ observations. The demand for 
these types of NOAA products and services is expected to rise 
significantly over the next several years, particularly in the key 
areas of Homeland Security and Climate Change.
    In light of the recent tragic loss of the space shuttle Columbia, 
as Deputy Secretary Bodman noted in his testimony before the House 
Science Committee on February 13, I would like to remind the Committee 
that NASA and NOAA have a long history as partners in the development 
of our environmental satellite systems. As part of our routine support 
to the NASA shuttle program and satellite launches, NESDIS and NWS 
provide specialized services, including space-based observations and 
weather forecasts. At the time of the accident, NWS transmitted 
emergency broadcasts in Texas and Louisiana via the NOAA Weather Radio 
(NWR) network.
    The FY 2004 request for the polar-orbiting and geostationary 
satellites ensures the simultaneous operation of existing satellite 
series while supporting planned critical path acquisition activities 
for future systems. These data are used to predict hurricanes and other 
types of severe weather, support search and rescue operations, provide 
global monitoring and climate assessment and prediction, and monitor 
significant events such as volcanic eruptions, wildfires and oil 
spills.
    The bulk of the funding under this theme will be used to support 
NOAA's observing platforms. This includes a $50.2 million net increase 
for post launch requirements for GOES I-M, the continued procurement of 
the GOES-N series satellites, instruments, ground systems and systems 
support necessary to maintain the continuity of geostationary 
operations, as well as planning and development of the GOES-R series of 
satellites and instruments. GOES-R will significantly improve weather 
forecasting as well as homeland security. To support the POES and 
NPOESS programs, NOAA has requested a $31.5 million net increase in the 
FY 2004 budget. The NPOESS program will continue the space-based 
climate record, as well as significantly improving weather forecasting 
and homeland security. The satellites supported by NESDIS are used by 
NWS, NOS, NMFS and OAR to support their weather, climate and navigation 
safety missions.
    A relatively small $2.0 million of the funding requested under this 
theme is requested to add sensors to the NOAA's Coastal Global 
Observing System to provide definitive information on the effects of 
the changing climate on coastal communities in the United States, and 
to improve ocean condition forecasts that adversely affect coastline 
erosion. The funds will be used to add ocean instrumentation for 
surface salinity, water temperature and currents to all the existing 
buoys and coastal marine stations operated by the National Buoy Data 
Center (NDBC). It adds 15 moored buoys and 15 coastal marine (CMAN) 
units in areas where data collection buoys are sparse.
    This theme also includes $1.3 million in funding requested to 
sustain the operations of the international research program known as 
THORpex, which stands for The Observing Research and Predictability 
Experiment. THORpex seeks to gain a better understanding of the global 
impact of weather predictability, with the goal of improving our 3 day 
forecast accuracy to that of our current 2 day forecast, and producing 
reliable forecasts up to 14 days in advance. This investment will be in 
new technologies and improving our data assimilation and numerical 
weather prediction capability.
    An additional $1.3 million is requested under this theme for 
sustaining our flood prediction capability along the Susquehanna River 
in the states of New York, Pennsylvania and Maryland. The Susquehanna 
is a 444-mile river whose basin extends from Cooperstown, NY, to the 
Chesapeake Bay. It sustains six times the nation's average in flood 
damages per square mile each year. The $1.3 million can be broken down 
as follows: $0.6 million for flood forecast enhancements, $0.5 million 
for the data network and $0.2 million for the Susquehanna River Basin 
Commission for Outreach and Community Assistance.
    We are also asking for $3.6 million to sustain our weather warning 
and forecast services for the Pacific Islands. This will allow NOAA to 
continue providing upper-air and aviation surface observations in the 
Republic of the Marshall Islands, the Federated States of Micronesia 
and the Republic of Palau. These observations are critical to 
accurately forecasting weather events in the Pacific Region.
    Another important element covered by this theme is aircraft 
maintenance. We are requesting $1.5 million for necessary aircraft 
maintenance including manufacturer-required, mid-life inspection of our 
G-IV aircraft used for hurricane surveillance and winter storms 
reconnaissance. $1.6 million is also requested for a replacement 
aircraft to conduct snow surveys. The aircraft currently used for this 
purpose is experiencing an increase in unscheduled maintenance 
downtime, and this aircraft provides critical data as part of our 
airborne snow survey program.
    Another area where we are looking to add funding for a technology 
infusion is for our NWS Telecommunications Gateway. The $2.9 million 
requested for this purpose will be used to reduce time delays for 
disseminating critical hydrometeorological data for NWS national 
centers, weather forecast offices, and other federal agencies and 
partners that rely on this data for operations. This funding will 
address electric power and facility deficiencies, and be used to 
replace the communications matrix switch, and some enterprise servers 
and front-end processors. The servers and processor replacement 
activity will be ongoing because it is a two-year refresh program. 
These pieces of equipment need to be replaced in order to meet our goal 
of achieving transmit times of less then 10 seconds for watches and 
warnings by 2005. Currently the average delay is between one and two 
minutes. More efficient information technology equipment is the key to 
reducing this transmit time to the required level by 2005. Another area 
that warrants investment is NEXRAD technology deployment. The $3.7 
million requested for this activity will also improve lead times, 
expanding average tornado warning lead times from 11 minutes to 15 
minutes by 2007, and increasing the forecasters' ability to detect 
small tornadoes. This investment will allow NOAA to purchase and deploy 
82 all Open Radar Data Acquisition (ORDA) systems prior to the onset of 
severe-weather season in FY 2005, and complete deployment of ORDA 
systems by the end of FY 2006. Supporting these programs and 
initiatives will significantly improve NOAA's ability to support 
weather and water, ecosystems, and homeland security programs.
Other Key Projects/Programs in FY 2004 President's Budget
    Some of the other key areas of investment in the FY 2004 budget 
request include funding for our laboratory research programs, which 
provide for continued ocean observations, baseline observatories, and 
climate change assessments. Funding also provides for our SEARCH 
program that focuses on detection of climate change in the Arctic, and 
to continue NOAA's Energy Initiative, which consists of high impact 
weather and air quality activities, including funding for the Joint 
Hydrography Center in New Hampshire. Funding is also provided for 
undersea exploration, research, and technology in both the deep ocean 
and the U.S. Exclusive Economic Zone (EEZ), as well as to maintain our 
fundamental data collection and assimilation for the National Weather 
Service. This type of funding also allows NOAA to continue the vessel 
monitoring system for our enforcement and surveillance activities.
Conclusion
    NOAA's Fiscal Year 2004 Budget request invests in our priority 
areas: people, climate, energy, homeland security, infrastructure, 
research, science, and services. In this time of tight budgets and 
difficult funding decisions, this budget maintains NOAA on its course 
to realize its full potential as this nation's premier environmental 
science agency. The new thematic budget structure reflects NOAA's 
business approach as an integrated NOAA team which responds to the 
needs our customers and employees have voiced in workshops and 
communications efforts. NOAA is also doing its part to exercise fiscal 
responsibility as stewards of the Nation's trust as well as America's 
coastal and ocean resources. And, in the same way that NOAA is 
responsible for assessing the Nation's climate, we have assessed and 
are improving our management capabilities. NOAA will continue to 
respond to key customers and stakeholders, and will continue to 
leverage its programs and investments by developing those associations 
that most efficiently and economically leverage resources and talent, 
and that most effectively provide the means for successfully 
maintaining NOAA mission requirements. NOAA's budget strongly 
demonstrates the success of performance budgeting, where funding has 
been matched by results. Each request in the Technical Budget includes 
specific goals and descriptions of expected performance factors. NOAA 
Senior Management is now required to report every quarter on a set of 
performance measures that have come to be known as ``The 
Administrator's Metrics.'' This new set of reporting requirements 
reflects NOAA's commitment to ``Management by Fact,'' a philosophy NOAA 
will continue to demonstrate throughout Fiscal Year 2004 and beyond. 
Thank you for the opportunity to present NOAA's Fiscal Year 2004 
budget.

    Senator Snowe. Thank you very much, Admiral Lautenbacher.
    Ms. Hecker?

      STATEMENT OF JayEtta Z. HECKER, DIRECTOR, PHYSICAL 
      INFRASTRUCTURE TEAM, GENERAL ACCOUNTING OFFICE (GAO)

    Ms. Hecker. Thank you very much, Madam Chair, Senator 
Stevens.
    I want to start by thanking you for your kind words and 
reassure you that, indeed, it has been a pleasure working the 
Coast Guard portfolio. And, in fact, looking at both you and 
Senator Stevens here, it is with the Coast Guard that I have 
had the pleasure to visit both Maine and Alaska and look at the 
important missions, the many varied and significant missions, 
to each of your states. So while I would go to either state on 
my own, I have seen the Coast Guard operations in both states.
    Basically, my remarks here will cover three areas, and I 
will try to get through them quickly so we can get to your 
questions. The first one is the current and historical activity 
patterns of the Coast Guard in the post-9/11 environment, and 
some comparative data. Then the second is the implications or 
what kind of impact we see from the 2004 budget on those 
traditional levels; and then summarize with some key challenge 
the agency faces in trying to balance its resources and 
maximize its effectiveness in this very resource-intensive 
environment.
    Regarding the issue of the update on trends, we completed a 
report in November 2002 for this Subcommittee and conducted a 
detailed review of all the data available and all the ways to 
measure the level of effort that the Coast Guard was able to 
perform in its varied missions.
    Basically, the way I will summarize it today, and we have 
updated this to the most recent quarter, there are several 
missions that, of course, have substantial increases, and that 
is the coastal security area; there are several that have been 
relatively stable, about the same over time; and then there are 
some that have seen some very significant drops.
    The first one, on my right here, is the chart on coastal 
and port security. This is based on data current as of the 
quarter ending, December 31, 2002. This is operational activity 
data for all of the major mission areas, so this is all the 
cutters and all of the air assets. And you can see what a very 
low level it was before 9/11. Then it shoots up in the quarter 
immediately after 9/11. And then trying to attempt to restore 
some new normalcy, you see it coming down, but then you see it 
shooting up, and that second peak is basically with the July 
4th, 2002, and the period representing the anniversary of 9/11 
(September 11th, 2002), when there was another peak.
    The two areas where there has been relative stability after 
the adjustment of that first quarter are basically SAR and aids 
to navigation. The Coast Guard has said it will not let SAR be 
compromised, and the data shows that it has not been.
    In two areas, drug interdiction and fisheries, there have 
been dramatic reductions over time. These charts represent 
actual data of the resource utilization of Coast Guard assets 
since 1998, and there was basically a reduction of about a 
third, from the 1998 period to the most recent quarter. You can 
see that there was an even more dramatic reduction, a two-
thirds reduction in the use of the assets, in the drug 
interdiction area.
    Let me move now to my second area, that is, ``What is the 
impact of the proposed 2004 budget on some of these areas that 
have experienced such dramatic shortfalls?'' basically, this is 
the question that this Committee and, in fact, the entire 
Congress asked in passing the homeland security legislation. 
The Congress focusing on the broad range of Coast Guard 
activities, is interested in knowing when the activity levels 
for all the missions will be restored to pre-9/11 levels?
    Our analysis of the budget and the current situation leads 
us to conclude that it is unlikely that these mission areas, 
particularly drug interdiction and fisheries, can be restored 
to historical levels anytime soon. And, basically I have 
several reasons to support our conclusion here.
    First regarding the 2004 budget, I think, as the Commandant 
said, the two real priorities are port and coastal security and 
SAR. That is where most of the major funding increases for new 
initiatives are. So there are no new resources in 2004, really, 
for these law enforcement areas that have been so significantly 
affected.
    The second, of course, is that--and it is interesting, if 
you look back to the chart on the port security; there is an 
inverse relationship--These resources are finite. Thus, the 
more resources that go into one area--such as an increase in 
the port security--there is a corresponding decrease in other 
areas. The same assets are used for both. They can be either 
one place or another. Sometimes, they are able to do both, but, 
for the most part, there is a fundamental trade-off.
    The third point is that unexpected, external events drive 
the use of resources. In the last year, there have been surges 
again of that--for the July 4th and first anniversary of 9/11. 
There were corresponding decreases in the other areas. And, in 
fact, there is a new surge happening in the current quarter, 
that can be attributed to the period of the orange alert and 
the resources going overseas for the Gulf War. There is 
significant decline in some missions that, again, are going to 
be reflected in activity data for the quarter ending March 31, 
2003.
    The fourth point is that the full cost of the recently 
enacted Maritime Transportation Security Act is not yet 
reflected in this FY 2004 budget request, and that is 
understandable. MTSA was passed after the FY04 budget request 
was formulated. Of course, the FY03 budget had been finalized, 
not passed. So, there are several responsibilities that the 
Coast Guard is already having to assume, and those resources 
will have to come out of other areas, from current resources. 
The Coast Guard says that in the next budget the full cost 
impact of MTSA implementation will be seen.
    Now, there is another issue in the budget that has some 
longer-term implications, and the Commandant brought this up, 
and I want to underscore the importance of the Deepwater 
Project and how vital it is to so many missions. And as he 
said, and as you said, the funding for the Deepwater Project is 
already behind schedule. The calculations we have, which are 
higher than yours, Madam Chair--basically because it reflects 
the management resources for the Coast Guard, not just the 
contractor--are already $83 million less than planned this year 
alone, and $200 million for the first 2 years, in real terms. 
So the agency is already in the hole in terms of funding. And I 
am very sorry to report, and I am sure the Commandant will 
confirm, that they are already having to delay the delivery of 
new patrol aircraft for 19 months, and the conversion of the 
110-patrol boats, because of this shortage. There is a very 
real impact to those shortages. You know, the Commandant must 
defend the budget and say that he is going to do the best, but 
the best with it is basically having to make some 
accommodations already.
    We are concerned about further significant funding 
shortfalls--not only because of delayed delivery of assets. It 
has a rolling effect because the total Deepwater assets will 
cost more, the agency must operate the old assets longer, and 
more resources are required to maintain the legacy assets for a 
longer period of time. Also, funding shortfalls basically start 
to have a negative impact on the very missions that are already 
below the 9/11 activity levels.
    Basically, you see that we have some real concerns. Our 
recommendation here is the same as we had in our November 2002 
report. The budget increases have been very substantial and 
generous by this committee and the Congress over the last 2 
years and, in fact, since 1998; however, there are fundamental 
challenges the Coast Guard faces in really balancing its 
mission and in attempting to accomplish the many missions that 
it has been assigned.
    We believe it is time for a candid acknowledgment that the 
Coast Guard really cannot continue to be ``all things for all 
people'', and that, at least in the short-run, the Coast Guard 
is not going to be able to reach its pre-9/11 activity levels 
in a number of key missions.
    What we have called for is a comprehensive blueprint that 
assists the Congress in recognizing the tradeoffs that are 
already occurring and the effort to balance and carry out the 
full range of missions and defining the new normalcy. The Coast 
Guard has agreed with this, and they have some efforts underway 
to try to address it. We think it should receive more urgency. 
In fact, my statement today contains some very specific 
clarifications or refinements to our November 2002 
recommendations of what this blueprint should include.
    Realistic targets for levels of efforts are needed. For 
example, what is the drug target level of effort? The Coast 
Guard is clearly in a different environment that may affect the 
efficacy of the targets that were set by the ONDCP--and this is 
a homeland security mission. This is a mission that it is 
important; it is documented that illegal drug money finances 
terrorists, and yet there must be tradeoffs made among missions 
to provide resources for coastal security.
    So what are the real realistic targets for different level 
of efforts? What are the action plans for achieving those 
targets? What are some realistic performance measures for all 
of the missions? And finally, developing an approach that 
collects and reports and brings this data to the Congress with 
respect to levels of effort as well as the extent performance 
goals were met in a useful, meaningful way. Thus, the Congress 
can make the difficult policy and budget choices that you are 
forced to make in these times.
    That concludes my statement. Thank you very much, Madam 
Chair and Senator Stevens.
    [The prepared statement of Ms. Hecker follows:]

      Prepared Statement of JayEtta Z. Hecker, Director, Physical 
                        Infrastructure Team, GAO
    Madame Chair and Members of the Subcommittee:
    I am pleased to be here today to discuss the President's Fiscal 
Year 2004 budget request for the Coast Guard and the challenges the 
agency faces in this and future budgets. Since the terrorist attacks of 
September 11, 2001, the Coast Guard has had to reinvent itself in many 
respects, shifting its focus and resources from many of its traditional 
missions--such as stemming the flow of illegal drugs and protecting 
important fishing grounds--to homeland security. The President's Fiscal 
Year 2004 budget request for the Coast Guard is $6.8 billion, a 9.6 
percent increase in nominal dollars from the previous year. If the 
request is approved, about half of the agency's operating expenses will 
be directed to fulfilling expanded homeland security responsibilities. 
How--and whether--the Coast Guard can continue to meet its 
responsibilities for all of its missions, given the increased emphasis 
on and resources required for homeland security, is a matter of great 
concern to the Congress.
    My testimony today, which is based on recently completed work, 
addresses three topics: (1) the most recent levels of effort for the 
Coast Guard's various missions, and how these levels compare to those 
in the past; (2) the implications of the proposed 2004 budget for these 
various levels of effort; and (3) the challenges the Coast Guard faces 
in balancing its resources among its missions and ensuring and 
maximizing its effectiveness in each of its missions. The scope and 
methodology of our review is described in the appendix.
In summary
    The most recent levels of effort for the Coast Guard's various 
missions, as measured by the use of multiple-mission resources such as 
cutters, patrol boats, and aircraft, show clearly the dramatic increase 
in the amount of time spent on homeland security following the 
September 11th attacks. In the months after the attacks, as the initial 
surge in homeland security activities was abating, activity in many 
other missions began returning to pre-September 11th levels, but some 
have not yet recovered. For example, the amount of resource hours 
currently being spent on search and rescue and maintaining aids to 
navigation are fairly consistent with traditional levels over the last 
5 years. However, there have been substantial declines from traditional 
levels of time spent on two law enforcement missions--fisheries 
enforcement and drug interdiction. Although the Coast Guard Commandant 
has stated that the Coast Guard would like to return all law 
enforcement missions to 93 percent of pre-September 11th levels by the 
end of 2003 and 95 percent by the end of 2004, it appears unlikely that 
the Coast Guard can meet these goals. Achieving these goals depends 
heavily on not having to respond to such contingencies as heightened 
terror alerts or deployment of Coast Guard resources in military 
operations. However, in the current environment, such contingencies 
continue to occur, as evidenced by the recent deployment of several 
cutters and patrol boats to the Persian Gulf as part of the Middle East 
buildup.
    The Fiscal Year 2004 budget request for the Coast Guard contains 
little that would substantially change the levels of effort for most 
missions. The budget request of $6.8 billion represents an increase of 
about $592 million, or almost 10 percent over the previous year. About 
$168 million is earmarked for new initiatives, mainly in homeland 
security and search and rescue missions. Coast Guard officials said 
that some of the new initiatives, such as establishing better 
intelligence networks, would have potential benefit for other security-
related missions, such as migrant and drug interdiction, but the 
initiatives do not directly pertain to augmenting activities or adding 
new capacity in those missions that have seen substantial declines in 
activity.
    Although the Coast Guard has received substantial budget increases 
in recent years to deal with its increased responsibilities--a trend 
that continues in the proposed budget--the Coast Guard still faces 
fundamental challenges in being able to accomplish all the 
responsibilities it has been given. The Coast Guard's Deepwater 
Project, a modernization effort for cutters, patrol boats, and 
aircraft, has already experienced delays in the delivery of key assets, 
jeopardizing the agency's future ability to carry out a number of 
missions at optimum levels. This situation could worsen because the 
Coast Guard has tied successful completion of the project to levels of 
funding that are beyond what has been available. Another budgetary 
challenge is that, for the foreseeable future, the Coast Guard must 
implement a variety of recently mandated homeland security tasks by 
taking resources from other activities. Similarly, any unexpected 
changes--such as terrorist attacks or extended terror alerts--could 
also result in using resources for homeland security purposes that 
would normally be used for other missions. Such challenges raise 
serious concerns about the Coast Guard's ability to meet traditional 
expectations across the broad range of all of its missions. In recent 
reports \1\, we have pointed to several steps that are needed in such 
an environment. One is to continue finding ways to operate more 
efficiently to maximize the existing resources available. Another is to 
develop a comprehensive blueprint for accomplishing mission 
responsibilities. This blueprint needs to recognize the new operating 
reality created by the Coast Guard's increasing homeland security role 
and translate that reality into establishing realistic level-of-effort 
targets for all of its missions, a plan for achieving these targets, 
and appropriate measurement and reporting of results so that the agency 
and the Congress can better decide how limited dollars can be spent.
---------------------------------------------------------------------------
    \1\ Coast Guard: Strategy Needed for Setting and Monitoring Levels 
of Effort for All Missions. GAO-03-155 (Washington, DC: Nov. 12, 2002), 
and Homeland Security: Challenges Facing the Coast Guard as it 
Transitions to the New Department. GAO-03-467T (Washington, DC: Feb 12, 
2003)
---------------------------------------------------------------------------
Background
    The Coast Guard, which became a part of the Department of Homeland 
Security on March 1, 2003, has a wide variety of both security and 
nonsecurity missions. (See table 1.) The Coast Guard's equipment 
includes 141 cutters, approximately 1,400 small patrol and rescue 
boats, and about 200 aircraft. Coast Guard services are provided in a 
variety of locations, including ports, coastal areas, the open sea, and 
in other waterways like the Great Lakes and the Mississippi River. The 
Coast Guard's installations range from small boat stations providing 
search and rescue and other services to marine safety offices that 
coordinate security and other activities in the nation's largest ports.

      Table 1: Security and Nonsecurity Missions of the Coast Guard
------------------------------------------------------------------------
                                 Activities and functions within each
       Mission area *                        mission area
------------------------------------------------------------------------
                            Security Missions
------------------------------------------------------------------------
Ports, waterways, and         Conducting harbor patrols, vulnerability
 coastal security              assessments, intelligence gathering and
                               analysis, and other activities to prevent
                               terrorist attacks and minimize the damage
                               from attacks that occur.
Drug interdiction             Deploying cutters and aircraft in high
                               drug trafficking areas and gathering
                               intelligence to reduce the flow of
                               illegal drugs across maritime boundaries.
Migrant interdiction          Deploying cutters and aircraft to reduce
                               the flow of undocumented migrants
                               entering the United States by maritime
                               routes.
Defense readiness             Participating with the Department of
                               Defense (DoD) in global military
                               operations; deploying cutters and other
                               boats in and around harbors to protect
                               DoD force mobilization operations.
------------------------------------------------------------------------
                          Nonsecurity Missions
------------------------------------------------------------------------
Maritime safety               Setting standards and conducting vessel
                               inspections to better ensure the safety
                               of passengers and crew aboard cruise
                               ships, ferries, and other passenger
                               vessels and commercial and fishing
                               vessels; partnering with states and
                               boating safety organizations to reduce
                               recreational boating deaths.
Search and rescue             Operating small boat stations and national
                               distress and response communication
                               system; conducting search and rescue
                               operations for mariners in distress.
Living marine resources       Protecting our nation's fishing grounds
                               from foreign encroachment; enforcing
                               domestic fishing laws and regulations
                               through inspections and fishery patrols.
Environmental protection      Preventing and responding to marine oil
                               spills; preventing the illegal dumping of
                               plastics and garbage into our nation's
                               waters.
Aids to navigation            Maintaining the extensive system of
                               navigation aids in our waterways;
                               monitoring marine traffic through traffic
                               service centers.
Ice operations                Conducting polar operations to facilitate
                               the movement of critical goods and
                               personnel in support of scientific and
                               national security activity; conducting
                               domestic icebreaking operations to
                               facilitate year-round commerce.
------------------------------------------------------------------------
Source: U.S. Coast Guard.
* The Coast Guard's security and nonsecurity missions are delineated in
  the Homeland Security Act of 2002 (Pub. L. 107-296, Nov. 25, 2002).

    As an organization that is also part of the armed services, the 
Coast Guard has both military and civilian positions. At the end of 
Fiscal Year 2002, the agency had over 42,000 full-time positions--about 
36,000 military and about 6,600 civilians. The Coast Guard also has 
about 7,200 reservists who support the national military strategy and 
provide additional operational support and surge capacity during 
emergencies, such as natural disasters. In addition, about 36,000 
volunteer auxiliary personnel assist in a wide range of activities from 
search and rescue to boating safety education.
    Overall, after using Fiscal Year 2003 inflation-adjusted dollars to 
adjust for the effects of inflation, the Coast Guard's budget grew by 
about 41 percent between Fiscal Years 1993 and 2003. However, nearly 
all of this growth occurred in the second half of the period. During 
fiscal years 1993-1998, after taking inflation into account, the budget 
remained essentially flat. (See fig. 1.) Significant increases have 
occurred since Fiscal Year 1998.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The events of September 11th caused the Coast Guard to direct its 
efforts increasingly into maritime homeland security activities, 
highlighted by the Coast Guard's establishing a new program area: 
Ports, Waterways, and Coastal Security (coastal security). Prior to 
September 11th, activities related to this area represented less than 
10 percent of the Coast Guard's operating budget, according to Coast 
Guard officials. In the Fiscal Year 2004 request, Coastal Security 
represents about one-quarter of the Coast Guard's operating budget. 
Other mission areas, most notably drug interdiction, have declined 
substantially as a percentage of the operating budget.
Security Emphasis Continues to Affect Levels of Effort in Some Missions
    The emphasis the Coast Guard placed on security after September 
11th has had varying effects on its level of effort among all of its 
missions, as measured by the extent to which multiple-mission resources 
(cutters, other boats, and aircraft) are used for a particular mission. 
The most current available data show that some security-related 
missions, such as migrant interdiction and coastal security, have grown 
significantly since September 11th. Other missions, such as search and 
rescue and aids to navigation remained at essentially the same levels 
as they were before September 11th. However, the level of effort for 
other missions, most notably the interdiction of illegal drugs and 
fisheries enforcement, is substantially below pre-September 11th 
levels.
Missions with Increased Levels of Resources
    Missions such as ports, waterways, and coastal security, and 
migrant interdiction have experienced increased levels of effort. 
Coastal security has seen the most dramatic increase from pre-September 
11th levels. (See fig. 2.) For example, it went from 2,400 resource 
hours \2\ during the first quarter of 1999, peaked at 91,000 hours 
during the first quarter of Fiscal Year 2002 (immediately after 
September 11, 2001), and most recently stood at nearly 37,000 hours for 
the first quarter of Fiscal Year 2003. In figure 2, as well as the 
other resource hour figures that follow, we have added a line developed 
by using a linear regression \3\ to show the general trend for the 
period. It is important to note that while such lines depict the trend 
in resource hours to date, they should not be taken as a prediction of 
future values. Other activity indicators, such as sea marshal \4\ 
boardings, also demonstrate an increased emphasis in this area. Before 
September 11th, such boardings were not done, but as of the first 
quarter of 2003 there have been over 550 such boardings. Similarly, 
vessel operational control actions \5\ have risen by 85 percent since 
the fourth quarter of Fiscal Year 2001.
---------------------------------------------------------------------------
    \2\ The Coast Guard maintains information, on a mission-by-mission 
basis, about how cutters, patrol boats, and aircraft are used. Each 
hour that these resources are used in a mission is called a resource 
hour. Resource hours do not include such things as the time that the 
resource stands idle or the time that is spent maintaining it.
    \3\ Linear regression estimates the coefficients of the linear 
equation, involving one or more independent variables, that best 
predict the value of the dependent variable.
    \4\ Sea marshals are armed Coast Guard personnel who board selected 
vessels operating in and around U.S. ports and harbors and take 
position on the ship's bridge and other areas determined to be 
necessary to vessel safety. These teams provide additional security to 
ensure that only authorized personnel maintain control of the vessel at 
all times.
    \5\ Vessel operational control actions are efforts to control 
vessels and can include captain of the port orders, administration 
orders, letters of deviation, and safety and the designation of 
security zones.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Given the emphasis on homeland security, it is not surprising that 
efforts to interdict illegal immigrants have also increased. For 
example, during the first quarter of 2003, the level of effort in this 
area was 28 percent higher than it was for the comparable period in 
1998.
Missions with a Steady State of Resources
    Some of the Coast Guard's traditional missions, such as aids to 
navigation and search and rescue, have been the least affected by the 
increased emphasis on security. While resource hours for both of these 
missions have declined somewhat since the first quarter of Fiscal Year 
1998, the overall pattern of resource use over the past 5 years has 
remained consistent. Although search and rescue boats and buoy tenders 
were used to perform homeland security functions immediately after 
September 11th, their doing so did not materially affect the Coast 
Guard's ability to carry out its search and rescue or aids to 
navigation missions. Search and rescue boats were initially redeployed 
for harbor patrols after the terrorist attacks, but the impact on the 
mission was minimal because the deployments occurred during the off-
season with respect to recreational boating. \6\ Similarly, some boats 
that normally serve as buoy tenders--an aids to navigation function--
were used for security purposes instead, but they were among the first 
to be returned to their former missions. For the first quarter of 
Fiscal Year 2003, the number of resource hours spent on these missions 
was very close to the number spent during the comparable quarter of 
Fiscal Year 1998.
---------------------------------------------------------------------------
    \6\ Search and rescue resources are subject to seasonal cycles, 
with more resources being used during the summer months when boating is 
at its peak.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Performance measurement data further demonstrates the relatively 
minimal impact on these missions resulting from the Coast Guard's 
emphasis on homeland security. For example, for search and rescue, the 
Coast Guard was within about half a percentage point of meeting its 
target for saving mariners in distress in 2002 (84.4 percent actual, 85 
percent goal). Likewise, data show that with respect to its aid to 
navigation mission, in 2002 the Coast Guard was about 1 percent from 
its goal of navigational aid availability (98.4 percent actual, 99.7 
percent goal).
Missions with a Decline in Resource Hours
    A number of missions have experienced declines in resource hours 
from pre-September 11th levels, including drug interdiction, fisheries 
enforcement (domestic and foreign), marine environmental protection, 
and marine safety. In particular, drug enforcement and fisheries 
enforcement have experienced significant declines. Compared with the 
first quarter of 1998, resource hours for the first quarter of Fiscal 
Year 2003 represent declines of 60 percent for drug interdiction and 38 
percent for fisheries enforcement. (See fig. 4.) In fact, resource 
hours for these areas were declining even before the events of 
September 11th, and while they briefly rebounded in early 2002, they 
have since continued to decline. A Coast Guard official said the recent 
decline in both drug enforcement and fisheries can be attributed to the 
heightened security around July 4, 2002, and the anniversary of the 
September 11th terrorist attacks, as well as the deployment of 
resources for military operations. They said the decline will likely 
not be reversed during the second quarter of 2003 because of the 
diversion of Coast Guard cutters to the Middle East and the heightened 
security alert that occurred in February 2003.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The reduction in resource hours over the last several years in drug 
enforcement is particularly telling. In the first quarter of 1998, the 
Coast Guard was expending nearly 34,000 resource hours on drug 
enforcement, and as of first quarter of 2003, the resource hours had 
declined to almost 14,000 hours--a reduction of nearly two-thirds. 
Also, both the number of boardings to identify illegal drugs and the 
amount of illegal drugs seized declined from the first quarter of 
Fiscal Year 2000. The Coast Guard's goal of reducing the flow of 
illegal drugs based on the seizure rate for cocaine has not been met 
since 1999. During our conversations with Coast Guard officials, they 
explained that the Office of National Drug Control Policy (ONDCP) set 
this performance goal in 1997, and although they recognize they are 
obligated to meet these goals, they believe the goals should be 
revised.
    Our review of the Coast Guard's activity levels in domestic fishing 
shows U.S. fishing vessel boardings and significant violations \7\ 
identified are both down since 2000. The Coast Guard interdicted only 
19 percent as many foreign vessels as it did in 2000. \8\ The reduced 
level of effort dedicated to these two missions is likely linked to the 
Coast Guard's inability to meet its performance goals in these two 
areas. For instance, in 2002 the Coast Guard did not meet its goal of 
detecting foreign fishing vessel incursions, \9\ and while there is no 
target for domestic fishing violations, there were fewer boardings and 
fewer violations in 2002 than in 2000.
---------------------------------------------------------------------------
    \7\ The Coast Guard defines significant violations as any or all of 
the following: (1) significant damage or impact to the resource or the 
fisheries management plan, (2) significant monetary advantage to the 
violator over the competition, or (3) a high regional interest of 
emotional or political nature as determined by regional fisheries 
councils.
    \8\ Activity data for foreign fishing vessels is a comparison of 
fourth quarters in 2000 and 2002.
    \9\ In Fiscal Year 2002, the Coast Guard's goal was to detect 250 
foreign fishing vessel incursions into U.S. fishing waters. Only 202 
were detected that year.
---------------------------------------------------------------------------
    Recently, the Coast Guard Commandant stated that the Coast Guard 
intends to return law enforcement missions (drug interdiction, migrant 
interdiction, and fisheries enforcement) to 93 percent of pre-September 
11th levels by the end of 2003 and 95 percent by the end of 2004. 
However, in the environment of heightened security and the continued 
deployment of resources to the Middle East, these goals will likely not 
be achieved, especially for drug interdiction and fisheries 
enforcement, which are currently far below previous activity levels.
Fiscal Year 2004 Budget Request Will Not Substantially Alter Current 
        Levels of Effort
    The Coast Guard's budget request for Fiscal Year 2004 does not 
contain initiatives or proposals that would substantially alter the 
current distribution of levels of effort among mission areas. The 
request for $6.8 billion represents an increase of about $592 million, 
or about 9.6 percent in nominal dollars, over the enacted budget for 
Fiscal Year 2003. The majority of the increase covers pay increases for 
current or retired employees or continues certain programs already 
under way, such as upgrades to information technology. About $168.5 
million of the increase would fund new initiatives, most of which 
relate either to homeland security or to search and rescue. Another 
$20.8 million of the increase is for the capital acquisitions request, 
\10\ which totals $797 million. The capital acquisition request focuses 
mainly on two projects--the Deepwater Project for replacing or 
upgrading cutters, patrol boats, and aircraft, and the congressionally 
mandated modernization of the maritime distress and response system.
---------------------------------------------------------------------------
    \10\ For Fiscal Year 2004, the Capital Acquisition account includes 
funding previously requested in the Coast Guard Acquisition, 
Construction, and Improvement account, and Research, Development, Test 
and Evaluation accounts, as well as the Alteration to Bridges account. 
We have reflected this change when making comparisons to the Fiscal 
Year 2003 enacted budget.
---------------------------------------------------------------------------
Operating Expenses Would Increase by $440 Million
    About $440 million of the $592 million requested increase is for 
operating expenses \11\ for the Coast Guard's mission areas. This 
requested increase in operating expenses is 10 percent higher than the 
amount for operating expenses in the enacted budget for Fiscal Year 
2003. The requested increase is made up of the following:
---------------------------------------------------------------------------
    \11\ For Fiscal Year 2004, the Operating Expense account 
consolidates funding previously requested in the Coast Guard Operating 
Expenses, Environmental Compliance and Restoration, and Reserve 
Training accounts. We have reflected this change when making 
comparisons to the Fiscal Year 2003 enacted budget.

  <bullet> pay increases and military personnel entitlements: $162.5 
        million; \12\
---------------------------------------------------------------------------
    \12\ This does not include an increase of $131 million in pay for 
retired personnel. Because retirees are not part of ongoing operations, 
their pay is not considered to be an operating expense. However, the 
$131 million increase for retired pay is included in the overall 
requested increase of $592 million.

  <bullet> funding of continuing programs and technical adjustments: 
        $81 million; (These are multiyear programs that the Coast Guard 
        began in previous years. Examples include continuing 
        development of information technology projects and operating 
        new shore facilities started with funds from previous budgets. 
        Technical adjustments provide for the annualization of 
        expenditures that received only partial-year funding in the 
---------------------------------------------------------------------------
        prior Fiscal Year.)

  <bullet> Reserve training: $28 million; and

  <bullet> new initiatives: $168.5 million. (These initiatives are 
        described in more detail below.)

New Initiatives Relate Primarily to Search and Rescue and Homeland 
        Security
    The Coast Guard's budget request includes three new initiatives--
one for search and rescue and two for homeland security. (See table 2.) 
As such, these initiatives do not represent substantial shifts in 
current levels of effort among missions. The search and rescue 
initiative is part of a multiyear effort to address shortcomings in 
search and rescue stations and command centers. In September 2001, the 
Department of Transportation Office of the Inspector General reported 
that readiness at search and rescue stations was deteriorating. \13\ 
For example, staff shortages at most stations required crews to work an 
average of 84 hours per week, well above the standard (68 hours) 
established to limit fatigue and stress among personnel. The initiative 
seeks to provide appropriate staffing and training to meet the 
standards of a 12-hour watch and a 68-hour work week. The Congress 
appropriated $14.5 million in Fiscal Year 2002 and $21.7 million in 
Fiscal Year 2003 for this initiative. The amount requested for Fiscal 
Year 2004 ($26.3 million) would pay for an additional 390 full-time 
search and rescue station personnel and for 28 additional instructors 
at the Coast Guard's motor lifeboat and boatswain's mate schools.
---------------------------------------------------------------------------
    \13\ Audit of the Small Boat Station Search and Rescue Program. MH-
2001-94 (Washington, DC: Sept 14, 2001).

            Table 2: New Initiatives in the Fiscal Year 2004 Budget Request for Operational Expenses
----------------------------------------------------------------------------------------------------------------
                                      New Initiative                                        Amount (in millions)
----------------------------------------------------------------------------------------------------------------
Maritime Search and Rescue/Personnel Safety
    390 new full time personnel for search and rescue stations and command centers
    Additional Instructors and Training Enhancements                                                      $26.3
Maritime Domain Awareness
    Intelligence program
    Information sharing and systems                                                                       $33.5
Homeland Security Operations
    6 new marine safety and security teams
    51 sea marshals
    43 small response boats
    2 port security units
    Establish stations at Washington, DC and Boston                                                      $108.7
----------------------------------------------------------------------------------------------------------------
Total Fiscal Year 2004 new initiatives                                                                   $168.5
----------------------------------------------------------------------------------------------------------------
Source: U.S. Coast Guard.

    Coast Guard officials said the two initiatives designed mainly for 
homeland security purposes would help the Coast Guard in other mission 
areas as well. For example, the information-sharing effort under 
maritime domain awareness is designed to improve communications between 
cutters and land stations. It also pays for equipping cutters with the 
universal automated identification system, which allows the Coast Guard 
to monitor traffic in its vicinity, including the vessel name, cargo, 
and speed. These capabilities are important not only for homeland 
security missions, but also for law enforcement and search and rescue, 
according to Coast Guard officials. Likewise, the units being added as 
part of the homeland security operations initiative will focus 
primarily on security issues but will also serve other missions, 
according to Coast Guard officials. For example, the new stations that 
would be established in Washington and Boston would be involved in 
search and rescue, law enforcement, and marine environmental 
protection.
Capital Acquisition Budget Focuses on Two Main Projects
    The capital acquisition budget request for Fiscal Year 2004 is $797 
million, an increase of $20.8 million in nominal dollars over Fiscal 
Year 2003. The majority of the request will go to fund two projects--
the Integrated Deepwater System and the Coast Guard's maritime distress 
and response system, called Rescue 21. Other acquisitions include new 
response boats to replace 41-foot utility boats which serve multiple 
missions, more coastal patrol boats, as well as a replacement 
icebreaker for the Great Lakes. (See table 3.)

                          Table 3: Fiscal Year 2004 Capital Acquisition Budget Request
----------------------------------------------------------------------------------------------------------------
                                         Item                                             Amount (in millions)
----------------------------------------------------------------------------------------------------------------
Integrated Deepwater System                                                                              $500.0
Other systems
    Rescue 21                                                                                            $134.0
    Defense Message System implementation                                                                  $4.5
Vessels and critical infrastructure projects
    Great Lakes icebreaker replacement                                                                     $2.0
    41 utility boat replacement                                                                           $12.0
    Additional coastal patrol boats to enforce security zones                                             $52.5
Personnel and related support costs                                                                       $70.0
Research, development, testing, and evaluation                                                            $22.0
----------------------------------------------------------------------------------------------------------------
Total                                                                                                    $797.0
----------------------------------------------------------------------------------------------------------------
Source: U.S. Coast Guard.

    At $500 million, the Deepwater Project accounts for about 63 
percent of the amount requested for capital acquisitions. This project 
is a long-term (20 to 30 years) integrated approach to upgrading 
cutters, patrol boats, and aircraft as well as providing better links 
between air, shore, and surface assets. When the system is fully 
operational, it will make the Coast Guard more effective in all of its 
missions, particularly law enforcement where deepwater cutters and 
aircraft are key to carrying out critical functions such as drug and 
migrant interdiction and fisheries enforcement.
    Rescue 21, the second major program, provides for the modernization 
of the command, control, and communication infrastructure of the 
national distress and response system. The current system suffers from 
aging equipment, limited spare parts, and limited interoperability with 
other agencies. Of particular concern to the Coast Guard and the 
maritime community are the current system's coverage gaps, which can 
result in missed maritime distress calls. The Congress has mandated 
that this system be completed by the end of Fiscal Year 2006. The $134 
million request for Fiscal Year 2004 would keep the project on 
schedule, according to Coast Guard officials.
Significant Challenges Raise Concerns About Coast Guard's Ability to 
        Accomplish Its Diverse Missions
    Despite the billion-dollar (19 percent) budget increase it has 
received over the past 2 years, the Coast Guard faces fundamental 
challenges in attempting to accomplish everything that has come to be 
expected of it. We have already described how the Coast Guard has not 
been able, in its current environment, to both assimilate its new 
homeland security responsibilities and restore other missions, such as 
enforcement of laws and treaties, to levels that are more reflective of 
past years. The Fiscal Year 2004 budget request does not provide 
substantial new funding to change these capabilities, except for 
homeland security and search and rescue. In addition, several other 
challenges further threaten the Coast Guard's ability to balance these 
many missions. The first is directly tied to funding for the Deepwater 
Project. The project has already experienced delays in delivery of key 
assets and could face additional delays if future funding falls behind 
what the Coast Guard had planned. Such delays could also seriously 
jeopardize the Coast Guard's ability to carry out a number of security 
and nonsecurity missions. Similarly, for the foreseeable future, the 
Coast Guard must absorb a variety of new mandated homeland security 
tasks by taking resources from existing activities. To the extent that 
these responsibilities consume resources that would normally go 
elsewhere, other missions will be affected. Finally, in its new 
environment, the Coast Guard faces the constant possibility that terror 
alerts, terrorist attacks, or military actions would require it to 
shift additional resources to homeland security missions.
    Such challenges raise serious concerns about the Coast Guard's 
ability to be ``all things to all people'' to the degree that the Coast 
Guard, the Congress, and the public desire. In past work, we have 
pointed to several steps that the Coast Guard needs to take in such an 
environment. These include continuing to address opportunities for 
operational efficiency, especially through more partnering; developing 
a comprehensive strategy for balancing resource use across all of its 
missions; and developing a framework for monitoring levels of effort 
and measuring performance in achieving mission goals. The Coast Guard 
has begun some work in these areas; however, addressing these 
challenges is likely to be a longer-term endeavor, and the success of 
the outcome is not clear.
Continued Funding Shortfalls Could Delay the Deepwater Project and 
        Adversely Affect the Coast Guard's Mission Capabilities
    Under current funding plans, the Coast Guard faces significant 
potential delays and cost increases in its $17 billion Integrated 
Deepwater Project. This project is designed to modernize the Coast 
Guard's entire fleet of cutters, patrol boats, and aircraft over a 20-
year period. Given the way the Coast Guard elected to carry out this 
project, its success is heavily dependent on receiving full funding 
every year. So far, that funding has not materialized as planned. 
Delays in the project, which have already occurred, could jeopardize 
the Coast Guard's future ability to effectively and efficiently carry 
out its missions, and its law enforcement activities--that is, drug and 
migrant interdiction and fisheries enforcement--would likely be 
affected the most, since they involve extensive use of deepwater 
cutters and aircraft.
    Under the project's contracting approach, the responsibility for 
Deepwater's success lies with a single systems integrator and its 
contractors for a period of 20 years or more. Under this approach, the 
Coast Guard has started on a course potentially expensive to alter. It 
is based on having a steady, predictable funding stream of $500 million 
in 1998 dollars over the next 2 to 3 decades. Already the funding 
provided for the project is less than the amount the Coast Guard 
planned for. The Fiscal Year 2002 appropriation for the project was 
about $28 million below the planned level, and the Fiscal Year 2003 
appropriated level was about $90 million below the planning estimate. 
And even the President's Fiscal Year 2004 budget request for the Coast 
Guard is not consistent with the Coast Guard's deepwater funding plan. 
If the requested amount of $500 million for Fiscal Year 2004 is 
appropriated, this would represent another shortfall of $83 million, 
making the cumulative shortfall about $202 million in the project's 
first 3 years, according to Coast Guard data. If appropriations hold 
steady at $500 million (in nominal dollars) through Fiscal Year 2008, 
the Coast Guard estimates that the cumulative shortfall will reach $626 
million. \14\
---------------------------------------------------------------------------
    \14\ The $28 million shortfall is expressed in 2002 dollars, the 
$90 million shortfall in 2003 dollars, and the $202 million shortfall 
in 2004 dollars. The $626 million dollar shortfall is expressed in 2008 
dollars.
---------------------------------------------------------------------------
    The shortfalls in the last 2 Fiscal Years (2002 and 2003) and their 
potential persistence could have serious consequences. The main impact 
is that it would take longer and cost more in the long run to fully 
implement the deepwater system. For example, due to funding shortfalls 
experienced to date, the Coast Guard has delayed the introduction of 
the Maritime Patrol Aircraft by 19 months and slowed the conversion and 
upgrade program for the 110-foot Patrol Boats. According to the Coast 
Guard, if the agency continues to receive funding at levels less than 
planned, new asset introductions--and the associated retirement of 
costly, less capable Coast Guard legacy assets--will continue to be 
deferred.
    The cost of these delays will be exacerbated by the accompanying 
need to invest additional funds in maintaining current assets beyond 
their planned retirement date because of the delayed introduction of 
replacement capabilities and assets, according to the Coast Guard. For 
example, delaying the Maritime Patrol Aircraft will likely require some 
level of incremental investment to continue safe operation of the 
current HU-25 jet aircraft. Similarly, a significant delay in the 
scheduled replacement for the 270-foot Medium Endurance Cutter fleet 
could require an unplanned and expensive renovation for this fleet.
    System performance--and the Coast Guard's capability to effectively 
carry out its mission responsibilities--would also likely be impacted 
if funding does not keep pace with planning estimates. For example, 
Coast Guard officials told us that conversions and upgrades for the 
110-foot Patrol Boat would extend its operating hours from about 1,800 
to 2,500 per year. Once accomplished, this would extend the time these 
boats could devote to both security and nonsecurity missions. Given the 
funding levels for the project, these conversions and upgrades have 
been slowed. Coast Guard officials also said that with significant, 
continuing funding shortfalls delaying new asset introductions, at some 
point, the Coast Guard would be forced to retire some cutters and 
aircraft--even as demand for those assets continues to grow. For 
example, in 2002, two major cutters and several aircraft were 
decommissioned ahead of schedule due to their deteriorated condition 
and high maintenance costs.
Some New Homeland Security Duties Are Not Fully Factored into the Coast 
        Guard's Distribution of Resources
    A second challenge is that the Coast Guard has been tasked with a 
myriad of new homeland security requirements since the Fiscal Year 2004 
budget request was formulated and will have to meet many of these 
requirements by pulling resources from other activities. Under the 
Maritime Transportation Security Act (MTSA), \15\ signed into law in 
November 2002, the Coast Guard must accomplish a number of security-
related tasks within a matter of months and sustain them over the long 
term. MTSA requires the Coast Guard to be the lead agency in conducting 
security assessments, developing plans, and enforcing specific security 
measures for ports, vessels, and facilities. In the near term, the 
Coast Guard must prepare detailed vulnerability assessments of vessels 
and facilities it identifies to be at high risk of terrorist attack. It 
must also prepare a National Maritime Transportation Security Plan that 
assigns duties among federal departments and agencies and specifies 
coordination with state and local officials--an activity that will 
require substantial work by Coast Guard officials at the port level. 
The Coast Guard must also establish plans for responding to security 
incidents, including notifying and coordinating with local, state, and 
federal authorities.
---------------------------------------------------------------------------
    \15\ Pub. L. 107-295, Nov. 25, 2002.
---------------------------------------------------------------------------
    Because the Fiscal Year 2004 budget request was prepared before 
MTSA was enacted, it does not specifically devote funding to most of 
these port security responsibilities. Coast Guard officials said that 
they will have to absorb costs related to developing, reviewing, and 
approving plans, including the costs of training staff to monitor 
compliance, within their general budget. \16\ Coast Guard officials 
expect that the Fiscal Year 2005 budget request will contain funding to 
address all MTSA requirements; in the meantime, officials said that the 
Coast Guard would have to perform most of its new port security duties 
without additional appropriation, and that the funds for these duties 
would come from its current operations budget. The costs of these new 
responsibilities, as well as the extent to which they will affect 
resources for other missions, are not known.
---------------------------------------------------------------------------
    \16\ The Coast Guard had already begun work on two aspects of the 
legislation; these aspects are accounted for in the Fiscal Year 2004 
budget request. These two items are requirements to (1) create marine 
safety and security teams and (2) to dispatch armed officers as sea 
marshals for some port security duties.
---------------------------------------------------------------------------
External Uncertainties Place Additional Strain on Resources
    Security alerts, as well as actions needed in the event of an 
actual terrorist attack, can also affect the extent to which the Coast 
Guard can devote resources to missions not directly related to homeland 
security. Coast Guard officials told us that in the days around 
September 11, 2002, when the Office of Homeland Security raised the 
national threat level from ``elevated'' to ``high'' risk, the Coast 
Guard reassigned cutters and patrol boats in response. In February 
2003, when the Office of Homeland Security again raised the national 
threat level to ``high risk,'' the Coast Guard repositioned some of its 
assets involved in offshore law enforcement missions, using aircraft 
patrols in place of some cutters that were redeployed to respond to 
security-related needs elsewhere. While these responses testify to the 
tremendous flexibility of a multi-mission agency, they also highlight 
what we found in our analysis of activity-level trends--when the Coast 
Guard responds to immediate security needs, fewer resources are 
available for other missions.
    The Coast Guard's involvement in the military buildup for Operation 
Enduring Freedom in the Middle East further illustrates how such 
contingencies can affect the availability of resources for other 
missions. As part of the buildup, the Coast Guard has deployed eight 
110-foot boats, two high-endurance cutters, four port security units, 
and one buoy tender to the Persian Gulf. These resources have come from 
seven different Coast Guard Districts. For example, officials from the 
First District told us they sent four 110-foot patrol boats and three 
crews to the Middle East. These boats are multi-mission assets used for 
fisheries and law enforcement, search and rescue, and homeland security 
operations. In their absence, officials reported, the First District is 
more flexibly using other boats previously devoted to other tasks. For 
instance, buoy tenders have taken on some search and rescue functions, 
and buoy tenders and harbor tug/icebreakers are escorting high-interest 
vessels. Officials told us that these assets do not have capabilities 
equivalent to the patrol boats but have been able to perform the 
assigned mission responsibilities to date.
Several Types of Actions Needed to Address Challenges
    In previous work, we have examined some of the implications of the 
Coast Guard's new operating environment on the agency's ability to 
fulfill its various missions. \17\ This work, like our testimony today, 
has pointed to the difficulty the Coast Guard faces in devoting 
additional resources to nonsecurity missions, despite the additional 
funding and personnel the agency has received. In particular, we have 
suggested that the following actions need to be taken as a more candid 
acknowledgement of the difficulty involved:
---------------------------------------------------------------------------
    \17\ Coast Guard: Budget and Management Challenges for 2003 and 
Beyond GAO-02-588T (Washington, DC: Mar. 19, 2002), and Coast Guard: 
Strategy Needed for Setting and Monitoring Levels of Effort for All 
Missions GAO-03-155 (Washington, DC: Nov. 12, 2002).

  <bullet> Opportunities for increased operational efficiency need to 
        be explored. Over the past decade, we and other outside 
        organizations, along with the Coast Guard itself, have studied 
        Coast Guard operations to determine where greater efficiencies 
        might be found. These studies have produced a number of 
        recommendations, such as shifting some responsibilities to 
        other agencies. One particular area that has come to the 
        forefront since September 11th is the Coast Guard's potential 
        ability to partner with other port stakeholders to help 
        accomplish various security and nonsecurity activities involved 
        in port operations. Some effective partnerships have been 
        established, but the overall effort has been affected by 
        variations in local stakeholder networks and limited 
---------------------------------------------------------------------------
        information-sharing among ports.

  <bullet> A comprehensive blueprint is needed for setting and 
        assessing levels of effort and mission performance. One 
        important effort that has received relatively little attention, 
        in the understandable need to first put increased homeland 
        security responsibilities in place, is the development of a 
        plan that proactively addresses how the Coast Guard should 
        manage its various missions in light of its new operating 
        reality. The Coast Guard's adjustment to its new post-September 
        11th environment is still largely in process, and sorting out 
        how traditional missions will be fully carried out alongside 
        new security responsibilities will likely take several years. 
        But it is important to complete this plan and address in it key 
        elements and issues so that it is both comprehensive and useful 
        to decision makers who must make difficult policy and budget 
        choices. Without such a blueprint, the Coast Guard also runs 
        the risk of continuing to communicate that it will try to be 
        ``all things to all people'' when, in fact, it has little 
        chance of actually being able to do so.

    The Coast Guard has acknowledged the need to pursue such a planning 
effort, and the Congress has directed it to do so. Coast Guard 
officials told us that as part of the agency's transition to the 
Department of Homeland Security, they are updating the agency's 
strategic plan, including plans to distribute all resources in a way 
that can sustain a return to previous levels of effort for traditional 
missions. In addition, the Congress placed a requirement in MTSA for 
the Coast Guard to submit a report identifying mission targets, and 
steps to achieve them, for all Coast Guard missions for Fiscal Years 
2003-2005. However, this mandate is not specific about the elements 
that the Coast Guard should address in the report.
    To be meaningful, this mandate should be addressed with 
thoroughness and rigor and in a manner consistent with our recent 
recommendations--it requires a comprehensive blueprint that embodies 
the key steps and critical practices of performance management. 
Specifically, in our November 2002 report on the progress made by the 
Coast Guard in restoring activity levels for its key missions, we 
recommended an approach consisting of a long-term strategy outlining 
how the Coast Guard sees its resources--cutters, boats, aircraft, and 
personnel--being distributed across its various missions, a time frame 
for achieving this desired balance, and reports with sufficient 
information to keep the Congress apprised not only of how resources 
were being used, but what was being accomplished. The Coast Guard 
agreed that a comprehensive strategy was needed, and believes that they 
are beginning the process to develop one. Table 4 provides greater 
explanation of what this approach or blueprint would entail.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The events of recent months heighten the need for such an approach. 
During this time, the budgetary outlook has continued to worsen, 
emphasizing the need to look carefully at the results being produced by 
the nation's large investment in homeland security. The Coast Guard 
must be fully accountable for investments in its homeland security 
missions and able to demonstrate what these security expenditures are 
buying and their value to the nation. At the same time, recent events 
also demonstrate the extent to which highly unpredictable homeland 
security events, such as heightened security alerts, continue to 
influence the amount of resources available for performing other 
missions. The Coast Guard needs a plan that will help the agency, the 
Congress, and the public understand and effectively deal with trade-
offs and their potential impacts in such circumstances.
Scope and Methodology
    To determine the most recent levels of effort for the Coast Guard's 
various missions and how these levels compare to those in the past, we 
reviewed the data from the Coast Guard's Abstract of Operations. These 
data, reported by crews of cutters, boats, and aircraft, represent the 
hours that these resources spent in each of the Coast Guard's mission 
areas. We reviewed these data to identify how resources were utilized 
across missions both before and after September 11th, and to identify 
any trends in resource utilization. In addition, we spoke with Coast 
Guard officials at headquarters about the use of Coast Guard resources 
both before and after September 11th.
    To determine the implications of the proposed Fiscal Year 2004 
budget request for these various levels of effort, we reviewed the 
President's Fiscal Year 2004 budget request for the Coast Guard, as 
well as the enacted budget for the Coast Guard for Fiscal Year 2003. We 
used the Department of Commerce's chain-weighted price index for gross 
domestic product to adjust nominal dollare figures for the effect of 
inflation. In addition, we spoke with Coast Guard officials within the 
Coast Guard's Office of Programs and Operations Directorate, the Marine 
Safety Directorate, and the Integrated Deepwater Systems Program 
Office.
    To identify the challenges the Coast Guard faces in balancing its 
resources among its missions and ensuring and maximizing its 
effectiveness in each of its missions, we reviewed our previous reports 
on performance management and developing performance measures. We also 
reviewed Coast Guard strategic documents and discussed these with staff 
in the Coast Guard's Program Management and Evaluation Division. In 
addition, we met with officials from the Coast Guard's Department of 
Homeland Security Transition team to discuss strategic planning and 
transition issues.
    Madame Chair, this concludes my testimony today. I would be pleased 
to respond to any questions that you or Members of the Subcommittee may 
have at this time.

    Senator Snowe. Thank you, Ms. Hecker.
    Your testimony raises some serious concerns in terms of the 
ability of the Coast Guard to carry out its many missions. And 
obviously, that is something that we would like to address.
    Now, Admiral Collins, in terms of your strategic plan and 
blueprint for the future, have you addressed some of these 
issues that Ms. Hecker has raised? I know that we discussed 
here last year the obvious need for your agency to conduct all 
of the missions that are required of you.
    I mean it is, without question, a difficult burden to bear, 
even with these budget increases of 30 percent over the fiscal 
2002 budget, 1.6 billion and 4600--am I correct?--in increased 
personnel.
    Admiral Collins. 4,100.
    Senator Snowe. That does not stabilize the instability of 
these different missions and your ability to accomplish them.
    Admiral Collins. Clearly, we are in--since 9/11 and prior 
to 9/11, we are in a balancing tradeoff routine based upon 
risks, as we discussed at previous hearings several weeks ago, 
and we pulse to a given threat at a given time. Given those 
challenges, clearly it was the case, as reflected in these 
spikes--when we went to orange, you pull resources away from 
fish and you pull resources away from counter-drugs to address, 
on a temporary basis, that particular threat and risk, and then 
you pulse the assets back. And we are going to, for the 
foreseeable future, be confronted with those kind of spikes as 
threat conditions change.
    And I would be glad to provide to the staff and for the 
record our calculations of employment hours. And by 
``employment hours,'' I mean the total number of boats, the 
total number of aircraft, the total number of cutter hours that 
are available to us in a given year. We have calculated a 
normalized level of those, normalized being eight quarters 
prior to 9/11, and we normalize that on an annual basis as a 
benchmark and then have compared it to the 2002 actual, 2003 
projected, and 2004 projected. The total amount of employment 
hours that we have available to--it is a capacity number; it is 
the total capacity we have in our service relative to ships, 
boats, and aircraft--it is 541,561. That level in 2004, that 
grand-total level of all those resources, is 731,437.
    Now, what does reflect? It reflects that substantial 
investment by the Administration and this Congress in the 
employment hours or the tools that we have to do our business. 
When we program those by the end of 2004 number, that 731,000 
employment hours of ships, boats, and aircraft across our 
mission set, we are starting to approach pre-9/11 levels. That 
assumes, from a port security perspective, Maritime Security 
Level 1. As you may recall, Madam Chair, we have three security 
levels--Maritime Security Level 1, 2, and 3. They go up as the 
threat goes up. Two roughly equates to orange. One is the new 
normalcy. This list distribution is based upon assuming a 
MARSEC-1, maritime security 1, or yellow, or below level. In 
that case, we are equal or exceed to aids to navigation level, 
we are equal or exceed the living marine resources level, we 
are equal or exceed ice operations, we equal or exceed maritime 
environmental protection, we are short marine safety, we are 
under in drug interdiction. And overall, for enforcement of 
laws and treaties, we feel that we would be within 5 or 7 
percent cumulatively across all our maritime security missions.
    The point I am trying to make is, this is how going into 
2004--or by the end of--everything else being equal, and if we 
maintain Maritime Security Level 1 during the entire course of 
the year, this would be the distribution.
    The problem is, we are not going to have Maritime Security 
Level 1 throughout the entire year. We are going to have cases 
like last July, we are going to have cases like that last month 
where we spiked to orange. And we then changed the profile or 
the use of the capacity to match that. That is prudent. That is 
wise. That is appropriate. I think that is what the Nation 
wants us to do. And we are prepared to do that while 
maintaining the necessary posture in other urgent priority 
missions, like search and rescue.
    A long-winded answer for you. I would be glad to share this 
chart with you and both the GAO. It is our view of the numbers 
averaged over a longer period.
    Senator Snowe. Well, no, I appreciate that response. I 
certainly would like to have that chart for the Committee, 
because we would want to evaluate it. But I think the question 
is, do you believe that the increases that we have provided 
raises the resources for all of these missions equally? I mean, 
are you going to have fluctuations, depending on the terrorist 
threat level.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Admiral Collins. It is not going to be equal, Madam Chair. 
I think we are going to put our priority in--we are going to 
put our priority in the highest risk to life. And whether that 
is----
    Senator Snowe. At that moment in time.
    Admiral Collins. At that moment in time. And whether that 
is--and it will maintain--we have enough capacity in the system 
to maintain our high level of search and rescue standards that 
we can maintain. And as Ms. Hecker mentioned, we have not moved 
away from that. We are not planning to move away from that.
    One other comment. We should talk about performance as well 
as the deployment of assets. And I would submit, if you look at 
the performance even in 2001, when we diverted a lot of our 
assets away from counter drugs and away from fish and away from 
migrants, for 2001 we seized 78.6 metric tons of cocaine. That 
is the second-largest seizure of cocaine in any year we have 
had. In 2002, another year where we have had MARSEC-2 
conditions and we had to reallocate resources, we seized 72.2 
metric tons. Those are enormous seizure rates.
    Now, how did we do that when we dropped the allocation of 
resources in it? We are getting better at the business. We are 
more efficient. We are using intel very effectively. We have 
things like helicopter interdiction squadron that is very 
effective in closing the end game. We are very effective using 
Navy assets. Seventy-five percent of the seizures coming out in 
2002 were off gray hulls, were a Coast Guard law-enforcement 
detachment off gray hulls. We are getting greater participation 
by the French and the British and others in the mission.
    So there are other variables at our disposal we are trying 
to do to get the same level of performance even though we have 
to divert assets. So I think we are being as clever and as 
stewardship-wise as we possibly can to continue to put pressure 
in the counter-drug mission.
    Senator Snowe. Ms. Hecker, in response to what Admiral 
Collins just said, what do you think the Coast Guard should be 
doing to adjust its plan to reflect these realities? I mean, is 
there ever going to be a day where it is going to stabilize, 
given the threats to our homeland security and the role the 
Coast Guard plays? I mean, maybe you will always have these 
gyrations as long as you have an insufficient number of 
personnel, ships, aircraft, and so on, to respond to whatever 
the threat happens to be at that moment in time, whether it is 
a search and rescue or homeland security. Are we ever going to 
avoid these moments in time, like in 2002, where you are going 
to have huge spikes in response to homeland security, for 
example in port security?
    Ms. Hecker. No, you cannot, but I think that is why you 
build in contingencies. And to have a plan or target levels 
that are assuming MARSEC-1 in the environment that we are in 
now, in our view, probably is not a useful plan for you to say 
that these are the levels. I mean, there is recent guidance 
that went out on security--not security--on maritime safety, 
basically public affairs and community outreach should be cut 
back 75 percent. Is that the new standard? Is that a new 
standard? The drug number. If the drug number there is, I 
think, 12 percent of operational resources; well, in 1998, it 
was 20 percent. So is the new standard--are they going to work 
with ONDCP and say our standard of activity is something?
    The issue about performance targets, I totally agree with 
him that these are inputs, these are not outputs. At the end of 
the day, what you are really interested in is outputs. But in 
the fisheries area, the interdictions are 19 percent in foreign 
vessels compared to what they were in 2000. That is not a 
favorable performance level.
    So, yes, they can be a target of a certain level. The 
tradeoff of what kind of impact that is and how it compares to 
the actuals, that is what I think would be useful to Congress. 
It is now over a year and a half since September 11th. There is 
a lot of Coast Guard resource use data here and a lot of 
security related spikes that continue to occur.
    So I think Congress should expect more, and I think 
Congress needs more to really understand the actual consequence 
of this new environment and its impact on the range of missions 
for the Coast Guard.
    Senator Snowe. I will turn to Senator Stevens, but, Admiral 
Collins, I would appreciate having that kind of plan presented 
to the Committee. I think it would be important to look at the 
actual versus the impact. And I----
    Admiral Collins. Madam Chair, of course, we talked about 
this at the recent past hearing. My staff is working through 
these issues. We hope to have--we have bits and pieces of the 
allocation model----
    Senator Snowe. Right.
    Admiral Collins.--and we hope to refine that. We want it 
succinct, hard-hitting, clear. And the other piece that is 
terribly important is to refine and develop performance 
standards associated with homeland security. This is a new 
environment since 9/11. Those performance standards are just in 
the formative stages----
    Senator Snowe. I understand.
    Admiral Collins.--and we need a few months to mature those 
performance standards. They are absolutely the key ingredient 
in my mind. We have performance standards for search and 
rescue. We have performance for other missions. We do not have 
performance standards fully vetted and fully matured for 
homeland security. Once we lock those in and once we identify 
and mature those, we are able to develop the model to make 
analysis against that benchmark.
    And we are shooting through the summer, and hopefully by 
late summer, early fall, we will have a full-blown document, a 
model, a process. The process may model--allocation model, 
exercised, and the results of it in a 5-year time frame for GAO 
and your review. That is sort of where we are, in terms of our 
course of action on that.
    Senator Snowe. OK. Thank you.
    I would like to welcome Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Madam Chairman, I cannot stay very long, 
because we have a funeral service for former Senator Moss over 
in the Capitol.
    But I am disturbed, Ms. Secretary, by those charts. There 
is not one for fisheries enforcement, right?
    Ms. Hecker. These are hours. These are hours of activity of 
all of the key assets. So this is fisheries, and it is down 
about a third since 1998. And it is corroborated by the 
performance targets that they have, the one that I just 
mentioned, in terms of interdictions of foreign vessels being 
20 percent of what it was in 2000. The target for detecting 
foreign fishing vessels has not been met. There are not targets 
for domestic fishing, but there were fewer boardings and fewer 
violations in 2002 than 2000. So the activity is down, and the 
results are down.
    Senator Stevens. Admiral, this is what I was worried about 
when we got the request to transfer your agency to Homeland 
Security. I think it demonstrates that we are going to have 
more and more loss of domestic use of law enforcement for our 
fishers, habitat protection, various matters pertaining to 
small-boat safety because of your new location. What is your 
plan?
    Admiral Collins. Senator, I think we would have this 
problem, in terms of balancing missions and making tradeoffs 
and not having enough capacity and capability to do the full 
range of our missions, whether we were in Homeland Security or 
not in Homeland Security. I think it is a function of our asset 
base versus the demand, rather than the organizational 
location.
    Quite frankly, Secretary Ridge has been incredibly 
supportive of our Coast Guard's budget, and every hearing that 
I have--testify that I have seen and every public statement, he 
continues to reinforce his commitment to the full range of 
Coast Guard missions. What it is, we are dealing with external 
pressure on our missions and the demand for those. I think----
    Senator Stevens. Well, are we going to have to budget so 
that we give you one budget for non-homeland security and 
another budget for homeland security? I can do that if we have 
to do it.
    Admiral Collins. I do not think--well, I would prefer that 
not to happen, because what happens is it takes away my 
prerogatives as an operational commander to allocate resources 
to the highest threat and risk at the time, which may be more 
fish or it may be----
    Senator Stevens. One of the----
    Admiral Collins.--more migrants.
    Senator Stevens. Well, I do not know if--I have never seen 
that happen, but one of the things we provided was that you 
would get a fixed percentage of new assets. Are you programmed 
to get new assets?
    Admiral Collins. That was for the R&D pot, sir, the 10 
percent, and, yes, that is on course. I might just quote----
    Senator Stevens. That is to be followed through, obviously, 
with procurement when you get past the R&D I would hope.
    Admiral Collins. Yes, sir. We do not have a fixed 
percentage of the total homeland security pot for capital 
expenses. It is mostly focused--the law focused it on R&D. But 
we did--so what you see in the budget is what we get if, in 
fact, the President's budget is passed.
    On fish, let me just quote a couple of numbers, and I am 
referring to our budget brief document that we put out 
associated with every budget year. And it is a pie diagram that 
shows the program allocation of the 2004 budget based on 
projected allocation, mission-wise. Living marine resources, 
fish, in Fiscal Year 2001 was allocated, and this is actual, 
$381 million, or 12 percent of the budget. As forecasted in the 
2004, living marine resources is allocated 549 million, or 12 
percent of the budget. Several things have happened. The size 
of the pie is bigger. Our budget has gone up by 30 percent over 
the last 3 years. The size of the pie is bigger, and the 
allocation, the program allocation, of the resources.
    The other comment I would make is that not all fisheries 
grounds are treated the same. There are certain fisheries 
grounds that we have not pulled resources back from. A case in 
point that is close to home, the Bering Sea is not only an 
important fisheries ground, it is a high-risk fishing ground 
from a search-and-rescue perspective. We have not pulled back 
our deployment of cutters to the Bering Sea. We have a one 
ship--we have committed a one-ship presence in the Bering Sea. 
We are helicopter equipped. We have done that, absent maybe of 
a couple of days here and there as ships exchange.
    Senator Stevens. Well, respectfully, Admiral, you are 
talking about half the coastline of the United States with one 
ship. This area is still producing 50 percent of all the fish 
produced in the United States that is consumed by the American 
people. I really do not think we are providing the increase in 
monitoring we should have, and it is becoming increasingly 
difficult for us to predict what is going to happen out there. 
But we have--
    What is this I hear that somebody has raised the question 
about the use of UAVs in Alaska?
    Admiral Collins. I know that, of course, the Deepwater--
Integrated Deepwater Solution that contract awarded, of course, 
to Lockheed Martin, Northrop Grumman, last June. Part of the 
system design of that integrated Deepwater system has UAVs as 
part of the system design, the two types of UAVs. It has 
organic UAVs, vertical takeoff UAVs, organic to the ship, tilt 
rotor, and then it has a wide area surveillance UAV Global 
Hawk, which is built to the least solution set as part of the 
overall project. Those are embedded in Deepwater. So if you had 
a Deepwater package cutter and UAV in Alaska that deployed in 
the Bering Sea, it is going to have those.
    I am not aware of any other specific unilateral action to 
provide UAV to Alaska. I am not cognizant of any. The UAV 
program that we have is an integral part of the Deepwater 
system design, which will unfold over a number of years.
    Senator Stevens. Well, I would like to visit you about it 
and get you in contact with some of the UAV people who tell us 
it would be relatively simple to produce UAVs to take up some 
of the monitoring and, really, even law-enforcement patrol 
concepts, and also that there are some where they could 
actually be used in lieu of helicopter to drop supplies and to 
drop safety equipment to people that cannot be reached by 
helicopter because of weather.
    But it does not seem to me we are really going after the 
high-tech solutions to fill in the gaps in the patrolling and 
the search-and-rescue capabilities of Alaska. I would hope we 
would do that.
    Admiral Lautenbacher, I am sorry, I have to go to this 
thing for my friend. I am sad that he passed away, also. But I 
hope you will--I am going to submit the questions I would have 
asked each one of you, and I hope that you will respond to me 
on those.
    But my one question is about the OSCAR DYSON that is 
undergoing an environmental assessment, I understand, for the 
choice of berthing locations for this research vessel. It has 
come to my attention that there is apparently some indication 
that some of your people want to berth the OSCAR DYSON at the 
Coast Guard Station rather than in a fishing area where the 
fishing vessels are.
    This is a research vessel, and it is named after the man 
who really was the spearhead for the development of the larger 
port at Kodiak and was a close personal friend, and his family 
still lives there in Kodiak. I would hope that that vessel will 
be home-ported with the basic direction that Congress said it 
would be, at the Port of Kodiak. Do you have to have an 
environmental assessment on berthing when you have been 
directed by Congress to berth it at a particular location?
    Admiral Lautenbacher. I believe we have to, sir, but let me 
get back to you, for the record, on it. And I----
    Senator Stevens. I know you have to have an environmental 
assessment whether----
    Admiral Lautenbacher.--we are doing environmental 
assessments----
    Senator Stevens.--whether it is----
    Admiral Lautenbacher.--in accordance with the law.
    Senator Stevens. But this is in law that it should be 
berthed at Kodiak.
    Admiral Lautenbacher. Yes, sir.
    Senator Stevens. I do not see the necessity for an 
environmental assessment of where it should be berthed. I hope 
you will take a look at it, because we----
    Admiral Lautenbacher. Yes, sir.
    Senator Stevens.--we intended for it to be there at Kodiak. 
It is a grand vessel, and it is an adjunct to the fishing 
fleet, not an adjunct to the admiral's Coast Guard. I have 
great admiration for the Coast Guard, but I would hope that a 
vessel named after my great friend ends up where he had such a 
great influence and where it will be a great pride to the 
people of Kodiak.
    Admiral Lautenbacher; Yes, sir, I understand.
    Senator Stevens. I am going to submit these questions, if I 
may, Madam Chairman.
    Senator Snowe. Without objection, so ordered.
    [The questions of Senator Stevens follows:]

Questions for Admiral Thomas H. Collins:
    Question. Do you have any short-term solutions or thoughts for 
increasing our nation's maritime domain awareness?
    Question. Is the Coast Guard considering or advocating the use of 
the various marine exchanges around the U.S. to assist in achieving 
greater maritime domain awareness?
Questions for Admiral Conrad C. Lautenbacher, Jr.:
    Question. Has NOAA made a decision on what it intends to do on the 
proposed Lena Point facility?
    Question. Will NOAA locate the OSCAR DYSON in Downtown Kodiak as 
was directed by Congress or 10 miles outside of town at a site near the 
Coast Guard station?

    Senator Snowe. Thank you, Senator Stevens.
    Senator Stevens. Thank you very much.
    Senator Snowe. Thank you.
    I want to finish up on where we left, and then I want to 
move on to Admiral Lautenbacher. Ms. Hecker, do you see any 
type of strategic plan emerging from the Coast Guard with 
respect to what has been said here today and through its fiscal 
2004 budget request?
    Ms. Hecker. We have not seen the kind of plan that we have 
been asking for. There are actually two interesting vehicles 
that we would like to talk with them more about and what their 
strategy is. One is the update of their GPRA strategic plan. 
That is obviously a plan that calls for performance targets, it 
calls for performance results and strategies. So that may be 
one vehicle. The other, of course, is the mandate that you put 
in the Maritime Transportation Security Act, where there was a 
requirement to report to the Congress on specific targets for 
all missions areas and plans to increase them.
    So those are two plans that I think are similar to the 
kinds of things we are looking for. And because of this hearing 
being moved up, we did not have all the time we really wanted 
to to work with the Coast Guard and make sure that our 
recommendations--and we have amplified them in this testimony. 
So we are going to try to make sure--I do not think it is an 
intent to ignore us. We have not had the time to work together 
so that they can really understand coming to grips with this 
historical level where you can see that basically the highs are 
the old lows. You know, you can see the trends that what used 
to be the lows in cyclical periods is now the new high in both 
areas. And how does that compare to what he is saying, ``Oh, we 
are on target to be within, you know, 95 percent of the old 
level''? I do not see it in these numbers.
    Senator Snowe. How would accelerating the Deepwater Program 
have an impact both on homeland security and on the traditional 
missions of the Coast Guard?
    Admiral Collins. Is that directed to me----
    Senator Snowe. Yes.
    Admiral Collins.--Madam Chair? I think it is a----
    Senator Snowe. It is directed to you both.
    Admiral Collins.--I think pretty accurately portrayed in 
the report that was just submitted to Congress where we 
documented that those capabilities get much needed capabilities 
like network-centric capability, better communication, better 
capacity, increased capacity--they get it sooner, rather than 
later. And I think that, as I recall, the number is 943,000 
employment hours greater than the 20-year plan. So you get 
943,000 employment hours over the other plan, and they are more 
capable hours, in addition to be additional hours. So more 
capable, and additional hours. And very capable command 
control, surveillance type of systems that are really the heart 
and soul of us getting better at our mission sets.
    So I think it has everything to do with us doing better at 
our missions, and it gives us capability and capacity, my two 
favorite words, relative to our budget. It gives us both of 
those things, and I think those are, in fact, detailed at some 
length in the report.
    Senator Snowe. Ms. Hecker, do you think it would even out 
some of the highs and lows in these charts with respect to the 
homeland security mission, but also fulfilling the Coast 
Guard's other traditional missions?
    Ms. Hecker. By definition, it will bring more capable, more 
efficient, assets to the fore sooner. There is no doubt that it 
would have a positive effect. But the first thing is to at 
least get it funded at the minimum. It is not even at the 
minimum that was projected. So while there may be very 
substantial benefits----
    Senator Snowe. Well----
    Ms. Hecker.--for increasing it, the first task is to 
actually get it back on schedule.
    Senator Snowe. I would agree. It is troubling, to say the 
least, that we are, as you said, $200 million in the hole 
already two years into the program. This would be the third 
year of the program, I think, and there may be a short fall of 
$83 million.
    Ms. Hecker. Uh-huh.
    Senator Snowe. So this level of under funding is obviously 
not putting Deepwater on the right path, to say the least. I 
think the Deepwater Program would help bolster and reinforce 
the obligations and responsibilities of the Coast Guard. It 
clearly does not make sense, in the final analysis, to complete 
this program essentially over the next 20 to 30 years. And so I 
think this report is helpful in supporting our arguments about 
accelerating this program. I think the need is imperative.
    It is going to be a major challenge to convince them, but 
you are right to get it back on track right now. But, in 
addition to seeing what we can do to accelerate it, and I think 
this report will be helpful in illustrating the current funding 
shortfall.
    Admiral Lautenbacher, in looking at your budget for this 
last year and looking to the future, I notice that there were 
significant unobligated balances that you are using for the 
next year's programs. Can you outline the impact of why, first 
of all, does NOAA have so many unobligated balances in these 
various categories? And I know either they were not distributed 
in a timely fashion or they were not attractive or worthy 
projects, but why is there this much in the way of unobligated 
balances in the NOAA budget?
    Admiral Lautenbacher. NOAA, first of all, has what we never 
had in Defense, which is no-year money. So when you say it is 
``unobligated,'' we plan to spend money. We try to, obviously, 
spend it as quickly as is needed and is possible. But, in 
essence, we have not been held to having it all done by 
September 30th on the same type of rigor that you have in other 
appropriations. That has been changed now. This year, the 
Appropriations Committee said, ``You must do it in 2 years for 
our operating money and 3 years for our construction or 
acquisition money.'' We have two kinds of money, which is not a 
lot of varieties compared to the other parts of the government.
    The big issues that we have had in unobligated balances is 
an increase in the amount of money that has been going to 
grants and extra-government types of organizations--in other 
words, outside the government. What I found when I looked at 
this was that we had something like 15--we went from 1200 
grants almost up to 1,500 to 1,800 grants to try to get out. 
That was not anticipated by our management process when I--I 
have been there for a year, and it was not taken into account. 
So with the same amount of staff, we have been asked to add a 
third--40 percent more workload in trying to get money out and 
expended. That has had a negative effect on the whole 
organization, in terms of getting money allocated, getting it 
out to program offices, and then getting all this grant money 
out. I have a--you know, we have a management reform process in 
place.
    Senator Snowe. OK.
    Admiral Lautenbacher. I am asking to get more people into 
grants management and to meet the anticipated workload that we 
have. So I----
    Senator Snowe. Is it because there was a significant 
increase in the number of grants? Or is it the way in which 
they were awarded? Or was it the worthiness of them?
    Admiral Lautenbacher. No, it is just----
    Senator Snowe. No?
    Admiral Lautenbacher.--it is just the workload. It is 
just----
    Senator Snowe. It was just the workload?
    Admiral Lautenbacher.--the number. Just the number. It is 
just sheer numbers. If you look at the graph--I do not have 
that with me today--I can show you----
    Senator Snowe. Right.
    Admiral Lautenbacher.--the numbers have been going up from 
somewhere down in the hundreds up to 1,500 to 1,800 grants----
    Senator Snowe. OK.
    Admiral Lautenbacher.--over the past three or 4 years. They 
have gone up dramatically, and that is on a basis--there are 
lots of reasons for that. I cannot put my finger on one of them 
in particular. But basically, almost a billion dollars of 
NOAA's budget goes out. So we have a $3 billion budget, and we 
give away 900 million.
    Senator Snowe. Right.
    Admiral Lautenbacher. And that has been going up because of 
member interest, because of congressional prerogatives----
    Senator Snowe. You mean a few earmarks?
    Admiral Lautenbacher. Yes, ma'am? I am sorry.
    Senator Snowe. A few earmarks?
    Admiral Lautenbacher. A few earmarks.
    [Laughter.]
    Admiral Lautenbacher. I am not here to complain.
    Senator Snowe. I am sure you are not.
    [Laughter.]
    Admiral Lautenbacher. I am not complaining about that at 
all, but I am saying that we have a workload problem. I 
discovered it----
    Senator Snowe. Yes.
    Admiral Lautenbacher.--about 6 months ago. I am trying to 
take action. I have taken action. Now, whether it works or not 
is another question, but I have----
    Senator Snowe. Right.
    Admiral Lautenbacher.--taken action. And----
    Senator Snowe. And you recognize that it is a problem?
    Admiral Lautenbacher. I recognize----
    Senator Snowe. All right.
    Admiral Lautenbacher.--that is a problem, and I am going 
to----
    Senator Snowe. Yes.
    Admiral Lautenbacher.--my objective, based on my training 
in Defense, is we are not going to have any unobligated money.
    Senator Snowe. Right.
    Admiral Lautenbacher. It is going to be--we are going to 
have a plan, and we are going to spend on it, and we are going 
to be done by the end of the fiscal year.
    Senator Snowe. Right, because obviously it does mean that 
you could potentially miss opportunities by not spending that 
money. I am not encouraging spending money if it is not 
necessary, but, on the other hand, if it can be utilized it 
should. If this happens by default, either you cannot approve 
the grants and you do not have the process or the personnel in 
place to do it, then that obviously has to be addressed.
    Admiral Lautenbacher. The only other comment I would like 
to make on that is, that money, while it looks unobligated at 
the end of the year, because of the fact that we work under a 
no-year money, there are plans for that money. It was not free 
money. It just did not--we did not spend it because we had no 
use for it; there is a schedule and a plan to spend that money, 
and most of that money has been spent in the, quote, ``fifth 
quarter.'' So the unobligated balances----
    Senator Snowe. OK.
    Admiral Lautenbacher.--that we showed at the end of the 
fiscal year, on September 30th, most of that is gone in that 
next quarter, fifth quarter.
    Senator Snowe. OK. So, yes, but then ultimately it looks 
like there is an increase in certain programs, but really it is 
not, because it is a result of some of the unobligated balances 
from the previous fiscal year.
    Admiral Lautenbacher. And you have to tag the money to be 
ensured you understand that it--and I say ``you'' generically--
--
    Senator Snowe. OK. Right.
    Admiral Lautenbacher.--understand that the money was 
designed to go with a program that goes longer than 1 year. A 
lot of the money is multi-year grants, multi-year processes. 
They do not just pay for 1 year's worth of effort. They pay for 
a grant or a contract or something that goes beyond 1 year's 
worth of effort.
    Senator Snowe. OK.
    Admiral Lautenbacher. And PAC funds are the same, when you 
buy satellites. We do get funding, and it takes three or 4 
years. It is like buying a carrier in the Navy; it takes a 
while to buy the pieces, and it is done with, you know, an 
advance, basically. It is not fully funded up front; it is 
funded incrementally, but it is funded in advance.
    Senator Snowe. What is your approach to NOAA and its multi-
mission responsibilities? Are you taking an overall macro look 
in developing a strategic plan, in terms of its structure and 
missions?
    Admiral Lautenbacher. Yes, we have. We have a new strategic 
plan that is out. A part of our program review, total internal 
review, we did beginning of last year when I took over, has 
instituted a strategic management process that begins with a 
strategic plan. We have gone out to all of our stakeholders 
across the country and have built a strategic plan that is on 
the street now that includes building themes across NOAA 
instead of looking at the stovepipes in individual budget 
elements. It includes a programming process that puts programs 
with that and then, finally, a detailed budgeting process with 
outcomes, measurements of success, and performance measures for 
the individuals involved so that there is a connection from the 
front-end strategy to the results that we are able to show to 
you and to the taxpayers.
    Senator Snowe. The Groundfish Science Peer Review, as you 
know, was released 2 weeks ago, and it presented a lot of 
information that we need to look through and explore. The Peer 
Review raised significant concerns about the modeling 
procedures used to establish the biomass populations. Could you 
tell me how NOAA intends to approach the issues raised in that 
report?
    As you know, Senator Kennedy and I sent you a letter 
concerning this Peer Review. We raised the idea of rebuilding 
flexibility and looking at the entire issue of optimal fishery 
populations. If we are overly optimistic or unrealistic in the 
types of targets that were established and upon which the 
rebuilding is predicated and it does take place, I think, 
fishermen and the entire fishing community will be put in a 
very difficult position. We have to have a better understanding 
of what the optimal population targets should be. I think they 
raised that point very clearly in this report.
    How do you intend to pursue this issue?
    Admiral Lautenbacher. We are taking the Peer Review reports 
very seriously. I might add that this is the culmination of a 
process that was begun earlier this year. I went to New 
England. I have talked to the fishermen.
    Senator Snowe. I understand.
    Admiral Lautenbacher. I have talked to the people in our 
regional science centers and our regional science center, our 
regional center. We have instituted a process that is a lot 
more open. We have standardized procedures. We have held 
investigations. We have brought the fishermen in. We are 
looking to have an open process. We have taken the science 
inside of National Fisheries Service, and we have put it in a 
science area, and so it is not--so it cannot be accused of 
being connected and being a part of something which is, you 
know, pushed to the benefit of management or regulation, that 
it will be science for the sake of science, and then the 
management process will be based on that. So we are looking, 
making sure that is pure.
    We asked for that Peer Review. I asked the group to go out 
and do this and do the new studies and get a peer review to 
come in. They are reporting to me biweekly, personally, on 
progress that they are making. They are taking these reports 
seriously, and they are going to look at all of the questions, 
comments, areas for suggestion and come up with responses to 
every one of them. That will be done very shortly, by the end 
of the month.
    So we take it very seriously, and I am trying to improve 
both the credibility, the openness, and the connection to the 
local economy and the local fishermen so that we arrive at the 
best solution for everyone.
    Senator Snowe. I appreciate that. I think that with this 
report and the focus on this particular dimension of the 
problem, how we approach stock assessments is critical. This 
gives us a window of opportunity to substantially improve how 
things are done.
    I think we agree that cooperative research with fishermen 
is essential to this effort. And I would certainly want to know 
how we can continue to ensure that we include the fishermen and 
the fishing community in this effort so that we can expand and 
improve upon the Cooperative Research Program.
    Admiral Lautenbacher. We have asked for more money for 
cooperative research. I am a strong supporter of that program. 
We will continue to push that as hard as we can.
    Senator Snowe. On the Observer Program, I noticed that the 
2004 request includes an increase of $2.8 million for bycatch 
reduction. Part of this will go toward observers with an 
increase of $3 million to expand fishery observer coverage in 
the Northeast. I understand the court-ordered settlement in the 
New England Ground Fish Litigation requires a 10 percent 
observer coverage. I think this is very critical. How many 
observer days would it require to achieve 10 percent coverage?
    Admiral Lautenbacher. I do not have that answer off the top 
of my head, but I will be honest in disclosure. Some of that 10 
percent coverage that we thought we could make was based on 
what we thought we would get in 2003. We did receive a 
different number in 2003, and so right now are looking at ways 
to make up to the 10 percent because there is not enough in 
that line right now to meet the court coverage which we will 
have to meet in some way. So we are looking at internal 
solutions, reprogramming or whatever, to try to meet that 
level.
    Senator Snowe. I understand.
    Admiral Lautenbacher. So we still have a shortfall there, 
unfortunately.
    Senator Snowe. Have you estimated how much it will cost?
    Admiral Lautenbacher. No, but I----
    Senator Snowe. OK.
    Admiral Lautenbacher.--but I will provide that very shortly 
for you and for----
    Senator Snowe. I would appreciate that. Once we move out of 
the court-based management, especially in the New England 
Ground Fish case, what is NOAA's long-term plan for making 
bycatch observers a permanent part of the program?
    Admiral Lautenbacher. Well, I would hope that the increment 
that we are asking for, which gets added to our base program, 
will be supported at that level or even a higher level. This is 
a down payment on what is needed for bycatch issues. I mean, we 
have a three-pronged program. We have to have better 
observation and monitoring because we need to be able to tell 
the extent of the problem and where the issues are 
geographically and by species. And then next we need to look at 
the gear solutions and bring in experts to look at solutions to 
it, and then we have to test it. And so that is--we are putting 
the money into, you know, those three bins to look at ways to 
deal with it. And this, as I say, is a down payment to what is 
needed. So I would hope to see this effort expanding as we gain 
some success in use of the observers and the new R&D on it. It 
is a very important area to us.
    Senator Snowe. OK. Finally, on the ocean observation 
system, as I mentioned in my opening statement, how is the 
development of a national ocean observing system evolving 
within NOAA? Are you planning to go ahead as you originally 
planned?
    Admiral Lautenbacher. We have had a plan. There are 
actually a couple of, you know, sides to this. There is, first 
of all, the open ocean, blue water ocean observing system. That 
system, if we can gain the increments that we are asking for, 
which are relatively modest in the climate area, we can get to 
48 percent of a completed system, which I think is pretty given 
the level of resources. It will take us, at the rate we are 
going, to the year 2009 to reach a level where we will have an 
ocean observing system, given what is in the budget.
    And the other piece that I know you are interested in is 
the coastal section of this----
    Senator Snowe. Right.
    Admiral Lautenbacher.--which I consider the boundary of the 
open ocean, and it is extremely important. We are asking for 
some money to help us with improving our coastal buoys that 
will be joined with things like GoMOOS and the other Caro-COOPS 
and TABS and other systems, coastal observing systems, that we 
have around the United States. And we are looking at ways to 
build that backbone so that that system is put together with 
the blue water system and completes an open--a complete ocean 
observing system. So there is a number--there are paths that 
are coming together that I am excited about if we can keep on 
track.
    Senator Snowe. OK, thank you.
    Admiral Collins, I have a few questions concerning port 
vulnerability assessments. How many are included in the 
Administration's budget request for the next fiscal year?
    Admiral Collins. We have an $11 million recurring base, 
Madam Chair, to do port-security assessments. Part of the 
feature of the 2004 budget was that that $11 million was moved 
to the Department, Under Secretary for Information Analysis and 
Infrastructure Protection. The same approach taken with TSA, 
Transportation Security Administration also has money to do 
assessments in other modes of transportation. They have been 
centralized. The funds--as part of the President's budget, 
those funds have been centralized in the Under Secretary for 
Information Analysis and Infrastructure Protection. Although we 
remain the executive agent, if you will, of that Under 
Secretary to perform in the maritime. So it is an $11 million 
issue. As that new Under Secretary, who is still filling empty 
chairs as we speak, matures we will develop the working 
relationship, a very collaborative, congenial relation to date, 
on the issue, no contention. And we continue to pursue our 
assessments.
    At the current level, we will do 13 with the funds 
appropriated through 2003, through Fiscal Year 2003. We are 
going to do some internal reprogramming to provide some 
additional funds to do four more. So hopefully by the end of 
Fiscal Year 2003, we will have 17 of 55 done.
    Senator Snowe. Could you repeat that?
    Admiral Collins. By the end of Fiscal Year 2003, we will 
have 17 of the 55--as you recall, Madam Chair, the target is 55 
ports of the United States. Those are the ports of the highest 
volume, highest cargo, strategic import, the highest density of 
population, et cetera. And again, 13 to date; hopefully, 17 by 
the end of this fiscal year through some internal 
reprogramming.
    One of the complicating factors is the cost per study is 
higher than initially anticipated as the program first was 
conceived. As you know, we have a contracted effort, we have a 
project office, Coast Guard people, and a contractor doing the 
bulk of the legwork on this. But it is a cost-plus contract to 
conduct these, and we are probably going to average $900,000 a 
study unless we change the scope significantly or begin to 
reduce the scope of the effort. So at that rate, we are going 
to have to address a funding issue if we hope to get--now, the 
terms of the Maritime Transportation Security Act said do all 
these 55 within a 5-year cycle, and that would mean, you know, 
I guess, 2007 would be the expectation that all of these 55 
ports would be done by 2007 if that was the 5-year cycle.
    To make a long story short, it is a money issue, and we can 
do it as fast as we have money to do it.
    Senator Snowe. So how much is included in this budget 
request for port-vulnerability assessments? Is it----
    Admiral Collins. It is not----
    Senator Snowe.--$11 million?
    Admiral Collins. In the 2004 budget, it is not in our 
budget.
    Senator Snowe. At all?
    Admiral Collins. It is in the Department of Homeland 
Security budget. It is in the information analysis.
    Senator Snowe. OK. So that $11 million is in the Department 
of Homeland Security's budget request?
    Admiral Collins. Our recurring base, via the 2004 budget--
--
    Senator Snowe. OK.
    Admiral Collins.--it was moved to the new Under Secretary's 
budget.
    Senator Snowe. You are saying it will cost $900,000 per 
study. Could that vary depending on the size of the port?
    Admiral Collins. Yes, it will. And that is an average.
    Senator Snowe. That is an average.
    Admiral Collins. It could be a little higher or a little 
lower, but that is our best--after working through 13 of these, 
that is our best projection of doing the kind of study that 
needs to be done to get the information to make intelligent 
decisions on intervention strategies.
    And it may be worth noting that we have already done--each 
Captain of the Port has already conducted an initial assessment 
using a port security risk-assessment tool that we developed 
through our R&D center, a fairly good tool. And it provides 
their first cut initial assessment is the entering argument for 
this follow-on, more comprehensive study. The captain of the 
ports had been using that initial assessment with the 
stakeholders in the port, in the port security committees, to 
discuss initial interventions that they want to engage in to 
enhance security.
    So it is not like we are sitting on our thumbs as these 
things happen. I think it has been a very, very productive 
partnership in many of our ports, and the formal port-security 
assessment is the final big study that will allow the captain 
of the port and the port security people to work through some 
of their plans.
    As per our regulatory effort that is moving along, we will 
have an interim rule this summer, we will have a final rule 
next November. It will go into effect July 2004, and it will 
require facility plans, vessel plans, and port security plans. 
One of the source documents for those plans and for the 
planning effort becomes this initial assessment that I 
mentioned. And ultimately, the refinement is the formal 
assessment.
    So the plans are going to be rolling out. These things are 
as operations in parallel, not in series. That is good news. 
That means that we are making progress, we are partnering in 
the local ports, taking action. So an aggressive schedule, but 
the formal assessments themselves are funding-dependent in 
terms of the rapidity by which we can do them. We can do them 
faster if we have more money. You can do--the contractor can 
have multiple teams doing these things.
    So, again, it is a function of the recurring base that we 
have to do the studies, and right now it is at $11 million.
    Senator Snowe. Well, this is hardly sufficient for where we 
need to go. I believe we need to accomplish this sooner rather 
than later.
    Admiral Collins. To do them faster would require, I 
believe, $15 million. To meet the terms of the act--in other 
words, to do them within a 5-year cycle--would require a base 
of about 15 million, as I recall. And we can provide that for 
the record, the specific number. But as I recall, that was the 
number.
    Senator Snowe. I would appreciate having that for the 
record. I believe we need to make a more aggressive effort to 
complete these vulnerability assessments, given, the risks 
these gaping holes pose to the security of our ports.

    Public Law 108-11, Emergency Wartime Supplemental Appropriations 
Act, 2003, appropriated $38 million of additional funds for the Coast 
Guard to complete the Port Security Assessments in all tier one 
strategic ports. Approximately $6 million annually will be required for 
Coast Guard oversight, administration, and execution of Port Security 
Assessments. Additionally, an average of $1 million in contracting fees 
will be required for each port security assessment to be conducted in a 
given year. The MTSA requires that these assessments be updated at 
least every 5 years.

    Admiral Collins. And that is one of the reasons why we are 
reprogramming within our own base----
    Senator Snowe. Right.
    Admiral Collins.--taking money out of other places to do 
four additional ones in 2003. So I would agree with you 150 
percent. We want to do more than 13 by the end of this fiscal 
year. We hope to do 17. And again, we are taking that from 
other places in order to do them. That is the sense of urgency 
that I share with you, and if I could steal it from more 
places, I would do it.
    Senator Snowe. Right. We will have follow-up discussions 
with you regarding this, particularly in terms of what ports 
you prefer to get done sooner rather than later and what is 
doable. I really do think that we have to accelerate the 
timetable for this important program.
    Are there any initiatives in here, in the Administration's 
request, to improve the Coast Guard's ability to meet nuclear 
radioactive threats in ports?
    Admiral Collins. There is----
    Senator Snowe.--I raised this issue during our last 
hearing.----
    Admiral Collins.--in the 2003 budget, there is funding for 
equipment for our strike teams and our boarding teams for 
additional equipment. And as per our hearing of several weeks 
ago, Madam Chair, I owe you a letter that details our 
initiatives in that regard, and that is in the making.
    Senator Snowe. OK.
    We have a vote in a few minutes, so I certainly appreciate 
the opportunity to have both of you here today to discuss the 
Administration's budget requests for NOAA and the Coast Guard.
    Ms. Hecker, thank you for your invaluable insights in 
helping us to perform our oversight role better. I really 
appreciate all that you have done to assist us in that effort, 
and I wish you well in the future. We will be following up with 
you on several of the issues that we raised here today 
concerning the Administration's budget request and see what we 
can do to advance others, especially in port security. I 
certainly want to evaluate the Coast Guard study, regarding 
accelerating the Integrated Deepwater System Program, because I 
believe that we have to move aggressively on that front, as 
well.
    This hearing is adjourned. Thank you.
    [Whereupon, at 4 p.m., the hearing was adjourned.]
                            A P P E N D I X

      Prepared Statement of Hon. John F. Kerry, U.S. Senator from 
                             Massachusetts
    Madame Chair, I thank you for holding this hearing and thank the 
witnesses for testifying. Today, the Subcommittee will discuss the 
Coast Guard and National Oceanic and Atmospheric Administration (NOAA) 
budget requests for Fiscal Year 2004. Both agencies charged with great 
responsibilities, and I believe that we should allocate each sufficient 
funding to meet it missions.
    The Administration's FY 2004 Coast Guard budget request of $6.8 
billion represents an increase of ten percent over last year's request. 
This is an encouraging sign. However, nearly 44 percent of this money 
is earmarked for homeland security purposes, and the Administration has 
not sought a significant increase in Coast Guard personnel levels. 
According the Office of Management and Budget (OMB) the President has 
only requested eleven more military personnel and is actually seeking a 
decrease in civilian personnel from 5,209 in 2003 to 5,183 in 2004. And 
of the 2,200 new reservists expected to be hired by the end of 2003, 
nearly 90 percent will be assigned to homeland security related 
positions. Although I have no doubt that the Coast Guard is able to 
perform important domestic security missions, this shift in resources 
ultimately translates into less money and fewer personnel dedicated to 
traditional missions. To cite an example, the GAO reported last fall 
that fishery law enforcement and drug interdiction patrols have fallen 
drastically since the Coast Guard assumed greater homeland security 
responsibilities. In New England alone, fishery patrols are down nearly 
50 percent.
    It is also important to note that the Coast Guard has not yet 
estimated the cost of meeting its new responsibilities mandated by the 
Port and Maritime Security Act we passed last fall. This includes 
coordinating security plans with port officials and local law 
enforcement, providing detailed vulnerability assessments, and 
establishing a maritime intelligence system. Given that the Coast Guard 
has stated that the private sector will have to spend $4.4 billion to 
comply with the act, we can only assume that it will be a substantial 
amount.
    As I've stated before, I am confident that the Coast Guard can meet 
its security missions. However, we cannot let environmental protection, 
search and rescue, drug interdiction and other missions fall by the 
wayside. I've supported raising the Coast Guard's personnel level to 
50,000, and I support a larger budget. If the Coast Guard is to play an 
integral role in homeland security, we must make sure the agency has 
the resources it needs to fulfill all its missions, not just those 
dictated by national security concerns.
    As for NOAA's budget, I was pleased to see the $152 million 
proposed increase, but I have three primary areas of concern that I 
believe need to be addressed. The first is fisheries management. The 
Administration's budget request includes a total of $732 million, a 
slight increase over the FY 2003 appropriated amount of $729 million. 
However, a number of important funding priorities need additional 
resources in order to improve science, management, enforcement and 
safety. For example, there is little or no funding for bycatch 
reduction and capacity reduction when bycatch remains a problem in many 
fisheries, when federal law requires that fishery managers count and 
cap bycatch, and when capacity reduction is key to building sustainable 
fisheries in communities from Alaska to New England to the Gulf.
    The second area is climate. In 2001, the Bush Administration 
announced a U.S. Climate Change Research Initiative (CCRI) headed by 
the Secretary of Commerce. That effort and the on-going United States 
Global Research Program (USGCRP) were then subsumed by the Climate 
Change Science Program (CCSP), which is headed by the Secretary of 
Commerce. So we've had a lot of organizational shuffling, but it's not 
at all clear that we're making any progress on the science. The 
administration's draft strategic plan for the CCSP was criticized this 
month by a National Academy of Sciences (NAS) panel as unfocused and in 
need of substantial revision. The NAS called the Administration's 
climate change funding requests for FY04 inadequate and noted that CCRI 
activities appeared to be funded at the expense of USGCRP activities, 
providing little new support for climate research. In addition, the 
plan ignores the requirement of the Global Change Research Act of 1990 
that the Administration submit a scientific assessment to Congress 
every four years. The last ``National Assessment,'' released in 2000, 
outlined potential societal, environmental, and economic impacts of 
various scenarios of climate change that roughly mirror the adverse 
consequences outlined by the Third Assessment of the Intergovernmental 
Panel on Climate Change (IPCC), which was favorably reviewed by the NAS 
in a report issued in 2001. Given the primary role announced for NOAA 
in climate science, the $295.6 million NOAA FY 2004 proposal for 
climate change, research, observations and services still appears to be 
only a small proportion of the over $1.7 billion in proposed climate 
funding.
    My third area of concern is for the recapitalization of the NOAA 
fleet in order to meet NOAA missions. NOAA requires ship operations to 
support diverse activities, including mapping and charting, fishery 
stock assessments, climate and global change research, ocean 
exploration, and marine incident investigations. In view of the events 
of September 11 and with increasing demands on Coast Guard vessels and 
resources, the value of the NOAA fleet in performing these missions is 
even more pronounced.
    NOAA currently meets its ship operation requirements by maintaining 
an in-house fleet of vessels, which will be increasing to 16 this year; 
contracting hydrographic services; and utilizing the University 
National Oceanographic Laboratory System (UNOLS) fleet. The FY 2004 
agency budget request includes $18.1 million for operations and 
maintenance for the FAIRWEATHER, a hydrographic survey vessel, and 
$497,000 to increase the strength of the NOAA Corps by 10 officers to 
staff an additional active ship. The request, however, does not set 
forth a plan for recapitalizing the fleet to meet new demands and 
delays the additional $50 million for procurement of the second fishery 
research vessel (FRV) to replace the 39-year old ALBATROSS IV.
    I look forward to hearing more about these issues and the budgets 
for NOAA and the Coast Guard in today's hearing. Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon
    Mr. Chairman, I appreciate the opportunity to have this hearing 
today. I know that there are a great many people in my home State of 
Oregon who are very interested in what the panel has to say today and 
what this means for the future of our coastal economies and our 
domestic defenses.
    It was only a few short years ago that the State of Oregon earned 
accolades as one of the ``most livable'' areas in the country. Today, 
the state leads the nation in both unemployment and hunger. And while 
times across the country have been difficult, many in our coastal and 
upstream communities have been dealt a double blow as annual harvests 
shrink to meet federal catch guidelines for over-capitalized stocks and 
federal investment in fisheries programs continues to trail the 
necessary levels.
    As you know, Congress enacted the Mitchell Act in 1938 to 
supplement salmon populations impacted by federal dams in the Columbia 
River Basin. Today, about 70 percent of all salmon and steelhead 
harvested are produced by hatcheries, supporting over 10,000 sport, 
commercial, and tribal fishing-related jobs. Unfortunately, a decade of 
near-level funding has slowly gutted the budget for the program, 
leading to the closure of several hatcheries in Oregon and Washington 
and deferred maintenance at others.
    I look forward to hearing from the panel how the Administration 
plans to move forward to restore this program as well as provide 
funding and support for a number of other programs vital to out coastal 
and upstream economies.
    Last month, Congress and the Administration took a huge step toward 
offering some needed relief to our coast by passing and signing into 
law the West Coast Groundfish Capacity Reduction program, and I am 
anxious to hear from the agency its plans for implementation of the 
buyback program.
    Mr. Chairman, thank you again for holding today's hearing, and 
thank you to all the members of the panel today. I look forward to 
working with all of you as we begin this new budget cycle.
                                 ______
                                 
               Prepared Statement of the U.S. Coast Guard
                        PSA Completion Schedule
    Port Security Assessments (PSA) have been completed at 13 of the 55 
port complexes to date. This includes 5 accomplished by the Defense 
Threat Reduction Agency (DTRA) between August 1999 and February 2002.

  <bullet> Baltimore, MD
  <bullet> Apra Harbor, Guam
  <bullet> Honolulu, HI
  <bullet> Charleston, SC
  <bullet> Savannah, GA

    The remaining 8 were started after September 11, 2001. The PSA 
process can be divided into three distinct phases: research/pre-
assessment, on-site assessment, and report writing. The table below 
shows the PSA timelines, along with the expected delivery dates for PSA 
reports still in production:



------------------------------------------------------------------------
                        Research/Pre-                           Report
        Port              Assessment      On-Site Assessment   Delivery
------------------------------------------------------------------------
(6) Boston, MA       4 Aug-20 Aug 02      21 Aug-7 Sep 02     13 Jan 03
(7) Portland, ME     4 Aug-20 Aug 02      21 Aug-7 Sep 02     17 Mar 03
(8) Corpus Christi,  11 Aug-27 Aug 02     28 Aug-13 Sep 02    24 Feb 03
 TX
(9) San Diego, CA    11 Aug-27 Aug 02     28 Aug-13 Sep 02    3 Feb 03
(10) Port Arthur     2 Sep-8 Oct 02       9 Oct-26 Oct 02     7 Apr 03*
 and Beaumont, TX
(11) Lake Charles,   2 Sep-8 Oct 02       9 Oct-26 Oct 02     7 Apr 03
 LA
(12) Portland, OR    2 Sep-8 Oct 02       16 Oct-1 Nov 02     28 Apr 03*
 and Vancouver, WA
(13) Detroit, MI     2 Sep-8 Oct 02       16 Oct-1 Nov 02     19 May 03
------------------------------------------------------------------------
* Note: One report will encompass assessment for multiple ports.

    The FY04 budget consolidates funding under Information Analysis & 
Infrastructure Protection (IAIP) within the Department of Homeland 
Security to provide coordinated and consistent vulnerability assessment 
efforts across all critical infrastructure.

  <bullet> The Coast Guard and IAIP are developing a coordinated plan 
        to ensure consistent and effective program management in FY04 
        and beyond. We must also ensure alignment with the MTSA.

  <bullet> At the current scope and funding levels, PSAs in 55 ports 
        will not be complete until 2009-lessons learned from the first 
        assessments are being used to re-scope the current assessments.

    Below is a breakdown of Coast Guard resource employment hours in 
each of our mission areas from pre-September 11, 2001 to the projected 
levels for FY04.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Joseph L. Barnes, National Executive Secretary, 
                       Fleet Reserve Association
    Certification of Non-receipt of Federal Funds--Pursuant to the 
requirements of House Rule XI, the Fleet Reserve Association has not 
received any federal grant or contract during the current fiscal year 
or either of the two previous fiscal years.
Introduction
    Thank you Madame Chairman and distinguished Members of the 
Subcommittee for the opportunity to submit the Fleet Reserve 
Association's views on the FY 2004 Coast Guard budget.
    The Fleet Reserve Association (FRA) is a Congressionally Chartered, 
non-profit organization, representing the interests of U.S. Navy, 
Marine Corps, and Coast Guard personnel with regard to pay, health care 
and other benefits.
    With 135,000 members, the FRA is the oldest and largest Association 
representing enlisted members of the Sea Services whether on active 
duty, in the Reserves, or retired. In addition to its extensive 
legislative program, the Association sponsors annual scholarship and 
patriotic essay competitions, and recognition programs honoring the 
Coast Guard Enlisted Persons and Recruiters of the Year, the Navy 
Sailors and Recruiters of the Year and the Marine Corps Recruiters and 
Drill Instructors of the Year.
    Quality of life programs are critically important to sustaining 
military readiness and fighting the War on Terrorism. As it has for 
many years, the United States Coast Guard serves with distinction as 
the fifth branch of our Nation's Armed Forces and as an integral 
component ensuring our Nation's security.
    Thanks to the heroic efforts of many Coast Guard personnel in the 
aftermath of the 9/11/01, the American people have an increased 
awareness of, and appreciation for the Coast Guard's multi-faceted and 
demanding mission. FRA believes this is long over due.
    Before addressing specific issues, the Association wishes to thank 
Congress for its tremendous support for pay and benefit improvements 
enacted during the 107th Congress. Across the board and targeted pay 
increases, higher housing allowances, reform of the PCS process and 
increased funding for health care are significant improvements and 
perceived as important recognition of the service and sacrifice of the 
men and women serving in the Coast Guard, and those who've served in 
the past.
    The Association notes the significant progress toward ensuring 
Coast Guard parity with all pay and benefits provided to DoD services 
personnel in recent years and restates it commitment to this goal.
Pay and Benefit Parity
    The Fleet Reserve Association appreciates and thanks the 
Administration and Congress for continued support for the pay and 
entitlements of Coast Guard personnel. These include increases in base 
pay, target pay raises for senior enlisted personnel and some officer 
grades and annual housing allowance increases. (BAH).
    The FY 2004 Budget supports an average military pay raise of 4.1 
percent with pay levels ranging from 2 percent for E-1s to 6.25 percent 
for E-9s. The majority of members will receive an increase of 3.7 
percent and out of pocket housing costs will be reduced from 7.5 
percent to 3.5 percent in keeping with a multi-year plan to reduce the 
average out of pocket expense to zero by 2006.
    The Budget also fully funds all pay and entitlements for Coast 
Guard personnel and reflects continuing strong support for benefit 
parity with the Department of Defense.
    The Association is extremely disappointed that the Administration 
is proposing to cap the pay of NOAA and USPHS officers at 2 percent for 
FY 2004. FRA strongly objects to this disparate treatment of these 
members of the uniformed services and urges you to intercede in their 
behalf with colleagues on the appropriate oversight committees to halt 
this plan and ensure pay comparability for these personnel.
Recruiting and End Strength
    The Coast Guard is in a period of large personnel and mission 
growth. The service continues to balance mission requirements against 
workforce strength and asset availability to ensure a safe operational 
tempo is maintained and missions are completed.
    FRA strongly supports recently authorized increased end strengths 
and appreciates the adequate funding for same in the FY 2004 Budget. 
This is especially important given its broad and demanding mission 
requirements related to its key position in the new Department of 
Homeland Security. The budget authorizes 1,788 military and 188 
civilian positions and includes funding for six Maritime Safety and 
Security Teams, 53 Sea Marshals, two Port Security Units, and new Coast 
Guard Stations in Boston and Washington, DC. Adequate funding is also 
included for the Search and Rescue (SAR) Program and to allow the 
stations to meet readiness requirements with watch standers maintaining 
a maximum 68-hour workweek.
    Recruiting, training and deploying a workforce with the skills and 
experience required to carry out the Coast Guard's many missions is a 
formidable challenge. The overall experience level of the workforce 
decreased since 9/11/01 and during this large growth period it will 
require a few years to come back to the levels before that date.
    Enlisted workforce retention is the best it has been since 1994 
having increased by 2.1 percent since FY 2000. This significantly 
helped increase the overall strength and experience of the workforce. 
Increased opportunities for advancement, improved sea pay and selected 
reenlistment bonuses contributed to these high rates.
    The Coast Guard also met its active duty recruiting goal in FY 2002 
and is on target to meet it again in FY 2003. Consequently, the service 
actually had to slow recruiting for enlisted members this year due to 
the higher than expected retention levels.
    Reserve recruiting fell slightly short of the FY 2002 goal but is 
on target to meet it for FY 2003. The FY 2004 budget includes funding 
to fully train, support and sustain the Coast Guard's Selected Reserve 
Force as an integral part of Team Coast Guard with growth to 10,000 
personnel (up from 9,000 in FY 2003). FRA strongly supports this 
increase because adequate training is essential to ensuring military 
readiness. Reservists maintain qualifications and important skill sets 
to support contingency operations as well as augment the active 
component.
    The Coast Guard training system is operating effectively at maximum 
level in order to process the growing number of trainees. Additional 
contract instructors have been hired at the training centers and 
temporary classrooms accommodate day and night classes to increase 
capacity and efficiency.
    The Administration's FY 2004 Budget fully supports all recruiting 
initiatives and incentives. This robust recruiting system coupled with 
Coast Guard enlistment bonuses has ensured a steady flow of recruits 
entering the service. The Coast Guard also opened new recruiting 
offices to target diversity rich communities.
Health Care
    FRA continues to work with Congress and DoD to ensure full funding 
of the Defense Health Budget to meet readiness needs and deliver 
services, through both the direct care and purchased care systems, for 
all uniformed services beneficiaries, regardless of age, status and 
location. The Association strongly supports TRICARE improvements 
recently enacted for active duty, Reserve and retired personnel and 
their families.
    Oversight of the Defense Health Budget is essential to avoid a 
return to the chronic under funding of recent years that led to 
execution shortfalls, shortchanging of the direct care system, and 
reliance on annual emergency supplemental funding requests. Even though 
supplemental appropriations were not needed last year, FRA is concerned 
that the current funding level only maintains the status quo. 
Addressing TRICARE provider shortfalls will require additional funding.
    Active duty members are automatically enrolled in TRICARE Prime. 
Reservists activated for 30 days or more are entitled to the same 
healthcare benefit as active duty personnel and their family members 
are entitled to TRICARE Extra and Standard on the first day of the 
military sponsor's active duty if orders are for more than 30 days. 
Coast Guard retirees may access care through Coast Guard Healthcare 
System on a space available basis if they are not enrolled in TRICARE 
Prime or TRICARE Senior (in which case they are automatically enrolled 
in TRICARE Extra or Standard).
    Access to care is the number one concern expressed by our 
membership and this is especially challenging for Coast Guard personnel 
assigned to duty in areas not served by military treatment facilities 
(MTFs). Some beneficiaries report that there are providers not willing 
to accept new TRICARE Standard patients. Areas most affected by this 
are:

  <bullet> Alaska where there is a continuous struggle to get providers 
        to participate and accept assignment. FRA notes that the 
        TRICARE AK office provides great help in addressing the issue 
        and in solving some of the balance billing issues. Valdez, 
        Cordova and other remote locations are affected the most.

  <bullet> In Humboldt Bay/County, California (AIRSTA/Group Humboldt 
        Bay)--there is an extremely limited pool of participating 
        providers with a growing population of active duty service 
        members and dependents.

  <bullet> At Novato, California, and other Bay Area locations (Pacific 
        Strike Team/TRACEN Petaluma/ISC Alameda) Prime providers are 
        leaving the network contributing to beneficiaries having a hard 
        time locating replacements. No hospitals accept TRICARE Prime 
        patients in Marin County and there is only one laboratory and 
        few radiology facilities available in the area.

  <bullet> The Santa Barbara, California, situation is similar to 
        Novato and Marin County.

    In areas away from MTFs, access can be especially challenging. 
Providers do not like to take TRICARE patients mainly due to the low 
reimbursement rates. In the locations where TRICARE Prime is present, a 
trend is developing whereby providers are leaving the network. This not 
only affects active duty service members and their dependents but 
retirees and their dependents.
    The message sent by The TRICARE Management Activity ``selling'' the 
three TRICARE options (Prime, Extra or Standard) only applies to those 
fortunate to live near an MTF that has an established network. These 
members have choices. If assigned to a high cost or remote/semi-remote 
area where Prime is not available, the only option is Standard. In 
addition, it is unfair for Coast Guard personnel to have to absorb the 
higher costs associated with health and dental care, including 
orthodontics in assignment areas. In reality there is no uniform 
benefit at this time since the three TRICARE options are not available 
to all beneficiaries nationwide.
    FRA also believes further distinction must be made between TRICARE 
Standard and Prime in evaluation of the TRICARE program. Our members 
report increased problems and dissatisfaction with the Standard 
benefit.
    The President's FY 2004 budget seeks to repeal a protection for 
beneficiaries that Congress recently enacted into law. A persistent 
problem with TRICARE Standard has been that beneficiaries who need 
certain kinds of care must check with a local military facility before 
getting the care in the private sector. TRICARE Standard will pay the 
claim for civilian care in such instances only if the local military 
facility issues a non-availability statement (NAS) indicating the care 
can't be provided at the military facility.
    FRA is also concerned about a flaw in the provider reimbursement 
formula which contributes to this situation. The Centers for Medicare 
and Medicaid (CMS) cut the Medicare fees by 5.4 percent in the past two 
years. This reduction coupled with providers' increasing overhead 
expenses and rapidly rising medical liability costs, seriously 
jeopardize providers' willingness to participate in TRICARE and 
Medicare. Provider groups say that TRICARE is the lowest paying program 
they deal with, and often results in the most administrative problems.
Housing
    FRA is concerned about Coast Guard housing challenges that include 
adequate appropriations for new construction and/or maintenance. While 
the objective is to ensure that all members have access to quality 
housing, whether for single personnel or personnel with families, the 
Commandant's people-oriented direction acknowledges the importance of 
quality of life, and the important role of housing in obtaining and 
retaining a productive workforce.
    During recent testimony presented to this distinguished 
Subcommittee, Master Chief Petty Officer of the Coast Guard Frank 
Welch, stated that Coast Guard personnel and their families ``continue 
to face a lack of affordable and adequate housing in many of our 
assignment areas.''
    The following locations are deemed Critical Housing Areas (CHAs) 
for Coast Guard personnel:

  <bullet> Cape Hatteras, North Carolina (NC176)
  <bullet> Montauk, New York (NY218)
  <bullet> Cape May, New Jersey (NJ198)
  <bullet> Abbeville, Louisiana (ZZ553)
  <bullet> Port O'Connor, Texas (ZZ583)
  <bullet> Rockland, Maine (ME141)
  <bullet> Carrabelle, Florida (ZZ630)
  <bullet> Marathon/Islamorada, Florida (FL069)
  <bullet> Plus any area currently designated as a CHA by the U.S. 
        Navy.

    In the absence of adequate government owned housing, the Coast 
Guard offers accompanied members several choices including seeking 
rental partnership agreements with landlords (where possible) and/or 
establishing Coast Guard Leased Housing.
    This situation is exacerbated by assignment areas that are 
typically in or near remote, high-cost resort areas along our coasts. 
Areas where no government owned housing is available include Puerto 
Rico, Alaska, Washington State, the Outer Banks off the Eastern Shore, 
and Santa Barbara, California. Unaccompanied personnel housing problems 
affecting habitability exist at, but are not limited to, barracks in 
Alameda, California, Cape Cod, Massachusetts, Activities New York, and 
New Orleans, Louisiana.
    While housing allowances have increased, the availability of 
quality, affordable housing within a reasonable distance to work 
remains a challenge--especially for junior enlisted personnel. In 
certain areas, hyper increases in utility costs may also financially 
impact accompanied members residing on the economy and paying their own 
utilities. This has occurred for personnel in California.
    Housing privatization initiatives are helping ease this challenge 
for the DoD Services and the Coast Guard's authority to participate in 
these ventures was recently renewed, with passage of the Port and 
Maritime Security Act (U.S. Coast Guard Authorization) last year.
Child Care
    Having available and accessible childcare is a very important 
quality of life issue for Coast Guard personnel and their families and 
the Administration's FY 2004 Budget supports an expansion of this 
service.
    While comparing Coast Guard childcare parity with the Department of 
Defense is difficult--the childcare needs of Coast Guard personnel and 
their families are no different than for DoD services personnel. 
Approximately 640 children are in Coast Guard childcare facilities and 
FRA believes that this program should be adequately funded to ensure 
parity.
Education Benefits
    FRA strongly supports increased funding for education benefits. For 
FY 2003, tuition assistance is paid at 100 percent up to $250 per 
semester hour with an annual cap of $4,500 for Coast Guard personnel. 
This puts the service on a par with the Department of Defense.
    With regard to the MGIB program, participants may receive a full-
time student rate of $985/month or more, depending on whether they 
contribute to an increased benefit program. Recent enhancements are 
positive steps to improving this program, however FRA believes MGIB 
benefits should be benchmarked to the average cost of a four-year 
public college education.
    In addition, FRA believes active duty career service members who 
entered service during the Veterans Education Assistance Program (VEAP) 
era (1977-1985) and declined to take VEAP should have an opportunity to 
enroll in the MGIB. There are about 115,000 armed forces personnel in 
this situation. Many actually were discouraged from signing up for VEAP 
as it was acknowledged to be a woefully inferior program compared to 
the Vietnam-era GI Bill and the subsequent MGIB that began on 1 July 
1985. As the backbone of today's force, these senior leaders are 
critical to the success of ongoing and pending operations. As they 
complete their careers, they should be afforded at least one 
opportunity to say ``yes'' or ``no'' to veterans' education benefits 
under the MGIB.
    The Coast Guard adjusts discretionary funding to best address its 
particular needs. The President's FY 2004 budget supports the Coast 
Guard to be fully competitive with DoD education benefits.
Conclusion
    The Association again appreciates the opportunity to present its 
recommendations on the Coast Guard's FY 2004 Budget and is grateful to 
this Distinguished Subcommittee for its great work in support of the 
men and women serving in our Nation's fifth Armed Force.
    The broad range of services and support provided by the Coast Guard 
are not fully understood and recognized by the American public. FRA is 
working to broaden awareness of the incredible work done by Coast Guard 
men and women in support of the service's many missions and our 
national security. Hopefully the service's well deserved prominence 
within the new Department of Homeland Security will help increase 
recognition of the Coast Guard's tremendous service to our great 
Nation.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to
                       Admiral Thomas H. Collins
Rescue 21--Environmental/Local Concerns
    Question. I am pleased to see the Administration's request 
recommends full funding for the Rescue 21 program to modernize the 
Coast Guard's National Distress System--also known as the Maritime 911 
system. As you begin installation in the Mid-Atlantic States are you 
encountering environmental and local concerns concerning tower 
placement? If so, to what extent? How is this impacting your plans? 
Will these concerns lead to less than optimal tower placement thereby 
resulting in a degradation in system performance?
    Answer. The Coast Guard is committed to maximizing the use of 
existing infrastructure through collocation of antenna and ancillary 
equipment on existing government or commercially owned towers where 
possible. This approach minimizes new tower construction, which is 
often viewed as undesirable by the general public and environmental 
stakeholders. In areas where existing towers are not available, each 
proposed new tower is assessed for potential environmental impacts in 
accordance with the National Environmental Policy Act and other 
applicable environmental statutes and Executive Orders prior to 
proceeding with construction. The majority of these statutes involve 
public participation.
    To date, the Coast Guard has encountered resistance over the 
construction of only one tower. Local community members from the 
Borough of Manasquan, New Jersey presented safety and economic related 
concerns regarding replacement of an existing tower with a new, taller 
tower in their borough. The Rescue 21 Project Team worked closely with 
the community to address their concerns and ensured they were 
appropriately considered in the decision making process. The tower is 
currently under construction with an expected completion date of May 
2003. The remaining six tower sites within the mid-Atlantic region (2 
new construction and 4 collocations of equipment on existing towers) 
are proceeding without complaint.
    Finally, the Coast Guard is partnering with the Fish and Wildlife 
Service (FWS), a key environmental stakeholder in the oversight of 
construction of telecommunications towers, to minimize Rescue 21 
environmental impact. The Coast Guard and FWS have co-developed a 
Memorandum of Understanding (MOU) that contains tower construction 
guidelines that will establish protocol for compliance with the 
Migratory Bird Treaty Act. The Coast Guard anticipates the signing of 
this MOU by the end of May 2003.
Deepwater Deficit and Impacts
    Question. The original Deepwater plan called for $500 million a 
year for twenty years in Fiscal Year 1998 dollars. For Fiscal Year 2004 
that amount would be almost $550 million. The President's request is 
$500 million which would under fund Deepwater by $50 million or 
approximately 10 percent. With the Deepwater program being underfunded 
in its first two years, how far behind scheduled is it? How much of a 
deficit is there? If the Coast Guard receives $500 million in Deepwater 
funding for Fiscal Year 2004 as requested, which of the Deepwater 
initiatives will be delayed or significantly modified? How will this 
impact the out years? If Deepwater program funding remains at $500 
million per year in appropriated dollars for the life of the program, 
the Coast Guard will undoubtedly be forced to extend the time line. Is 
the Coast Guard developing a plan to account for this reduced level of 
funding? What impact will this have on the Coast Guard's ability to 
carry out its homeland security responsibilities as well as its 
traditional missions?
    Answer. The Integrated Deepwater System (IDS) contracting strategy 
was chosen based on its flexibility. The Acquisition Plan states that 
the strategy gives the ``Coast Guard the flexibility to choose precise 
quantities identified in the contractor's implementation plan or make 
adjustments depending on budget variances.'' Funding below notional 
annual planning funding levels will increase the time and cost 
necessary to fully implement the Deepwater solution.
    Industry teams used a notional annual planning funding stream of 
$300 million in Fiscal Year 2002 and $500 million from Fiscal Year 2003 
in Fiscal Year 1998 dollars until project completion. In addition to 
the Request For Proposal (RFP) notional annual funding level, Deepwater 
estimated $30 million per year for government program management to 
administer the program. At this notional funding level, it is estimated 
that Deepwater would be completed in 24 years. The difference between 
planned Deepwater funding and Fiscal Years 2002, 2003 appropriated 
funding/Fiscal Year 2004 requested funding results in a deficit of 
$202M.
    In Fiscal Year 2004, the Coast Guard delayed the purchase of 3 
Vertical Take Off/Land Unmanned Air Vehicles (VUAV) and reduced 
investment in legacy asset sustainment. VUAV's are still part of the 
overall IDS acquisition, and will be considered in future funding 
requests.
    An extended IDS implementation schedule will delay the introduction 
of new assets, and require that legacy assets remain in operation an 
extended period.
SAR and the DOT Audit
    Question. In October 2001, the Department of Transportation 
Inspector General released its audit of the Coast Guard's small boat 
stations that revealed significant readiness concerns. I understand the 
Coast Guard has made strides over the past two years in remedying these 
readiness problems by adding additional personnel, better training, and 
better use of new technologies. Where is the Coast Guard in rectifying 
the search and rescue readiness problems reported by the DOT IG last 
year? Will the increase in personnel in the Administration's request 
enable the Coast Guard to achieve its goal of a 68-hour workweek at 
small-boat stations and meet the 12-hour watch standard at command 
centers? If not, what additional resources are needed and when do you 
expect to meet these requirements?
    Answer. Although Search and Rescue (SAR) is a top priority, Coast 
Guard small boat stations are multi-mission in nature and perform 
nearly all Coast Guard missions on a routine basis so their staffing 
must reflect their multi-mission workload. Towards this goal, 
substantial human resources have been added to multi-mission stations 
toward attainment of the 68-hour workweek standard, including 224 full-
time positions (FTP) in Fiscal Year 2002, 150 FTP in Fiscal Year 2003 
and the 179 FTP requested in Fiscal Year 2004. Those numbers include 
113 FTP for Support Petty Officers at 98 stations nation-wide to 
relieve administrative workloads from operational personnel.
    Quantitative measurement efforts (workload surveys) were conducted 
in the summer of 2002 to monitor the workweek of Station personnel. 
2002 results showed that the workweek has decreased slightly (3.18 
percent) since 1998. However, due to transfer cycles and fill rate, the 
full impact of Fiscal Year 2002 billet additions has not yet been 
realized. The next survey is scheduled for Fall 2003.
    The Stand-the-Watch initiative provided 87 FTP in Fiscal Year 2002, 
30 FTP in Fiscal Year 2003 and requests an additional 71 FTP in Fiscal 
Year 2004. This will provide the minimum number of people needed to 
implement a 12-hour watch at all but a few command centers. The Stand-
the-Watch staffing requests were based upon the Center for Naval 
Analyses 5:1 ratio per watch position. Other research, including an 
ongoing study by the Coast Guard Research & Development Center, 
indicates additional staffing may be needed to fully account for the 
impact of personnel accession, assignment, training, qualification and 
other personnel issues on the ability to fully maintain a 12-hour watch 
rotation. If the results of the current Research & Development Center 
study indicate that additional personnel are required, then additional 
funding will be requested to ensure that no individual works more than 
12 hours in a 24-hour period.
    We continue to assess the extent of the significant maritime 
Homeland Security workload on our stations and command center personnel 
and the increased resources required to achieve the standards in the 
post 9/11 environment to determine our needs in Fiscal Year 2005 and 
beyond.
MTSA Funding for Private Sector
    Question. I understand the Coast Guard estimated the private sector 
costs for compliance with the requirements of the Maritime 
Transportation Security Act to be $4.4 billion, with annual costs of 
$500 million.

  <bullet> Is this $4.4 billion figure accurate? If so, what is it 
        based on?

  <bullet> How much is the Administration requesting for maritime and 
        port security grants for Fiscal Year 2004?

  <bullet> Which agencies or directorates will be managing these funds?

  <bullet> While I understand these funds will not directly be 
        administered by the Coast Guard, what role does the Coast Guard 
        play in awarding these grants?

  <bullet> Can you explain how awarding of these grants will be 
        coordinated with Port Security Assessments being conducted by 
        the Coast Guard as part of your ongoing assessments?

    Answer. The $4.4 billion figure was a preliminary analysis 
published in the Federal Register on December 30, 2002 and represented 
the cost of implementing MTSA for facilities. As part of the regulatory 
process, the Coast Guard will consider public input generated by the 
Federal Register notice and the ensuing public meetings. The cost 
estimates for the regulated industry will be revised and published with 
the interim rule in June.
    The Coast Guard's Fiscal Year 2004 budget does not include funding 
for maritime or port security grants.
    The Transportation Security Administration (TSA), the Maritime 
Administration (MARAD), and the Coast Guard have been working together 
to coordinate the review and award of grant funds.
    The Coast Guard is continuing to work cooperatively with TSA and 
MARAD in receipt and review of the grant proposals. The Coast Guard and 
MARAD field representatives jointly conducted field level review and 
provided award recommendations to the national selection board 
comprised of senior personnel from the Coast Guard, TSA, and MARAD. 
Additionally, the Coast Guard provided input at the national level in 
development of the grant proposal selection plan and associated 
selection criteria for the two grant categories, assessments as well as 
physical and operational security enhancements.
    The Coast Guard provides information on the port security 
assessments completed by the Coast Guard to ensure awarded grants are 
not funding duplicate assessments. The Coast Guard will continue to 
work with TSA and MARAD in determining future grant selection criteria 
by providing national trends in security vulnerabilities and 
participating in the review of proposals.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to
                       Admiral Thomas H. Collins
Catch-up Funding Adjustments
    Question. Admiral Collins, if the Deepwater funding profile had 
followed the original plan of 500 million dollars annually in Fiscal 
Year 1998 dollars, the Fiscal Year 2005 level would be less than 600 
million in 2005 dollars. However, the Coast Guard's recent report on 
accelerating the Deepwater acquisition shows that the program would 
require 871 million dollars in Fiscal Year 2005 and 888 million dollars 
in Fiscal Year 2006 to catch up to the original plan to keep the 
program on schedule for a 20-year acquisition period. Fiscal Year 2007 
funding would return to the originally forecasted level of 608 million 
dollars. Will the Coast Guard's new Capital Plan reflect this catch-up 
adjustment?
    Answer. The Coast Guard's Fiscal Year 2004 Capital Investment Plan 
reflects out-year funding for the Integrated Deepwater System (IDS), 
the National Distress and the Response System Modernization program to 
ensure full deployment by 2006, and funding for other essential Coast 
Guard Capital Acquisitions within OMB's budgetary projections.
    The Fiscal Year 2005 Capital Investment Plan will be updated to 
reflect any new or revised planning assumption.
Coast Guard vs. DoD Budget Process
    Question. Admiral Collins, I understand that the Coast Guard's 
budget development process differs from the DoD services in that the 
Coast Guard does not first develop a requirements list before 
proceeding to developing a budget request. I believe the Coast Guard's 
process disadvantages your Service by blurring the difference between 
requirements and budget. Would you please provide a response for the 
record on whether this different budget development system is based on 
statute, and would you consider moving to a system similar to that used 
by the DoD services?
    Answer. The Coast Guard uses a rigorous planning process to develop 
our budgetary priorities. The Coast Guard's planning process considers 
numerous factors such as return on investment, economies of scale, risk 
assessments and performance analysis to select the most critical 
projects for budget request inputs.
    In accordance with Department of Homeland Security and OMB 
direction, the Coast Guard identifies its out-year requirements in the 
Capital Investment Plan (CIP). This is a five-year capital asset 
management tool that is vetted through the Administration and contained 
in our Congressional budget submission.
    Under statute in 10 USCS Sec. 153, the Department of Defense 
submits an ``unfunded priorities'' listing annually to Congress after 
their formal budget submission. While the Coast Guard does not submit 
this type of list to Congress, we routinely engage the Department and 
OMB to identify our highest resource priorities.
Homeporting in Pascagoula, MS
    Question. Admiral Collins, the increasing importance of homeland 
security and national security missions for the Deepwater programs new 
cutters will require improved interoperability with the U.S. Navy. 
Would the co-location of some of these cutters and U.S. Navy ships at 
the same homeports, such as Naval Station Pascagoula, MS, provide the 
potential for improved interoperability? Would the homeporting of some 
of these cutters at Naval Station Pascagoula, next-door to where they 
will be built, provide the potential for reduced maintenance costs?
    Answer. Interoperability with the U.S. Navy is a key component of 
the Integrated Deepwater System (IDS) and the Coast Guard's efforts to 
meet the increasing demands of our homeland and national security 
missions. Partnering with the Department of Defense and fellow 
Department of Homeland Security agencies is vital to defending and 
securing our country.
    Interoperability between Coast Guard and U.S. Navy vessels is 
linked to compatibility of equipment, command and control systems, 
weapons management systems, training, and doctrine. Co-location with 
the U.S. Navy does offer potential for improved interoperability and 
reduced costs based on common systems and logistics support, (e.g., 
availability of Navy training facilities and technical 
representatives). Other factors, such as co-location with similar class 
Coast Guard cutters and a cutter's proximity to its operational area, 
will also improve interoperability and reduce overall costs. All these 
factors regarding homeporting and co-location opportunities will be 
assessed as IDS matures.
    Coast Guard maintenance modeling and expenditures suggest that a 
vessel's homeport relative to the proximity of the shipyard where 
constructed has no appreciable impact on reduced maintenance costs. 
Deepwater's lifecycle cost savings is predicated upon homeport 
clustering of similar class hulls to leverage savings in depot level 
maintenance, training, and crewing efficiency.
Grants to Gulf Ports
    Question. Admiral Collins, last year, 92 million dollars in port 
security grants were awarded to various ports. Not a single Gulf Coast 
port between New Orleans and Tampa received a grant, although several 
requests from those ports were submitted. The Coast Guard is working 
with the Maritime Administration (MARAD) and the Transportation 
Security Administration (TSA) to award another 105 million dollars in 
port security grants this year. Will you ensure that the ports in this 
region receive appropriate assistance in understanding the grant 
process and are not overlooked in this year's round of grants? Of 
course, I am particularly interested in the ports of Pascagoula and 
Gulfport, both among the top 20 of U.S. ports in cargo movements.
    Answer. The preliminary analysis of the current round of grants 
shows that Transportation Security Administration (TSA) received 1,100 
port security grant proposals totaling nearly $1 billion. A selection 
board consisting of senior personnel from the Coast Guard, TSA, and 
Maritime Administration (MARAD) will base awards on consideration of 
the most urgent needs from a maritime homeland security perspective.
    The ports of Pascagoula and Gulfport are located within the Marine 
Safety Office Mobile's area of responsibility. Twelve-port security 
grant proposals totaling $4.8 million were submitted to the Marine 
Safety Office Mobile from applicants in the ports of Pascagoula and 
Gulfport in this round of submissions. All applications, including 
those from the ports of Pascagoula and Gulfport, will receive full and 
careful consideration.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                       Admiral Thomas H. Collins
Resources for Homeland Security
    Question. The Coast Guard has tremendous new responsibilities for 
ports, waterways and coastal security. Yet only 25 percent of the 
operating budget is aimed at this mission. Is this sufficient? Where 
would you apply additional resources if they were given to you, with 
respect to your homeland security missions?
    Answer. The Coast Guard's Ports, Waterways, and Coastal Security 
(PWCS) mission was redefined as a result of the increased post-9/11 
Homeland Security responsibilities. PWCS is not, however, a ``new'' 
mission; nor is it the Coast Guard's only ``Homeland Security'' 
mission. Section 888 of the Homeland Security Act defines Homeland 
Security missions as follows:

  <bullet> Ports, Waterways, and Coastal Security (PWCS)
  <bullet> Drug interdiction
  <bullet> Migrant interdiction
  <bullet> Defense readiness
  <bullet> Other law enforcement

    Thus, while the Fiscal Year 2004 budget includes approximately $1.2 
billion for the PWCS mission, a larger view of the request shows that 
approximately $2.1 billion, or 44 percent, of the Operating Expenses 
budget is attributable to Homeland Security missions. Due to the unique 
multi-mission nature of the Coast Guard, any funding applied toward 
Homeland Security missions also contributes to successes with Non-
Homeland Security missions.
    Initiatives within the Fiscal Year 2004 budget will bolster the 
Coast Guard's homeland security capabilities and capacities, which will 
mitigate the impacts of future elevations of the HSAS threat level on 
the Coast Guard resource allocation across all missions.
Maritime Transportation Security Act Budget
    Question. I am very concerned about implementation of the port 
security bill--the Maritime Transportation Security Act. Last year, we 
passed the most significant legislation ever directed at coordinating 
security policy at our seaports. The bill creates some significant new 
responsibilities for the Coast Guard.

  <bullet> Does the budget include any specific item to address these 
        new responsibilities?

  <bullet> Has the Coast Guard estimated the costs on the Coast Guard 
        of implementing the MTSA? If so, what are those estimates?

  <bullet> If the budget does not include any new money for this 
        additional responsibility, where will the resources be taken 
        from?

    Answer. The Maritime Transportation Security Act (MTSA) was passed 
in November 2002. We have substantial requirements for personnel and 
funding in Fiscal Years 2003 and 2004 to fully implement new MTSA 
responsibilities. However, the Coast Guard's Fiscal Year 2004 budget 
does include over $140M in new initiatives related to the MTSA such as 
6 Maritime Safety and Security Teams, intelligence and information 
enhancements, and 58 Sea Marshals.
    The Coast Guard has diverted base resources and deferred other 
regulatory projects in Fiscal Year 2003 to ensure the regulatory 
project remains on track. An interim rule is expected to be published 
in July this year.
    The Coast Guard estimates the largest cost of new Coast Guard 
responsibilities required by MTSA will be in Fiscal Year 2004 as the 
plans required by the rulemaking process are developed and submitted to 
the Coast Guard for approval and actual compliance enforcement begins. 
The most important part of security plans is their implementation by 
owners/operators. MTSA is one of our top priorities, and we will 
continue to work with the Department of Homeland Security to identify 
needed resources to implement and enforce this important legislation.
Rescue 21 Coverage
    Question. A key long-term planning project is upgrading the 
National Distress and Response System (NDS), or ``Rescue 21'' system. A 
major concern about this system is the existence of 88 ``dead zones''--
i.e., gaps in coverage--along the coast of the United States, including 
a number of spots in Massachusetts, Maine and South Carolina.

  <bullet> Is it true that the overall budget plan for this project 
        would result in less than 100 percent geographical coverage?

  <bullet> In what states will the gaps be located?

    Answer. The Coast Guard's deployment strategy for Rescue 21 is not 
an attempt to close 100 percent of the existing gaps in coverage, but 
instead a comprehensive re-evaluation of all tower locations to provide 
maximum communications coverage throughout the coastal zone of the 
United States, Guam and Puerto Rico. Rather than taking a patchwork 
approach focusing on filling in existing communication gaps, the Coast 
Guard is constructing a modernized system in a sequential manner, 
proceeding from one region to the next adjacent region, taking 
advantage of existing infrastructure. This approach will reduce costs, 
expedite deployment of the new system, and maximize communications 
coverage.
    The Rescue 21 predicted coverage is 98 percent throughout the 
coastal zone (shoreline to 20 NM off shore) of the United States 
including Hawaii, Guam, Puerto Rico and the Juneau, Valdez, and Kodiak 
regions of Alaska. The anticipated coverage is based upon General 
Dynamic Decision System's theoretical coverage model for the reception 
of a signal from a 1-watt transmission from a height of two (2) meters 
above sea level. This is a conservative standard since most mariners 
currently operate 5-25-watt transmitters and contemporary hand-helds 
are typically 3-5 watts. The actual Rescue 21 system communications 
coverage is dependent upon the location of the remote communication 
sites (tower location and height) and final testing of the system 
following installation.
    The 98 percent coverage goal is intended to account for 
communication variables such as atmospheric conditions, electronic 
background noise, physical objects, and other factors that adversely 
affect radio propagation. In contrast, typical public safety wireless 
systems (police, fire, emergency medical personnel, and others 
responding to emergency situations) are designed to provide 95-97 
percent coverage.
    Once Rescue 21 has been installed in each region, regional 
performance tests will be completed to verify coverage performance 
requirements within the region.
Reducing the Work Hours at Stations
    Question. Crews working at search and rescue stations continue to 
work hours that exceed Coast Guard guidelines. The recently passed 
Coast Guard authorization bill provides strong direction to the Coast 
Guard to bring these hours within Coast Guard guidelines. How is this 
being addressed?
    Answer. Although Search and Rescue (SAR) is a top priority, Coast 
Guard small boat stations are multi-mission in nature and perform 
nearly all Coast Guard missions on a routine basis so their staffing 
must reflect their multi-mission workload. Towards this goal, 
substantial human resources have been added to multi-mission stations 
toward attainment of the 68-hour workweek, including 224 full-time 
positions (FTP) in Fiscal Year 2002, 150 FTP in Fiscal Year 2003 and 
the 179 FTP requested in Fiscal Year 2004. Those numbers include 113 
FTP for Support Petty Officers at 98 stations nation-wide to relieve 
administrative workloads from operational personnel. We continue to 
assess the extent of the significant maritime Homeland Security 
workload on our stations and the increased resources required to 
achieve the 68-hour workweek standard in the post 9/11 environment.
    Quantitative measurement efforts (workload surveys) were conducted 
in the summer of 2002 to monitor the workweek of Station personnel. 
2002 results showed that the workweek has decreased slightly (3.18 
percent) since 1998. However, due to transfer cycles, the full impact 
of Fiscal Year 2002 billet additions has not yet been realized. The 
next survey is scheduled for the Fall 2003.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John F. Kerry to
                       Admiral Thomas H. Collins
Resources for Traditional Non-Security Missions
    Question. Despite an increase in the budget request for all 
missions, it is unclear that the Coast Guard will in fact provide 
adequate resources for traditional non-security missions. In fact, 
resources for several key missions such as fisheries enforcement are 
still below pre-9/11 levels, and trends over the last several years 
indicate a continued decline for many such missions. Although the 
budget request would increase operating expenses for law enforcement, 
the actual number of resource hours dedicated to these missions has 
suffered since 9/11, and according to GAO analysis, are projected to 
still be approximately 5 percent below pre-9/11 levels.

  <bullet> Which aspects of fisheries enforcement are suffering losses 
        due to the decreased resource hours being dedicated to these 
        missions? What regions are most impacted?

  <bullet> Do you plan to bring the level of fisheries enforcement back 
        to its 9/11 levels in the future, or to some other level? What 
        is your strategy for getting to those levels?

  <bullet> A communication sent to all of the Coast Guard's Atlantic 
        operations last fall gave instructions to cease certain 
        traditional activities, or to shift the burden of traditional 
        Coast Guard duties to state and local entities. Is this not an 
        indication that some of the Coast Guard's responsibilities need 
        to move to other entities?

    Answer. The Coast Guard allocates resource effort to fisheries 
enforcement at sufficient levels to ensure compliance with management 
regulations for the recovery and maintenance of healthy fish stocks. 
Regionally, New England and the Pacific Northwest have been the most 
impacted due to cutter and aircraft-increased port security operations. 
Partnership efforts such as Coast Guard/State enforcement operations 
and Vessel Monitoring Systems (VMS) have enabled the Coast Guard to 
allocate enforcement resources more efficiently across all missions to 
ensure adequate compliance and effective Coast Guard law enforcement 
boardings.
    Coast Guard innovative enforcement and partnering with NOAA and the 
States is meant as a short-term strategy to ensure adequate fisheries 
enforcement. The long-term strategy remains to increase capacity and 
capability for the Coast Guard to meet, and balance, all mission 
demands. The President's Fiscal Year 2004 Coast Guard Budget will 
provide the needed resources to return our non-maritime homeland 
security (MHS) to near pre-September 11, 2001 levels.
    Coast Guard responsibilities should not be moved to other entities. 
The multi-mission nature of the Coast Guard and the synergies between 
its missions make the Coast Guard the right agency to retain its 
existing mission portfolio. Maritime security and maritime safety are 
two sides of the same coin. Due to the unique multi-mission nature of 
the Coast Guard, any funding applied toward Homeland Security missions 
also contributes to successes with Non-Homeland Security missions. As 
the Coast Guard continues to adjust its resources to meet its mission 
balancing challenges, it is also good stewardship to use all available 
assets in response to the nation's highest priorities. The Coast Guard 
values the partnerships it has with other Federal, State and local law 
enforcement agencies and will look to them for continued support as we 
carry out our maritime safety and security missions. This support is 
now more critical than ever, as the Coast Guard continues to grow 
capacity and capability to meet the demands of all missions.
Mission Balance Comprehensive Blueprint
    Question. In testimony before the Commerce Committee and the 
Appropriations Committee, the Coast Guard has explained that they have 
a ``three year plan'' to return the Coast Guard to normalcy, with 
Fiscal Year 2004 being the second year. However, the Coast Guard has 
not developed such a plan, but has instead developed a plan only for 
the maritime security missions. GAO raises this issue as a major 
shortcoming in the Coast Guard's ability to achieve the ``new 
normalcy.''

  <bullet> Admiral Collins, the Coast Guard has testified previously 
        before this Committee that you have a three-year strategic plan 
        for returning to ``the new normal''--not just for the new 
        security missions, but also for traditional missions. The 2002 
        Coast Guard authorization bill also calls for the Coast Guard 
        to develop multi-year targets for all missions. Yet we have not 
        seen such a plan. What is the status of this plan?

  <bullet> In fact, I am concerned that the Coast Guard has developed a 
        plan for maritime security issues, but not for the traditional 
        missions. Why is that?

  <bullet> What is the ``new normal'' for traditional missions, such as 
        fisheries enforcement? Is it returning to resource expenditures 
        at the pre-9/11 level, or a different level?

    Answer. The Coast Guard is pursuing a multi-year resource effort to 
perform an enhanced level of Maritime Homeland Security (MHS) while 
sustaining our non-MHS missions near pre-9/11 levels. Although we do 
have capacity, capability and operational tempo challenges to 
sustaining mission balance, the Coast Guard will continue to emphasize 
all of our missions. At the end of the day, we are focused on 
performance-based results and not only resource hours. The perspective 
through the performance lens illustrates that our non-Homeland Security 
missions are not suffering. The Fiscal Year 2003 Report/Fiscal Year 
2004 Budget in Brief (BIB) provides documentation of the Coast Guard's 
high performance levels across our full mission spectrum. For example, 
in Fiscal Year 2002 we seized the third highest cocaine total in our 
history, we interdicted or deterred illegal immigration by sea at a 
rate of 88.3 percent which exceeded our target of 87 percent, we 
reduced the volume of oil spilled per million gallons shipped to 0.6 
gallons which was well below our target of 2.5 gallons, and we 
continued to reduce the number of maritime worker fatalities to 4.3 per 
10,000 workers which is below our target of 8.7.
    A necessary first step is base-lining our maritime Homeland 
Security (MHS) requirements to help balance our other missions. To 
accomplish this, the Coast Guard has focused on a Strategic Deployment 
Plan (SDP) for implementing the maritime component of the President's 
National Strategy for Homeland Security. Various components of our 
Maritime Security Strategy Deployment Plan are under development, with 
the first component to be completed in April/May of 2003.
    These MHS requirements will roll into a comprehensive blueprint to 
achieve overall mission balance. This blueprint will consider budgetary 
inputs, resource activity levels, multi-year mission targets and 
mission performance outcomes. Our existing strategic planning process 
and performance plans will serve as the cornerstone of an integrated 
approach emphasizing three general areas of effort: Preserving Non-MHS 
missions, Conducting MHS missions, and maintaining military readiness 
to conduct Defense Operations when tasked. The planning process 
provides the ability to detail the difference between pre and post-9/11 
levels of effort and performance in missions. We anticipate completion 
of the comprehensive blueprint for mission balancing by the end of 
Fiscal Year 2003.
    The multi-mission resources requested in the Fiscal Year 2004 
budget are critical to overall mission balancing efforts and to the 
sustainment of the Coast Guard's high standards of operational 
excellence across all mission areas. It is important to note that every 
Homeland Security dollar directed to the Coast Guard will contribute to 
a careful balance between our safety and security missions (including 
fisheries law enforcement), both of which must be properly resourced 
for effective mission accomplishment. The Fiscal Year 2004 budget 
reflects steady progress in our multi-year resource effort to meet 
America's future maritime safety and security needs. This new funding 
will positively impact our performance in all assigned MHS and non-MHS 
goals.
Multiple Deepwater Funding Issues
    Question. The Integrated Deepwater System (IDS) program is the 
largest asset recapitalization in the Coast Guard's history; the latest 
projections indicate that it will cost approximately $17 billion over 
20-30 years. The Fiscal Year 2004 budget request is for $500 million, 
which is less than the estimated $587 million necessary to keep the IDS 
budget plan on its original track of $500 million annually--in 1998 
dollars. The Coast Guard delivered a report requested by Congress on 
the prospects for speeding up the Deepwater acquisition project on 
March 11, 2003.

  <bullet> Admiral Collins, the Coast Guard has just finished its 
        report on the prospects for speeding up the Deepwater 
        acquisition project. The report states that accelerating the 
        Deepwater project to ten years will result in increased 
        acquisition costs of $4.0 billion over the President's 5-year 
        Fiscal Year 2004 Capital Investment Plan for Deepwater, yet 
        will save $4.0 billion over the ``build-out'' of the system. 
        Could you explain these figures and the assumptions used to 
        reach them?

  <bullet> If the project were to be accelerated, what annual 
        appropriation would be needed?

  <bullet> Your report notes serious constraints on the ability to 
        train and hire adequate personnel to bring Deepwater assets on 
        line in an accelerated time-frame. How would Coast Guard 
        propose to overcome those problems?

  <bullet> The original plan for Deepwater relied on appropriations of 
        $500 million per year, in 1998 dollars. Yet while an estimated 
        $587 million in current dollars is need to keep Deepwater on 
        track, the Administration only requested $500 million in 
        current dollars in the Fiscal Year 2004 budget request. If the 
        Administration is not even requesting an adequate amount of 
        funding to keep the IDS program on track, how do you expect to 
        reach the goals of this program?

    Answer. The Coast Guard, on March 7, 2003, released a Report to 
Congress on the feasibility of accelerating the Integrated Deepwater 
System (IDS) to 10 years. This report provides the best estimate of 
funding levels to accelerate IDS. Below are the estimated capital 
acquisition funding levels needed to build out IDS in 10 years. These 
figures reflect ``then-year dollars'' and include making up for 
previous shortfalls.
    The Coast Guard's Fiscal Year 2004 Capital Investment Plan (CIP) 
for Deepwater is also provided below and reflects out-year funding for 
the Integrated Deepwater System (IDS) within OMB's certified budgetary 
projections. The difference between the total acquisition costs and the 
Fiscal Year 2004 5-year CIP for Fiscal Years 2004-2008 results in an 
increase of $4.0 billion.
    As discussed in the March 7, 2003 Report to Congress on the 
Feasibility of Accelerating the Integrated Deepwater System, a total 
Capital Acquisition savings of approximately $4 billion (then-year 
dollars) is projected under the 10-year acceleration plan over the 
build out of the system as compared to 20-year plan.


------------------------------------------------------------------------
    FY               10-Year ($M)                  FY04 CIP ($M)
------------------------------------------------------------------------
02                                   320
03                                   478
04                                   500                            500
05                                 1,892                            530
06                                 1,663                            618
07                                 1,506                            669
08                                 1,472                            680
09                                 1,428
10                                 1,226
11                                   988
------------------------------------------------------------------------

    Temporary increases will be necessary to meet training and crew 
requirements associated with the accelerated plan. An outsourcing 
strategy for providing training, successfully used to meet present 
workforce surge requirements, is a viable and preferred alternative to 
meet this demand. Another alternative involves expanding current 
infrastructure by building new facilities and training new instructors 
at the existing training centers. This alternative is less desirable 
due to the temporary duration of the Deepwater training surge. Careful 
study will be required so that the most efficient and effective overall 
course of action for accomplishing out-year required training is 
pursued. But this challenge can be successfully met with proper 
planning and sufficient resources.
    The IDS contracting strategy was chosen based on its flexibility. 
The Acquisition Plan states that the strategy gives the ``Coast Guard 
the flexibility to choose precise quantities identified in the 
contractor's implementation plan or make adjustments depending on 
budget variances.'' Funding below notional annual planning funding 
levels will increase the time and cost necessary to fully implement the 
Deepwater solution.
    An extended IDS implementation schedule will delay the introduction 
of new assets, and require legacy assets remain in operation an 
extended period.
Increased OPTEMPO Impact on Personnel and Retention
    Question. The Coast Guard has had serious problems retaining 
trained personnel. However, it is unclear that the Coast Guard has the 
capacity to take on sufficient new recruits, including providing basic 
resources, such as housing. In addition, operating tempo is increasing, 
and the Coast Guard's own guidelines for maximum shift hours are not 
being met.

  <bullet> As resources are diverted from traditional missions to 
        homeland security, and resources now are also being sent to the 
        Gulf, are operating tempos at an all-time high?

  <bullet> How is that impacting personnel, and their work schedules?

  <bullet> What steps are needed to ensure that the Coast Guard has 
        sufficient, trained personnel for all of its missions?

  <bullet> What steps is the Coast Guard taking to improve retention of 
        personnel?

    Answer. Maritime Homeland Security (MHS) has always been a 
traditional mission for the Coast Guard, however, since September 11, 
2001, we have placed more emphasis on it to reflect current national 
priorities. The Coast Guard's current operating tempo (OPTEMPO) for all 
cutters, aircraft and boats (ashore) is slightly higher than pre-
September 11, 2001 levels, and this is largely attributable to small 
boat operations from shore units. Coast Guard personnel are currently 
handling the increased challenges in a very positive fashion, as shown 
through improved retention and high morale.
    Our multi-mission stations are starting to feel the positive impact 
of recent resource initiatives in the Fiscal Year 2002 budget. 
Quantitative measurement efforts (workload surveys) were conducted in 
the summer of 2002 to monitor the workweek of Station personnel. The 
2002 results showed that the average workweek has decreased slightly 
(3.18 percent) since 1998. However, due to transfer cycles, the full 
impacts of Fiscal Year 2002 billet additions have not yet been 
realized. The next survey is scheduled for the Fall 2003. We anticipate 
the new personnel included in the enacted Fiscal Year 2003 budget will 
continue to decrease the average workweek for personnel assigned to 
multi-mission stations.
    The Fiscal Year 2004 budget provides increased capability and 
capacity for our shore-based small boat fleet in order to perform our 
MHS mission and sustain our non-MHS missions to near pre-September 11, 
2001 levels. The Fiscal Year 2004 budget also requests to increase the 
active, reserve and civilian workforces, which will help provide 
sufficient personnel and surge capacity for all Coast Guard missions.
    The Coast Guard will continue to employ innovative recruiting and 
hiring initiatives, maximize training capabilities, and focus on 
improving retention. Improvements to retention are attributed to 
numerous initiatives, including; increases to basic pay and basic 
allowance for housing (BAH), selective Re-enlistment Bonuses for 
targeted ratings, the Coast Guard Applicant College Fund, Critical 
Skills Retention Bonus and increased tuition assistance. Civilian 
personnel incentives also include pay raises, Relocation Bonuses, and 
Retention Bonuses.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John B. Breaux to
                       Admiral Thomas H. Collins
Mission Balance
    Question. Admiral, despite your significant budget increases in the 
last few years, the Coast Guard has increasing mission responsibilities 
and you are deploying assets overseas (detailed list attached), which 
will undoubtedly stress the organization. How and when will you balance 
all of your mission levels?
    Answer. A necessary first step is base-lining our maritime Homeland 
Security (MHS) requirements to help balance our other missions. To 
accomplish this, the Coast Guard has focused on a Strategic Deployment 
Plan (SDP) for implementing the maritime component of the President's 
National Strategy for Homeland Security. Various components of our 
Maritime Security Strategy Deployment Plan are under development, with 
the first component to be completed in April/May of 2003.
    These MHS requirements will roll into a comprehensive blueprint to 
achieve overall mission balance. Our existing strategic planning 
process and performance plans will serve as the cornerstone of an 
integrated approach emphasizing three general areas of effort: 
Preserving Non-MHS missions, Conducting MHS missions, and maintaining 
military readiness to conduct Defense Operations when tasked. The 
planning process provides the ability to detail the difference between 
pre- and post-9/11 levels of effort and performance in missions. We 
anticipate completion of this comprehensive blueprint for mission 
balancing by the end of Fiscal Year 2003.
    The multi-mission resources requested in the Fiscal Year 2004 
budget are critical to overall mission balancing efforts and to the 
sustainment of the Coast Guard's high standards of operational 
excellence across all mission areas. It is important to note that every 
Homeland Security dollar directed to the Coast Guard will contribute to 
a careful balance between our safety and security missions, both of 
which must be properly resourced for effective mission accomplishment. 
The Fiscal Year 2004 budget reflects steady progress in our multi-year 
resource effort to meet America's future maritime safety and security 
needs. This new funding will positively impact our performance in all 
assigned MHS and non-MHS goals.
Illegal Waterborne Entries
    Question. During the month of February, there was a series of 
illegal waterborne entries into the United States. These included, but 
were not limited to 23 West African stowaways being discovered aboard a 
container ship in Camden, NJ and a Cuban Coast Guard patrol boat with 
armed personnel entering our waters and docking in downtown Key West. 
And, just last week 20 Cubans and their dog were taken into custody in 
Biscayne National Park. Given these recent intrusions, how would you 
strengthen Coast Guard and other agency capabilities in this extremely 
vulnerable area?
    Answer. The Coast Guard continues to maintain a strong migrant 
interdiction posture, however, migrant landings on U.S. shores are 
unfortunately unavoidable and will continue to occur. The Coast Guard 
is working closely with other Government agencies including the Bureau 
of Customs and Border Protection and the Bureau of Immigration and 
Customs Enforcement to ensure efforts are coordinated. From our 
existing funds, we are continuing to develop non-lethal tools for 
compelling compliance by migrant vessels. Through the Fiscal Year 2004 
budget request, the Coast Guard will gain additional interdiction 
resources with improved sensor capabilities, improved intelligence 
resources throughout the organization and greater surveillance 
capabilities of the maritime approach lanes. These budget initiatives 
are designed to improve migrant interdiction success rates.
Impact of Fiscal Year 2004 Funding
    Question. $500 million is requested for Integrated Deepwater System 
(IDS). Funding for the IDS program has shifted over the last few years. 
The original budget plan for this project relied on annual funding 
levels of $500 million--in 1998 dollars. In order to meet that level in 
2003 dollars, $587 million would need to be appropriated in Fiscal Year 
2004, but the Administration has only requested $500 million for IDS in 
Fiscal Year 2004. Please discuss how this inconsistent funding level 
will impact the overall program.
    Answer. With a funding profile of $500 million annually in 
``appropriated-year dollars'', it would take at least 27 years to 
acquire the assets included in the Integrated Deepwater System (IDS) 
implementation plan, compared to an estimated 24 years with $500 
million in inflated dollars. Although the overall acquisition cost to 
build out the system is relatively similar in Fiscal Year 1998 dollars, 
a longer implementation schedule dictates legacy assets remain in 
operation for an extended period and well beyond most of their 
programmed service lives. As such, more capital improvement funding 
will be needed to sustain legacy assets and less funding will be 
available for acquiring new assets, further extending the acquisition 
time line past 27 years and increasing the total costs to fully 
implement the IDS plan.
Future Mission Requirements
    Question. As you well know, the Coast Guard experienced chronic 
underfunding in the late 90's and at the turn of the century. The 
Congress has recognized this shortfall and provided you significant 
increases in Fiscal Years 2002 and 2003 and now we see a robust budget 
request in Fiscal Year 2004. I suspect that since you have published 
your Maritime Homeland Security Strategy, you have a much better idea 
of your mission requirements. Please address your future needs in this 
context.
    Answer. The Fiscal Year 2004 budget reflects steady progress in our 
multi-year resource effort to meet America's future maritime safety and 
security needs. This new funding will positively impact our performance 
in all assigned maritime homeland security (MHS) and non-MHS 
performance goals. The multi-mission resources requested in the Fiscal 
Year 2004 budget are critical to overall mission balancing efforts and 
to the sustainment of the Coast Guard's high standards of operational 
excellence across all mission areas. It is important to note that every 
Homeland Security dollar directed to the Coast Guard will contribute to 
a careful balance between our safety and security missions, both of 
which must be properly resourced for effective mission accomplishment.
    To gauge future resource requirements, the Coast Guard has focused 
on a Strategic Deployment Plan (SDP) for implementing the maritime 
component of the President's National Strategy for Homeland Security. A 
necessary first step is base lining our MHS requirements to help 
balance our other missions. Various components of our Maritime Security 
Strategy Deployment Plan are under development, with the first 
component to be completed in April/May of 2003, and the full plan by 
the end of Fiscal Year 2003.
    These MHS requirements will roll into a comprehensive blueprint to 
achieve overall mission balance. Our existing strategic planning 
process and performance plans will serve as the cornerstone of an 
integrated approach emphasizing three general areas of effort: 
Preserving non-MHS missions, Conducting MHS missions, and maintaining 
military readiness to conduct Defense Operations when tasked. The 
planning process provides the ability to detail the difference between 
pre and post-9/11 levels of effort and performance in missions. The 
overall effort will enable us to pursue a responsible and appropriate 
multi-year resource effort to accomplish all of our important missions.
How IDS Meets Challenges and Exceeds Legacy Capabilities
    Question. As you recall, during the February 12, 2003 hearing on 
transition of the Coast Guard from the Department of Transportation to 
the Department of Homeland Security, I commented on my recent visit 
aboard the Cutter LEGARE. I saw first hand that your legacy operational 
assets are aging and in many cases unable to meet your current mission 
requirements. Given your recent resource shortfalls and acknowledgment 
of the massive responsibilities that the nation asks of you, please 
explain how the Integrated Deepwater System (IDS) will help mitigate 
these challenges. Please explain what new capabilities the Integrated 
Deepwater System (IDS) program will provide over your legacy assets.
    Answer. The current Coast Guard infrastructure is expensive to 
maintain and manpower intensive to operate. Since 1998, assets have 
been retired, some equipment has failed, and mission requirements have 
increased. Additionally, the Coast Guard continues to experience asset 
degradation and spiraling maintenance costs that impact asset 
reliability and availability. The Integrated Deepwater System (IDS) is 
critical in providing the capability and capacity needed for Maritime 
Homeland Security (MHS) and non-MHS missions.
    IDS is an integral part of the Coast Guard's answer to meet 
America's future maritime needs. This was true before 9/11, and is even 
truer today. The Homeland Security Act and Marine Transportation 
Security Act of 2002 mandate the Coast Guard increase security measures 
while safeguarding its other missions as the lead federal agency for 
MHS, and IDS is key to every element of the Coast Guard's MHS strategy.
    MHS necessitates pushing America's maritime borders outward away 
from ports and waterways so that layered, maritime operations can be 
implemented. IDS will provide a network-centric system of Command, 
Control, Communications, Computers, Intelligence, Surveillance and 
Reconnaissance (C4ISR) that is critical for enhancing maritime domain 
awareness. Through common systems and technologies, common operational 
concepts, and a common logistics base, new and modernized IDS assets 
and equipment will provide increased capabilities, multi-mission 
readiness and availability, and interoperability with the Department of 
Defense and other Department of Homeland Security agencies. Specific 
examples of increased capability include:

  <bullet> System-wide access to Common Operational Picture (COP) 
        increasing operational commanders' situational awareness and 
        ability to respond, plan and allocate resources.

  <bullet> C4ISR enhancements that promote the sharing of information 
        with other national intelligence agencies, improving national 
        ability to respond to emerging threats.

  <bullet> C4ISR enhancements provide classified data and 
        communications links for increased data flow and shared COP 
        among operations units, including Headquarters, District and 
        Area Command Centers.

  <bullet> State-of-the-market sensors improving detection and 
        classification capabilities, increasing the range and ability 
        to operate in all weather conditions.

  <bullet> High Altitude Unmanned Air Vehicle (UAV) provides long-range 
        surveillance with real-time data link.

  <bullet> Unmanned and manned aircraft solution delivers 80 percent 
        more flight hours than the legacy system.

  <bullet> National Security/Offshore Patrol Cutters with Multi-mission 
        Cutter Helicopter, two Vertical UAVs and a Long Range 
        Interceptor boat provide Over-The-Horizon prosecution 
        capabilities and significantly improved area surveillance 
        capacity than legacy cutter and HH-65 helicopter package.

  <bullet> IDS solution provides 9 more Fast Response Cutters (FRC) 
        than the current number of legacy 110-foot patrol boats.

  <bullet> 123, Patrol Boat provide 700 additional annual operating 
        hours and the FRC an additional 1,200 operating hours per hull 
        than the present 110, patrol boat with planned annual operating 
        level of 1,800 hours per hull.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to
                  Admiral Conrad C. Lautenbacher, Jr.
    Question 1. The Snowe-Breaux Harmful Algal Bloom and Hypoxia 
Research and Control Act of 1998 authorized $15 million in 1999, $18.25 
million in 2000, and $19 million in 2001. Unfortunately, the previous 
Administration never requested the fully authorized amounts. I 
understand that for Fiscal Year 2004, funding for Harmful Algal Bloom 
activities, roughly $17 million, is part of the base budget. Can you 
confirm that NOAA is requesting a full $17 million on harmful algal 
bloom and hypoxia research?
    Answer. Approximately $15 million is being requested by NOAA for 
harmful algal bloom and hypoxia research. The funds associated with 
these activities are included in the FY04 budget request in the ``base 
funds'' line item of the program in which the research efforts are 
supported.
    NOAA-supported research on harmful algal blooms and hypoxia is 
organized in the following categories. Changes from previous budget 
structures and planned FY04 funding levels are noted.

    Pfiesteria and HAB Rapid Response (Ocean Assessment Program (OAP))

  <bullet> Funds are now included under (OAP) base funds
  <bullet> Planned FY04 funding levels ($3.9M)

    Harmful Algal Blooms (OAP)

  <bullet> Funds are now included under (OAP) base funds
  <bullet> Planned FY04 funding levels ($5.0M)

    Pfiesteria/Toxins Research (Oceanic and Coastal Research)

  <bullet> Funds are now included under Oceanic and Coastal Research 
        base funds
  <bullet> Planned FY04 funding levels ($1.0M)

    ECOHAB (Coastal Ocean Program (COP))

  <bullet> Funds are now included under (COP) base funds
  <bullet> Planned FY04 funding levels ($4.2M)

    Hypoxia (COP)

  <bullet> Funds are now included under (COP) base funds
  <bullet> Planned FY04 funding levels ($1.1M)

    Question 1a. Please tell me, in as much detail as you can, what 
projects this funding would support next year.
    Answer. Harmful algal bloom and hypoxia research is implemented 
primarily through NOAA's National Ocean Service as mandated through 
Harmful Algal Bloom and Hypoxia Research and Control Act (HABHRCA). 
Based on previous funding efforts, NOAA typically supports projects in 
the following five spending categories and plans to continue these 
activities in FY04. Additional details about individual projects can be 
provided upon request.
    HABHRCA Category 1--authorized funds to carry out research and 
assessment activities, including procurement of necessary research 
equipment, for NOS and NOAA Fisheries research laboratories.
    These funds support HAB research and equipment in NOAA laboratories 
through intramural efforts focusing on developing and deploying new-
generation toxin detection methods, assessments of toxin production, 
and characterization of toxicity in fish and mammals. The adaptation 
and use of remote sensing and molecular methods adapted from medical 
science to monitor, model, and analyze the ecology of toxic marine 
species, and their relationship to changes in the environment is also 
supported.
    HABHRCA Category 2--authorized funds to carry out the Ecology and 
Oceanography of Harmful Algal Blooms (ECOHAB) project under the Coastal 
Ocean Program established under section 201(c) of Public Law 102-567.
    These funds support NOAA's contribution to ECOHAB, a competitive, 
peer-reviewed research program. This interagency research program, 
administered by NOAA's Coastal Ocean Program, is improving our 
understanding of HAB species and their relationships to surrounding 
oceanographic environments. ECOHAB regional studies focus on the 
particular algal species impacting large coastal ocean areas like the 
Gulf of Maine and Gulf of Mexico. These large-scale projects examine 
environmental and ecological factors that control the biological and 
physical processes regulating the development, transport, and 
dissipation of harmful algal blooms and develop models to ultimately 
forecast bloom development and toxicity. The first ever HAB forecast 
capability, now operational in Florida, was developed and implemented 
through ECOHAB. Targeted studies are also providing critical insight 
into the specific biological and physical processes that regulate the 
occurrence of HABs, how HAB toxins are transferred through coastal food 
webs and their biochemical model of action. In addition, ECOHAB 
projects focusing on biological control agents such as clays or viruses 
may lead to useful methods to controls HABs in the future.
    HABHRCA Category 3--authorized funds to carry out a peer-reviewed 
research program on management measures that can be taken to prevent, 
reduce, control, and mitigate harmful algal blooms.
    Projects initiated through the ECOHAB and the Monitoring and Event 
Response for Harmful Algal Blooms (MERHAB) programs are leading to 
results directly applicable to this funding category. Some of these 
projects are developing the capacity to mitigate the impacts of HABs 
though the development of early warning monitoring sensors/systems or 
models capable of forecasting bloom initiation and transport. While 
ECOHAB supports research testing various control mechanisms, there will 
likely be several policy and public perception hurdles to overcome 
before applying results from this research. Until these hurdles are 
overcome, increased emphasis is needed on developing HAB models and 
improved monitoring techniques to support HAB forecasting.
    HABHRCA Category 4--authorized funds to carry out federal and state 
annual monitoring and analysis activities for harmful algal blooms
    These funds support the MERHAB program, a competitive, peer-
reviewed research program administered by NOAA's Coastal Ocean Program. 
MERHAB projects test new technologies for algal cell and toxin 
detection and facilitates their adaptation into existing state and 
tribal coastal monitoring programs. MERHAB also supports event-response 
capabilities within affected regions to ensure trained and equipped 
personnel are able to mobilize quickly, conduct appropriate sampling 
and testing, and communicate effectively during HAB events. Current 
regional monitoring projects focus on HABs in the Pacific Northwest, 
and the Gulf coast of Florida and Texas. A new 5-year project in the 
Lower Great Lakes has been started this year with the goal to develop 
an integrated alert system to monitor and detect toxic cyanobacteria 
blooms in the lower Great Lakes: Lake Erie, Lake Ontario, and Lake 
Champlain. This project will directly benefit coastal managers in 
States bordering the Great Lakes. These studies demonstrate that, with 
HAB monitoring capabilities, managers are better able to mitigate the 
impacts of HAB to coastal resources and economies through the proactive 
detection of potential HAB problems combined with robust event-response 
capabilities.
    HABHRCA Category 5--authorized funds for research and monitoring on 
hypoxia.
    These funds support the COP's competitive, peer-reviewed research 
program in the northern Gulf of Mexico to monitor and model the 
distribution and dynamics of the causes and consequences of Gulf 
hypoxia. These studies are intended to better define relationships 
among nutrient loads, nutrient ratios, phytoplankton species 
composition, carbon (i.e. organic material) flux, and oxygen dynamics. 
These studies will improve modeling efforts to predict changes in 
oxygen budgets and severity of hypoxia under altered riverine input 
scenarios. Studies examining the effects of hypoxia on ecologically and 
economically important species are also being supported.

    Question 2. The Harmful Algal Bloom Task Force's action plan to 
eliminate the Gulf of Mexico dead zone outlined a program that would 
cost approximately $1 billion a year. It largely focuses on regional 
agricultural activities to limit nutrient runoff. To what extent has 
NOAA incorporated the Task Force's recommendations on the dead zone 
into their programs and activities?
    Answer. NOAA has incorporated the Task Force's recommendations into 
their programs and activities by expanding the number and scope of NOAA 
funded monitoring and research programs in the Gulf of Mexico. These 
activities are specifically recommended in action items No. 3 and No. 4 
on page 13 from the Action Plan for Reducing, Mitigating, and 
Controlling Hypoxia in the Northern Gulf of Mexico.
    Action item No. 3 requests the development of a research strategy 
to coordinate and promote the necessary research and modeling efforts 
to reduce uncertainties regarding the sources and effects and 
geochemical processes for hypoxia in the Gulf. NOAA has been funding 
studies based on the research priorities identified in the Integrated 
Assessment on Hypoxia in the Northern Gulf of Mexico produced by the 
National Science and Technology Council Committee on Environmental and 
Natural Resources. These studies have focused on the ecological effects 
of hypoxia and on developing a predictive modeling framework for 
hypoxia. For example, NOAA is supporting studies examining the impact 
of the hypoxia zone on bottom species/fishery resources and funds 
studies to develop bio-physical models to predict the extent of the 
hypoxic zone under various environmental and/or management scenarios. 
NOAA was also a key organizer and participant in an interagency 
workshop to develop a coordinated research plan so future research 
efforts can be designed, managed, and funded within a coordinated, 
multi-disciplinary framework.
    Action item No. 4 requests the development of expanded long-term 
monitoring programs for the hypoxic zone. NOAA is addressing this need 
through the funding and expansion of several ongoing monitoring studies 
that aim to map the hypoxia zone at higher spatial and temporal 
resolutions than previous studies. These new studies expand the ongoing 
monitoring programs by adding additional ship transects through the 
hypoxia zone and the addition of fixed mooring stations. These vital 
studies will help to determine how the hypoxic zone varies when 
nutrient inputs, freshwater inputs, or the physical forcing to the 
northern Gulf of Mexico change due to climatic and year-to-year 
variability.

    Question 2a. Does action in this area simply require more funding, 
or does NOAA need to make other institutional changes to implement 
these recommendations?
    Answer. NOAA has focused on action items No. 3 and No. 4 because 
these activities have the greatest overlap with the expertise, 
jurisdiction, and mission of the agency. NOAA feels that institutional 
changes are not necessary to implement the recommendations currently 
being addressed by the agency. Within current funding levels, many 
important physical and biological processes affecting the hypoxia zone 
in the Gulf are being addressed by existing programs.

    Question 2b. If only a portion of this dead zone funding were 
provided, would NOAA implement any aspects of the action plan?
    Answer. NOAA will continue to support, using available funding 
sources, implementation of the action plan specifically in the areas of 
research, monitoring, and modeling. The development of a comprehensive 
program linking these focus areas of NOAA with those of other research, 
monitoring, and modeling activities occurring in the watershed are a 
high priority.

    Question 2c. How would they determine priority areas and issues for 
action?
    Answer. The priority areas and issues for action would be 
determined from those outlined in the recently completed interagency 
workshop report titled A Science Strategy to Support Management 
Decisions Related to Hypoxia in the Northern Gulf of Mexico and Excess 
Nutrients in the Mississippi River Basin. This report was authored by 
the monitoring, modeling and research workgroup of the Mississippi 
River/Gulf of Mexico watershed nutrients Task Force. NOAA would focus 
on the high priority areas identified in the sections on Gulf 
monitoring and reporting, Gulf modeling and research, and Gulf social 
and economic research.

    Question 2d. When it comes to implementing action plans like this, 
what do you think is the most effective way to integrate regional and 
local stakeholders?
    Answer. The Gulf of Mexico hypoxia issue is a complex, regional 
problem which crosses many state boundaries. This creates many problems 
for management of nutrient inputs to the basin especially since the 
consequences of the excess nutrients are far removed from the source. 
NOAA has been involved with the Gulf of Mexico hypoxia issue since the 
first monitoring efforts were begun in 1985. Based on these 
experiences, the most effective way to integrate regional and local 
stakeholders in the implementation of the action plans is to establish 
the sub-basin committees called for in the Action Plan. These state-led 
groups will bring together state and federal agencies, non-governmental 
organizations, academics, and the private sector to identify ways to 
reduce nutrient loads and reach the targets set in the Action Plan. In 
addition, the existing intergovernmental work groups for science, point 
and non-point source control, and watershed restoration, and budget, 
organized under the Task Force, have been effective in bringing 
together all stakeholders on these complex issues. These efforts and 
the Task Force should be continued.

    Question 3. In January 2003, I re-introduced the Coastal Zone 
Management reauthorization bill, S. 241. A hold was put on the bill, 
due to concerns related to the oil and gas industry. Since oil and gas 
interests are tied to the Department of the Interior's development of 
an energy policy, NOAA needs to work with Interior to resolve this 
impasse. Resolution of oil and gas concerns will allow the CZMA 
reauthorization to proceed. What has NOAA done to resolve this impasse? 
Is NOAA talking to the Department of the Interior regarding how their 
energy policy relates to oil and gas in the coastal zone? What are 
NOAA's plans for developing proposed language that can settle this 
controversy? What kind of time line is NOAA looking at for this?
    Answer. NOAA is aware of the oil and gas industry's concerns 
regarding the Coastal Zone Management Act (CZMA). NOAA believes that 
industry's primary concerns can be addressed through revised 
regulations. On July 2, 2002, NOAA issued an Advanced Notice of 
Proposed Rulemaking (ANPR) seeking public comment on whether limited 
and specific procedural changes or guidance to the existing CZMA 
federal consistency regulations are needed to improve efficiencies in 
the federal consistency procedures and Secretarial appeals process, 
particularly for energy development on the Outer Continental Shelf 
(OCS). The ANPR was issued to respond to concerns raised by industry 
and recommendations contained in Vice President Cheney's Energy Policy 
Report, dated May 2001.
    The comment period for the ANPR closed on October 3, 2002. NOAA 
considered the comments and issued a proposed rule on June 11, 2003. 
The comment period for the proposed rule closed on August 25, 2003. 
NOAA believes these proposed regulations will meet the needs of 
industry as well as the coastal States, and that this process will help 
to resolve the CZMA reauthorization impasse related to OCS oil and gas.
    The Energy Report called on all federal agencies, not just the 
Department of the Interior, to assess their programs and address the 
recommendations in the Energy Report. Thus, the Energy report contains 
the Administration's energy policy, and not multiple policies of the 
various federal agencies. NOAA's role in this process resulted in the 
ANPR and a probable proposed rule related to CZMA requirements. NOAA is 
closely coordinating with Interior on this issue. Secretary Evans and 
Secretary Norton met to discuss this matter and agreed to a process to 
(1) establish an effective NOAA-Interior partnership to address CZMA 
issues and (2) to develop a proposed rule that addresses the Energy 
Report and NOAA's ANPR.
    NOAA and Interior created a CZMA Work Group to work on these issues 
and this Work Group provided its recommendations to a NOAA-Interior 
Policy Team. This Team concluded that the regulatory changes contained 
in the proposed rule were needed.

    Question 4. I have some concerns about the expanded use of marine 
protected areas. For example, I'm concerned about the overlap with 
protected marine environments established in other laws, as well as 
NOAA's continued housing of this program in the National Ocean Service, 
considering that many protected areas currently in place are 
administered by NOAA Fisheries. I am pleased to see, however, that the 
Marine Protected Area Advisory Committee now has a more balanced 
representation of affected stakeholders. How much administrative 
overlap will there be between existing protected marine environments 
and any new MPAs?
    Answer. The Executive Order directs relevant federal agencies to 
use their existing authority to take actions they deem appropriate in 
furtherance of their mandates to enhance or expand protections of 
existing MPAs and to recommend or establish new MPAs. These agencies 
will continue to follow their normal processes under their existing 
authorities when expanding or establishing MPAs, including any 
necessary public notice and comment and coordination with other 
federal, state, tribal and local governments. Within NOAA, there 
continues to be close coordination between NOS and NOAA Fisheries on 
MPA Executive Order implementation and other marine conservation 
programs. The housing of the National MPA Center within NOS is designed 
to provide efficient administrative and technical oversight and support 
in the implementation of the Order. Analogous programs, such as the 
NOAA Fisheries-housed NOAA Restoration Center and the NOAA Chesapeake 
Bay Program, are located in specific line offices for similar reasons 
but benefit from the participation and support of other relevant line 
offices.
    One benefit of the Executive Order is that it provides for a 
National MPA Center to be established in NOAA in cooperation with the 
Department of the Interior (DOI), thereby allowing for better 
coordination across the varied MPA programs. The MPA Needs Assessment 
completed in 2002 clearly indicated that there are many shared science, 
training, and technical assistance needs among the variety of MPAs. The 
National MPA Center has been addressing those shared needs through the 
development of tools and sharing of information such as the ongoing 
``lessons learned'' project which seeks to provide insight on what 
worked and what did not work on previous MPA establishment and 
improvement efforts. The information about MPAs generated through the 
Order should help to shape the existing collection of federal, state, 
territorial, local, and tribal sites into a cohesive, independently-
managed but mutually-supportive national network of MPAs. Ultimately, 
the Order should help in reducing administrative overlap between 
existing protected marine environments and any new MPAs by making 
complete, comparable information available about federal and non-
federal sites throughout the nation.

    Question 4a. Like last year, NOAA's FY04 budget request includes $3 
million for MPAs and houses this program in the National Ocean Service. 
How well does NOS interface with NOAA Fisheries, which already 
administers many existing MPAs?
    Answer. The National MPA Center continues to consult closely with 
both NOAA Fisheries and NOS in the implementation of the Executive 
Order. Both are represented on internal working groups established to 
address specific tasks from the Order, as well as on most individual 
projects supported by the National MPA Center. Senior managers from 
NOAA Fisheries and NOS meet on a routine basis to monitor progress and 
resolve any issues necessary to maintain forward momentum in 
implementing the Order. Joint NOAA Fisheries/NOS review of 
Congressional testimony and preparatory materials, briefings for senior 
managers, and planning for National MPA Center priorities have been 
adopted as standard operating practice. NOAA Fisheries is a full member 
of the Department of Commerce (DOC)-Department of the Interior (DOI) 
MPA Team, which meets monthly to coordinate activities under the 
Executive Order. The National MPA Center's Science Institute, co-
located with the NOAA Fisheries Santa Cruz Laboratory, has increased 
collaboration with NOAA Fisheries scientists and managers on the West 
Coast and nationally. Finally, to ensure the ongoing flow of 
information, NOAA Fisheries staff attend routine staff and planning 
meetings held by the National MPA Center. For example, four NOAA 
Fisheries staff participated in the first MPA Center Planning retreat 
held in January 2003. In addition to collaboration through the National 
MPA Center, NOAA Fisheries and NOS coordinate directly on specific 
programmatic issues that have MPA implications, such as national marine 
sanctuary management plan reviews and fishery management plan 
amendments.

    Question 4b. How will NOAA improve the coordination between these 
groups?
    Answer. Although coordination between the National MPA Center and 
NOAA Fisheries on MPA issues has become routine, we continue to explore 
additional avenues for improvement. Recently, an internal review was 
completed by external consultants on the status of coordination between 
NOAA's MPA programs. Based on the results of this study, NOAA held an 
internal workshop for the agency's MPA program and technical support 
managers in May 2003 to explore the use of a matrix management approach 
for enhancing coordination and cooperation among these programs across 
NOAA. Since most of NOAA's MPA activities are in NOS and NOAA 
Fisheries, the Assistant Administrators for these line offices will be 
working with the new Assistant Administrator for Program, Planning and 
Integration to develop a plan that will increase efficient coordination 
and integration of NOAA MPA-related activities. We believe that the 
National MPA Center's ability to implement the Executive Order will be 
enhanced as a result of these efforts.

    Question 4c. As you know, MPAs can have many purposes, and they are 
often misunderstood by the public. How will poor public perception 
affect NOAA's ability to effectively use MPAs?
    Answer. Poor public perception can have a significant effect on any 
of NOAA's MPA programs, be they fisheries management areas, threatened/
endangered critical habitat and species protected areas, national 
marine sanctuaries, national estuarine research reserves or other 
state-based MPA partnerships. Whether a program is modifying an 
existing site or designating a new site, it is unlikely that such 
efforts will succeed in improving the condition of the Nation's coastal 
and marine resources if the public does not fully understand and 
support what the program is trying to accomplish.

    Question 4d. How is NOAA working to improve public understanding of 
MPAs?
    Answer. Outreach to the public is and will remain a high priority 
for NOAA. NOAA, through the National MPA Center, is undertaking a broad 
range of activities to improve public understanding of MPAs as a 
resource management tool. These activities include:

  <bullet> Continued maintenance, a planned redesign, and routine 
        revision and expansion of the MPA web site, mpa.gov, to ensure 
        it remains current with evolving MPA information and needs;

  <bullet> Publication of a monthly electronic newsletter, Connections, 
        in response to requests for current information about the work 
        of the MPA Center;

  <bullet> Providing access to the general public through the posting 
        of Connections on FirstGov.gov, the U.S. government's official 
        web portal operated by the U.S. General Services 
        Administration;

  <bullet> Development of information materials about specific MPA 
        projects and publications such as the users guide to MPA terms 
        and definitions to be released shortly;

  <bullet> Establishment of MPA regional information centers in 
        cooperation with regional partners, beginning with 
        PacificMPA.org, so that the public can have easy access to 
        information about what MPA activities are taking place in their 
        region, the purpose of the activity, when public meetings might 
        take place, and who to contact for additional information;

  <bullet> Support of the MPA Federal Advisory Committee, which held 
        its first meeting in late June 2003, including making 
        information about the Committee readily available to the 
        public. The next meeting of the MPA FAC is scheduled for 
        November 17-19, 2003;

  <bullet> Working through the coastal states and territories and 
        Fishery Management Councils to improve the accessibility of 
        information to their constituents;

  <bullet> Sponsoring regional educational workshops, such as those 
        held in Maryland, California, and Minnesota in Fiscal Years 
        2002 and 2003, to help marine educators inform the public 
        concerning MPA issues;

  <bullet> Supporting public involvement in specific programmatic 
        activities such as the ongoing MPA process of the South 
        Atlantic Fishery Management Council;

  <bullet> Participation in stakeholder meetings such as annual 
        meetings of the Fishery Management Council Chairs and Executive 
        Directors;

  <bullet> Participation in the meetings of professional organizations 
        such as the National Marine Educators Association and the 
        National Association of Interpreters;

  <bullet> Participating in regional cooperative institutions such as 
        the Gulf of Maine Council;

  <bullet> Participation in stakeholder conferences such as the Native 
        American Fish and Wildlife Association annual conference and 
        the California and the Worlds Ocean conference; and

  <bullet> Participation in scientific MPA fora such as the upcoming 
        Coastal Zone '03 conference and the American Fisheries Society 
        annual meeting.

    Question 4e. What is the status of the MPA review as required by 
the Executive Order?
    Answer. Your letter of May 15, 2001, requesting our review of 
Executive Order 13158 on Marine Protected Areas (MPAs), focused on 
three general concerns, in addition to questions concerning specific 
tasks, such as the MPA Federal Advisory Committee and stakeholder 
involvement. You asked that we review:

  <bullet> whether the Executive Order conflicts with existing 
        legislative and regulatory frameworks and public processes;

  <bullet> whether the location of the National MPA Center in NOAA's 
        Ocean Service might not allow for adequate NOAA Fisheries 
        participation; and

  <bullet> the potential effects of the executive order and how best to 
        proceed with the Department's mission to protect marine 
        resources.

    We did not find that the Executive Order conflicts with existing 
legislative and regulatory frameworks. The Bush Administration's 
decision to retain the Order comes with the full understanding that the 
establishment and management of MPAs in U.S. waters remains the 
responsibility of relevant federal, state, local, or tribal agencies 
based on existing statutes and authorities. This decision also 
recognizes that the Order does not interfere with, but rather supports, 
existing programmatic processes.
    Upon review we believe that the Center is appropriately located 
administratively within NOAA's Ocean Service (NOS), where it can 
support the multiple objectives of MPAs, calling upon the expertise of 
the NOAA Fisheries (NOAA Fisheries), National Environmental Satellite 
Data and Information Service, and the Office of Oceanic and Atmospheric 
Research to accomplish this task, as well as working with other federal 
agencies, states, territories, tribes and a broad spectrum of 
stakeholders ranging from the commercial and recreational fishing 
industries, the dive community, and the recreation and tourism industry 
to environmental and mineral extraction organizations.

    Question 4f. What conclusions are being reached about the existing 
and potentially expanding use of MPAs?
    Answer. Section 1 of the Executive Order states that the purpose of 
the Order is, to ``(a) strengthen the management, protection, and 
conservation of existing marine protected areas and establish new or 
expanded MPAs; [and] (b) develop a scientifically based, comprehensive 
national system of MPAs representing diverse U.S. marine ecosystems, 
and the Nation's natural and cultural resources.'' Any expansion, such 
as the establishment of new Federal Fishery Management Zones or 
National Estuarine Research Reserves, or revision to boundaries of 
National Marine Sanctuaries, remains the responsibility of federal, 
state, tribal and local management programs under their existing 
authorities, and using the best-available scientific information. NOAA 
is committed to the effective involvement of local stakeholders in any 
decisions to strengthen existing MPAs or establish new MPAs that might 
be made in the future under its existing authorities.
    The first step in this process is the development of the Nation's 
first inventory of Marine Managed Areas. Collection of information 
about Federal sites has been ongoing since late 2000. The FY 2003 
appropriation has made available the resources necessary to accelerate 
the progress being made by the states, territories and tribes to add 
information about non-federal MPAs to the inventory and to begin 
working with tribal authorities. We anticipate the first draft of a 
national inventory to be available by the end of 2003, with information 
about individual states and some regions potentially available sooner. 
This information will be used to examine the effectiveness of the 
existing network of sites and identify possible overlaps or gaps. We 
also will initiate the conceptual design of the multi-year, 
consultative process needed to develop the framework for a national 
system of MPAs. The addition of sites or modification of existing sites 
within or external to this system would continue to be the 
responsibility of existing management programs.
    The Order potentially provides the broad national context within 
which such expansions might take place and be better understood in 
terms of comprehensive, efficient, and effective stewardship. This will 
be accomplished in part through the development of a framework for a 
national system, or network, of MPAs. Development of this national 
network will be done in consultation, on a voluntary basis, with the 
states, territories, tribes, Regional Fishery Management Councils, and 
other entities, including the MPA Federal Advisory Committee.

    Question 5. Recently a report was released that stated that the 
coral reefs in the Northwestern Hawaiian Islands are some of the most 
pristine in the world, while the coral reefs in the Atlantic--which 
includes Florida, the Gulf of Mexico, and the Caribbean--are some of 
the most in distress. Having said that, NOAA's Fiscal Year 2002 
spending plan allocated 74 percent of the entire coral reef 
conservation program to the Pacific and only 34 percent to the 
Atlantic. How will the 2003 spending plan divide money between regions? 
What criteria will NOAA use to determine how to allocate this money? If 
the level of distress among regions is so variable, shouldn't we be 
spending more of our limited funding in the regions with the greatest 
needs?
    Answer. A FY 2003 spending plan for the NOAA Coral Reef 
Conservation Program was submitted to congressional appropriations 
committees for review and approval. Based on this plan, in FY 2003 
approximately 64 percent ($17 million) of total funding would support 
activities in the U.S. Pacific waters (e.g., Hawaii, Northwestern 
Hawaiian Islands, Pacific Island Territories and Commonwealths), 34 
percent ($9 million) would support activities in the U.S. Atlantic 
waters (e.g., Florida, Caribbean, and Gulf of Mexico), and < 2 percent 
($0.5 million) would support activities with international partners. 
This is roughly the same regional allocation as in FY 2002. (Please 
note: The correct FY 2002 Pacific funding was 64 percent, not 74 
percent as indicated in the question.)
    NOAA uses a variety of criteria to determine how to allocate coral 
reef program funds among regions and activities. Criteria include not 
only the level of threat and status of coral reefs in each area, but 
also the management and technical capacity to address threats, existing 
federal and non-federal coral conservation work in the region, 
direction from the Coral Reef Conservation Act, expert assessments of 
needs and priorities (such as the U.S. National Action Plan to Conserve 
Coral Reefs, the National Coral Reef Action Strategy, the 2002 Report 
on the State of U.S. Coral Reef Ecosystems) and input from partners 
such as U.S. Coral Reef Task Force, state, territory, and commonwealth 
agencies.
    There are several reasons why more funding has been directed to 
U.S. Pacific regions. First, when the NOAA Coral Reef Conservation 
Program was established in 2000, portions of the U.S. Atlantic and 
Caribbean were already ahead of the U.S. Pacific in development of 
infrastructure and technical capacity for coral reef management. The 
allocation of funding to the Pacific reflected the need to proactively 
build capacity and address the growing threats in this region. For 
example, one of the Program's priorities has been to map and 
characterize all shallow coral reefs by 2009. By 2001, this work had 
been largely completed for U.S. reefs in the Atlantic, and major 
investments were required to launch mapping efforts for the extensive 
and often remote reef areas in the U.S. Pacific. This major undertaking 
required increased funding for the Pacific mapping while mapping funds 
for the Atlantic decreased as the task was completed. Second, several 
Pacific efforts required major funding beginning in FY 2001 for 
success, adding to the overall total funding for the Pacific region. 
This includes $4 million for implementation of the Northwestern 
Hawaiian Island (NWHI) Coral Reef Ecosystem Reserve (established in 
2000 by Presidential Executive Order) and designation of the Reserve as 
a National Marine Sanctuary as authorized under the National Marine 
Sanctuaries Amendments Act of 2000. It also included annual funding of 
$3 million for major efforts to remove tons of harmful marine debris 
from coral reefs of the NWHI, the primary human impact on these 
otherwise pristine reefs. Third, Congress directed the NOAA Program in 
the 2002 Supplemental Appropriations Act for Further Recovery From and 
Response to Terrorist Attacks on the U.S. (Pub.L. 107-206), to 
reallocate $2.5 million of the program budget for deepwater mapping 
efforts in the NWHI. Together, these commitments constitute a 
significant portion of the NOAA Coral Reef Conservation Program budget.
    Needs remain to reduce the threats to coral reef ecosystems in the 
U.S. Caribbean and the Pacific. Serious efforts are also needed to help 
protect international coral reefs. NOAA is working under the existing 
funding scenario to best prepare the Nation to manage and conserve its 
coral reef resources. The distribution of funds by region will track 
shifts in the resource allocation equation as capacity building needs 
are met in the Pacific. NOAA will continue to use expert input from a 
wide variety of sources, including the National Coral Reef Action 
Strategy, State of Coral Reef Ecosystems of the United States and other 
documents, to report on the conditions of coral reef ecosystems, to 
track the impacts of management efforts, and to guide future spending. 
NOAA anticipates that the distribution of funding between regions will 
become more unified over time as marine debris and coral reef mapping 
efforts are completed.

    Question 6. To date, NOAA has dedicated very little funding for 
studying the socio-economics of coral reef damage and rehabilitation--
only 1 percent of the overall budget in FY02 and zero percent in FY01. 
Considering that the causes of coral reef decline are significantly 
driven by human activities, how can NOAA justify spending so little on 
these aspects? What are NOAA's plans to integrate socio-economics and 
human behavior into their overall Coral Reef Conservation Program, both 
now and in the long term? How much of the coral reef budget will go 
toward socio-economics in FY04?
    Answer. Understanding and changing human behavior is essential to 
addressing many threats to coral reefs. Balancing the sustainable use 
and protection of the resources is dependent on this understanding and 
is critical to the long-term success of management strategies. The 
State of Coral Reef Ecosystems of the United States and the National 
Coral Reef Action Strategy identified the need for more information on 
society's present uses of, and associated socioeconomic impacts on, 
coral reef ecosystems. Society's desired uses of coral reef ecosystems 
should direct future expenditures of funds. The Action Strategy 
summarizes objectives and key actions needed to help incorporate 
socioeconomic aspects of coral reef ecosystems into management 
activities. This is an area where significant effort is needed to 
better conserve and manage coral reef ecosystems, and the NOAA Coral 
Reef Conservation Program has been doing what it can within other 
priorities and direction to help fill this need.
    NOAA supports a variety of social and economic research to fulfill 
its mission. The Coral Reef Conservation Program (Program) is just one 
part of this effort has been increasing funding in this area since 
2001.
    In FY 2002, the NOAA Coral Reef Conservation Program spent $35K on 
a variety of projects to increase socioeconomic understanding of the 
use and value of coral reef ecosystems (see full explanation below). 
Given the other priorities and mandates the Program is required to meet 
in FY 2003, coupled with the $2 million reduction from the President's 
request in the FY 2003 appropriation, funding for this area was not 
increased as planned. The FY 2003 spending plan continues FY 2002 
funding levels for specific social and economic activities related to 
coral reefs. In FY 2004, NOAA has proposed doubling the socioeconomic 
budget to 2 percent of the funding total. NOAA believes there are 
critical additional needs to be addressed.
    In FY 2002, the program supported a variety of social and economic 
projects related to coral reefs. This included a socioeconomic study of 
the commercial fishermen in the U.S. Virgin Islands, phase 1 of a 
National Coral Reef Valuation Study, development and use of models to 
determine the economic value of coral reefs habitats in response to 
ship groundings, and effort to incorporate socioeconomic layers into 
Geographic Information System (GIS) management applications for use by 
local and regional managers. These activities begin to help coral reef 
managers to better target coral reef management activities. The Program 
also funds social and economic projects in several other parts of the 
Program budget (e.g., management, monitoring, partnerships etc.) as 
part of the effort to reduce threats from overfishing, land based 
pollution, recreational over-use and other threats. In addition, a 
portion of the coral program funding is provided as grants to states, 
territories, commonwealths and other partners to support coral reef 
management activities. Some of these efforts address social and 
economic issues. In FY 2002 (and expected in FY 2003), funding through 
the NOAA Coral Reef Conservation Grant Program and the Coral Reef 
Conservation Fund supported work on social and economic uses and 
education to help reduce human impacts on reefs. Several other NOAA 
programs also work in this area and have supported projects on social 
and economic aspects of coral reefs.
    NOAA has developed comprehensive proposals to help assess the value 
of coral reefs for use in damage assessment, restoration and 
management, and help implement education and outreach projects to 
reduce human impacts on reef systems. As in FY 2002, these proposed 
activities are designed to address top priorities identified by the 
U.S. Coral Reef Task Force and NOAA's state, territory and commonwealth 
partners. If the FY 2004 funding request is appropriated and the coral 
reef program spend plan is approved, NOAA will increase support for 
these activities and begin to implement much needed additional projects 
in these important areas.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                  Admiral Conrad C. Lautenbacher, Jr.
    Question 1. Emergency Warning Act: As you know, this Congress 
Senator Edwards and I introduced S. 118, The Emergency Warning Act. 
This legislation would require the Department of Commerce to work with 
other relevant agencies, including the Department of Homeland Security, 
to make sure that comprehensive, easily understood emergency warnings 
get to every American at risk, whether from flood, hurricane or 
terrorist attack. The bill would utilize the NOAA Weather Radio as the 
backbone of the system. I am therefore pleased to see your proposal in 
the FY 2004 budget to upgrade NOAA weather radio to send out civil 
emergency messages. What would be required to further upgrade the NOAA 
Weather Radio infrastructure to make it a true all hazards warning 
system for the nation?
    Answer. NOAA's National Weather Service (NWS) requires two key 
investments to make the NOAA Weather Radio Network a true all hazards 
warning system for the nation. First, as part of the Department of 
Commerce's Homeland Security Initiative, the FY04 President's Budget 
includes a one time request of $5.5M to automate the collection and 
dissemination of civil emergency messages over NOAA Weather Radio 
(NWR). Today, the NWS broadcasts weather and non-weather civil 
emergency messages over NWR for events such as earthquakes, chemical 
spill, nuclear releases, biohazards, and fire emergencies. However, the 
current process requires first responders and emergency managers to 
call the local Weather Forecast Office and request an NWS employee to 
type and transmit the emergency message. This process is labor 
intensive and introduces unnecessary delays for transmitting messages. 
The request in the FY04 President's Budget will provide emergencies 
managers with direct automated secure access to the NWR network to 
improve the timeliness of the messages. We estimate this new direct 
access capability to decrease the message transmission time from 
current average of 7 minutes down to just 2 minutes.
    Second, we need to provide adequate NWR coverage to the U.S. 
population. Currently, the National Weather Service operates over 800 
NWR radio transmitters, providing coverage to approximately 90 percent 
of the U.S. population. However, the coverage in some States is as low 
as 70 percent and some 25 high risk areas still lack coverage. Under 
the current federal partnership agreement, local and state governments 
as well as private associations purchase the transmitters and, in turn, 
the NWS operates and maintains the network. To ensure the NWR network 
fully supports Homeland Security, we need to continue working with our 
partners and Congress to ensure transmitters are installed at the 
remaining high risk sites and provide adequate coverage to the 
population to mitigate the impact of civil emergencies.

    Question 1a. What agencies need to be involved?
    Answer. Currently, NOAA's National Weather Service is working with 
the Department of Homeland Security (DHS), Department of Agriculture, 
and the Federal Emergency Management Agency (FEMA) to coordinate 
planning and implementation for the two investments outlined above. For 
example, the Department of Agriculture has administered a successful 
grant process for rural communities to receive NWR transmitters. In 
addition, NWS has been working with the Chief Information Officers 
(CIO) in both FEMA and DHS to coordinate implementation for the new 
automated messaging capability for NWR.

    Question 1b. Are discussions ongoing in the Administration?
    Answer. Yes, DHS has been charged with developing and coordinating 
a National emergency communication system. Officials from NOAA and NWS 
and DHS met earlier this year to coordination planning and 
implementation for using NWR as a component of this emergency system. 
Tom Ridge, Secretary for the DHS, recently acknowledged NWR as a 
critical component of the future National emergency alert 
infrastructure.

    Question 1c. Who is leading these discussions?
    Answer. Senior Officials from NOAA and NOAA's National Weather 
Service have been leading the discussions, including NOAA and NWS's 
Chief Information Officers (CIO) as well as the NWS Director of 
Operational Systems and the Director of Services. These officials have 
been working with the Office of the CIO within DHS.

    Question 1d. What is the expected outcome?
    Answer. We expect to develop a long term relationship between NOAA 
and DHS to leverage NOAA's expertise and warning infrastructure to 
support efforts to transmit timely and accurate emergency messages to 
the public. We expect the NWR network will continue to be a critical 
component for these efforts. NWS will also continue to work with DHS 
and FEMA to formalize these relationships.

    Recapitalization of NOAA Fleet--NOAA requires ship operations to 
support diverse activities, including mapping and charting, fishery 
stock assessments, climate and global change research, ocean 
exploration, and marine incident investigations. The NOAA fleet now 
consists of 16 vessels, many of which are aging or approaching the end 
of their useful lives, but NOAA's research and survey missions are 
expanding annually.

    Question 2. What's the strategy and schedule of plans to increase 
the number of fishery survey research vessels? When is the next one 
due?
    Answer.

  <bullet> The Fisheries Survey Vessel Authorization Act of 2000 
        authorizes the purchase, lease, lease-purchase or charter of up 
        to six fishery survey vessels (FSVs) for NOAA.

  <bullet> Congress appropriated money for the first fishery survey 
        vessel in FY 2000 and FY 2001. NOAA awarded a contract for 
        construction of the first fishery survey vessel with contract 
        options for 3 additional vessels in January 2001. The contract 
        shipyard, Halter Marine, had some financial difficulties which 
        have been resolved and the company emerged from the bankruptcy 
        as VT Halter Marine.

  <bullet> The launching of the first fishery survey vessel, to be 
        named the OSCAR DYSON and homeported in Kodiak, Alaska, is 
        presently scheduled for this fall. Delivery of the DYSON is 
        expected in late FY 2004.

  <bullet> Congress appropriated money in FY 2002 and FY 2003 for the 
        second fishery survey vessel, a replacement for the ALBATROSS 
        IV, which is to be homeported in Wood's Hole, Massachusetts. 
        NOAA exercised its option under the existing FSV contract and 
        awarded funds to VT Halter Marine to begin construction on FSV 
        2 in July 2003. This vessel will be ready for operations in 
        Fall 2006.

  <bullet> Due in part to uncertainty about the financial status of the 
        shipyard during the formulation of the FY 2004 budget and to 
        allow adequate progress on FSV 1 and 2, the FY 2004 President's 
        Budget does not include a request for funds for the third 
        fishery survey vessel.

  <bullet> NOAA has until January 31, 2005 to exercise the option to 
        build the third vessel under its existing contract with VT 
        Halter Marine.

    Question 3. Do you plan to add any other vessels to replace or 
supplement the existing fleet?
    Answer. NOAA's plan is to continue current modernization projects 
including, (1) building new fisheries survey vessels; (2) reactivating 
FAIRWEATHER for nautical charting in Alaska in FY 2004; (3) 
decommissioning the WHITING on May 2, 2003 and replacing it with the 
LITTLEHALES, a former Navy TAGS vessel; (4) replacing the McARTHUR with 
a converted Navy T-AGOS vessel (to be renamed the McARTHUR II) in May 
2003; (5) replacing the RUDE with a Shallow Water Area Twin Hull 
(SWATH) vessel in FY 2006; and (6) using a converted T-AGOS vessel to 
conduct coral reef work in the Northwest Hawaiian Islands.

    Question 4. What are your long range plans for recapitalizing the 
NOAA fleet? Have you developed an updated NOAA Fleet Modernization 
Plan?
    Answer. NOAA has drafted a 10 year Vessel Plan and a 10 year 
Aircraft Plan which examine existing and future requirements for 
platform needs. The plans compare current capacity within the vessel 
and aircraft fleet against future requirements and other factors, such 
as the age of platforms. The plans recommend strategies for meeting 
these requirements. Both the vessel and aircraft draft plans are 
currently under review.

    Question 4a. Have you estimated the cost?
    Answer. Estimated costs for implementing the 10 year Vessel and 
Aircraft Plans will be provided to Congress when the plans are cleared 
by the Department of Commerce and the Office of Management and Budget.

    Question 5. What are your plans for upgrading equipment and 
instrumentation on these vessels--such as multibeam sonar, which is 
needed for hydrographic surveys, coral mapping, ocean exploration, 
fisheries habitat designations, and a variety of other uses?
    Answer. With the $6.2M appropriated in FY 2003 for vessel 
instrumentation, NOAA will purchase multibeam systems and related 
technology to upgrade the capabilities of the RON BROWN, FAIRWEATHER, 
LITTLEHALES, RUDE and RAINIER. In addition, part of the money will 
purchase an Autonomous Underwater Vehicle (AUV) that will initially be 
used by the NOAA/University of New Hampshire Joint Hydrographic Center 
for testing and evaluation.
    Each year, NOAA uses funds from its Fleet Maintenance and Planning 
account to purchase equipment and instrumentation upgrades for NOAA 
vessels, including computer networks and data processing systems, 
fishery sonar, oceanographic sensors, navigation and communications 
systems, and saltwater sampling equipment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John F. Kerry to
                  Admiral Conrad C. Lautenbacher, Jr.
    Question 1. EPA/NOAA Coastal Health Report and Status of 
Monitoring--The 2001 EPA/NOAA National Coastal Condition Report 
represented the existing knowledge on the condition of the Nation's 
coastal waters, and further identifies some important and significant 
regional differences. No overall assessments were completed for Alaska, 
Hawaii, or the island territories. How would the FY 2004 NOAA budget 
proposal help to fill these coastal monitoring and observing gaps? Do 
other agency requests fill any of these gaps?
    Answer. The FY 2004 NOAA budget proposal contains $2M for the 
National Data Buoy Center to upgrade/expand the NOAA marine buoy 
system. This system, and the associated C-MAN stations, collect 
meteorological and oceanographic information and constitute a major 
component of the ``national backbone'' of federal assets that 
contribute to a national coastal observing system.
    The FY 2004 NOAA budget proposal also contains a $1.5M increase to 
upgrade and strengthen the National Water Level Observation Network 
(NWLON), another major component of the ``national backbone''. The 175 
station NWLON (which includes stations in AK, HI, Guam, VI, PR, Midway 
and the Marshall Islands) collects tide and Great Lakes water level 
data as well as associated meteorological and oceanographic 
information. The NWLON has been well integrated with a number of local 
observing systems such as the Texas Coastal Ocean Observation Network 
(TCOON) and the NOAA cost shared Physical Oceanographic Real-Time 
System (PORTS) partnership program.

    Question 1a. When will this report be updated so that we may track 
trends?
    Answer. The next National Coastal Condition Report is being 
developed now and will be released in 2004. It will include more 
information for Hawaii and island territories, particularly in the 
context of the condition of coral reefs. Representing Alaska remains 
difficult because it has more coastal area than the rest of the United 
States combined. Nonetheless the next report will use data from recent 
expansion of EPA monitoring to the West Coast and will include 
contributions from state agencies. The next Coastal Condition Report is 
being written with reference to its predecessor with a specific intent 
of tracking changes.

    Question 1b. Could such a regional monitoring system be fitted 
within the National ocean observing system under discussion?
    Answer. What is required is a coordinated, integrated coastal 
monitoring framework by which appropriate data may be collected 
locally, but in such a manner that the information may be aggregated to 
provide regional and national assessments of coastal condition. This 
approach was outlined in the Clean Water Action Plan: Coastal Research 
and Monitoring Strategy as well as other documents. These documents 
help define the requirements for an Integrated Ocean Observing System 
(IOOS) that will build on and integrate existing monitoring programs as 
determined by those who use environmental data for purposes of 
regulation and management. Most resource management and regulatory 
agencies (state and federal) and other interested parties (e.g., 
industry, NGOs) are interested in similar information, but the 
collection and dissemination of that information is typically not well 
coordinated and integrated. The coastal component of the Integrated 
Ocean Observing System (IOOS) provides a framework for this 
integration.
    Many of the indicators of coastal condition used in the National 
Coastal Condition Report are of the type that require sample collection 
and subsequent laboratory analysis and, at this time, are not amenable 
to continuous and remote sensing either by satellite or with in-situ 
instruments. Technological developments in sensors, however, are 
increasing the opportunities for more continuous sampling of coastal 
condition indicators. For example, satellite sensing of chlorophyll and 
in-situ monitoring of water quality are becoming reliable. Thus, an 
integrated monitoring program will need to consist of both sample 
collection and analysis as well as more automated approaches to 
monitoring coastal conditions. Both should be considered as methods to 
gather information on coastal condition.
    The coastal component of the IOOS envisions and is working towards 
the integration of data provided through traditional monitoring 
programs with data provided through operational assets at the national, 
regional and local scales. These coastal monitoring programs will 
contribute to the more comprehensive assessment of coastal resources 
made possible by nationally integrated, operational observing systems. 
The Interagency Working Group for the National Ocean Partnership 
Program is discussing mechanisms to achieve this integration.
    NOAA views the regional observing systems as providing an important 
component of a national coastal and ocean observing system. The 
national (and international) oceanographic communities recognize this, 
and further acknowledge that if we are to be successful in this effort, 
that an effective data communications and management (DMAC) 
infrastructure must be put in place. NOAA is now leading the national 
IOOS DMAC Committee that is developing a viable implementation plan 
that will enable regional observing systems to become a part of the 
national infrastructure (backbone). Dealing with data exchange 
standards, protocols and system-to-system interoperability challenges 
that have to date hindered a national integration, this DMAC report and 
its recommendations will be completed this fiscal year.

    Question 1c. How many regional observing systems are already in 
existence or in planning states, and how will NOAA (or partner federal 
agencies) ensure coordination of such systems while allowing regional 
flexibility?
    Answer. There are presently a variety of ``ocean observing'' 
capabilities distributed around the Nation's coasts. The Ocean.US 
Office recently estimated that there are 44 non-affiliated ocean 
observing systems in existence, highlighting the present opportunity to 
enhance the benefits of these systems through greater coordination and 
integration. Some of these capabilities, such as NOAA's National Water 
Level Observation Network and suite of marine buoys, are operated by 
federal agencies, and as noted in our response to Question 1, have 
established some models for coordination at the local or state level 
where there are common interests. Other capabilities or assets are 
operated at the sub-regional or local level by universities, states, or 
non-profit organizations. Examples of these are many and include the 
congressionally-directed Coastal Observation Technology System 
partners. Most states have extant monitoring programs, collecting a 
variety of information about coastal conditions. Collaboration among 
various assets within certain geographies occurs at varying levels to 
provide enhanced information, however, until recently integration of 
these assets at the regional level has been rare. The most obvious 
model to date of a regional ocean observing system has been the Gulf of 
Maine Ocean Observing System (GOMOOS). The EPA Coastal Assessment 
Program is a notable example of federal-state cooperation in monitoring 
of selected indicators to provide an assessment of condition at the 
regional level.
    Recently (31 March-1 April 2003) Ocean.US sponsored a ``Regional 
Summit'' to address the very question of regional organization of 
coastal observing systems and the relationships among the regional 
systems and federal observing assets. The foundation for this 
discussion is the draft implementation plan developed by the Ocean.US 
office and titled Implementation of the Initial U.S. Integrated Ocean 
Observing System, Part 1, Purpose and Governance (see www.ocean.us). 
Participants at this meeting agreed to a basic framework of cooperation 
and contributed ideas to implementation of governance structure for a 
national system. The interagency National Ocean Research Leadership 
Council has also endorsed the basic framework proposed by Ocean.US.
    It is also important to note that the Ocean Commission is expected 
to provide recommendations regarding regional approaches by federal 
agencies, including better approaches to integrate federal assets with 
those of states and universities at the regional level.

    Question 1d. What would you recommend Congress do to ensure we 
establish the coordinated monitoring program necessary to collect and 
analyze data in subsequent years, establish trends, and to feed those 
results back into management decisions?
    Answer. Congress should endorse the concept of a national coastal 
monitoring program that establishes a national framework and integrates 
appropriate extant monitoring/observing programs. Documents such as the 
Clean Water Action Plan and others have made this recommendation in the 
past. An interagency body, such as the NORLC, is likely the appropriate 
forum for implementation. It will be necessary to include the interests 
of the states and other stakeholders in such discussions.
    Question 1e. What would it cost?
    Answer. The $500M estimate represents new investments government-
wide for establishing an integrated system. This cost takes into 
account government-wide existing assets, which form the underpinning 
for the system. For NOAA, some of the assets include coastal data 
buoys, the National Water Level Observation Network, and the network of 
Argo profiling floats. Consideration is also given to assets of other 
countries, since there is a policy of full and open exchange of data 
among the many countries participating in the nascent Global Ocean 
Observing System. The U.S. integrated system is a component of the 
Global Ocean Observing System. NOAA is conducting a comprehensive 
inventory of its observing architecture. Anticipated costs for the 
Integrated Ocean Observing System will be refined once this inventory 
is finalized.

    Question 2. Climate Change Science and Funding--In a recent 
National Academy of Sciences (NAS) evaluation of NOAA's Strategic Plan 
for the Climate Change Science Program, the panel raised serious 
concerns that the research plan lacked focus or clear objectives and 
that the FY 2004 budget did not provide any real increases for climate 
change research--and none for completing the assessments required by 
law. Yet the plan states that it is intended to provide tools that 
decisionmakers may use to decide how to respond to climate change--just 
what these assessments were intended by Congress to provide in the 
Global Change Research Act of 1990. When do you intend to complete the 
assessments required under section 106 of the Global Change Research 
Act of 1990?
    Answer. A schedule, including dates of completion, of the updated 
synthesis and assessment was published as part of the final version of 
the Climate Change Science Program (CCSP) Strategic Plan on July 24, 
2003.

    Question 2a. What areas and issues will they cover?
    Answer. The Administration's strategic plan brings together the 
resources and expertise of 13 federal agencies, to develop improved 
knowledge of climate variability and change, and improved decision-
making tools for policymakers. It is also expected to lead to 
development of cutting-edge environmental technologies that will help 
sustain a healthy economy and protect the environment.

    Question 2b. What types of tools for decision-makers are you 
planning to provide in 2004?
    Answer. Decision support resources that the CCSP anticipates 
providing in FY 2004 include:

  <bullet> New climate simulations based on forcing scenarios that have 
        already been specified, such as CO2 stabilization scenarios and 
        some emission scenarios requested for the IPCC fourth 
        assessment.

  <bullet> Evaluations of contributions from changes in natural and 
        human forcing (e.g., greenhouse-gas concentrations, solar 
        irradiance, volcanic aerosols, and land use) to the climate 
        variability of the past 300-400 years. These will provide an 
        enhanced understanding of the mechanisms for the warmth of the 
        20th century compared to earlier centuries, and provide a more 
        complete context for analyzing and interpreting projections of 
        future climate change resulting from human activities.

  <bullet> Development of a minimum of four emissions scenarios to 
        provide alternatives to the ``SRES'' scenarios that were 
        published by the IPCC for use in the Energy Modeling Forum 
        (EMF) by members of the integrated assessment modeling 
        community.

  <bullet> Development of scenarios that include shorter-lived 
        radiatively-important species (e.g., tropospheric ozone and 
        aerosols), which are the only way to alter near-term radiative 
        forcing and offer win-win possibilities because they relate to 
        other issues, such as air quality.

  <bullet> Development and testing of internet-based systems that 
        transportation entities can use to calculate voluntary GHG 
        reductions and register them.

  <bullet> Consumer-based demand reduction and mode selection model and 
        studies that will aid in developing consumption reduction 
        strategies to support transportation planners.

  <bullet> Risk assessment of potential impact of aviation particulate 
        emissions on climate change.

  <bullet> Preliminary data describing how land management practices in 
        different environments, including soil types and vegetation 
        cover types, alter carbon sequestration throughout the high 
        proportion of U.S. land that is under agricultural management.

  <bullet> Report on results to incorporate information about regional 
        historic climate variability, seasonal teleconnections, and 
        socioeconomic trends in the Southwestern United States into 
        existing operational decision frameworks to reduce ground water 
        overdrafts.

  <bullet> Hydrology model(s) that incorporate climatic information, 
        alternative water sources, municipal and agricultural demands, 
        and institutional constraints to identify the impact of 
        alternative water policies on water availability, quality, and 
        price.

  <bullet> Transfer the first generation of climate-based stochastic 
        reservoir management methodologies to reservoir managers to 
        improve hydropower management and species and habitat 
        protection.

  <bullet> Establishment of centers that will work with decision 
        makers, stakeholders, and others to disseminate research 
        results through trade journals and other media that make their 
        findings more readily available.

  <bullet> Grazing and feed management practices for field testing that 
        reduce methane missions from cattle and other ruminants.

  <bullet> Assessment of the mechanisms underlying responses and 
        factors that can be managed to sustain food production and 
        enhance marketability under changing carbon dioxide 
        concentrations.

  <bullet> Improved estimates of greenhouse gas fluxes from agriculture 
        and conservation activities.

  <bullet> A web system for producing on-demand normals or climate 
        means for specific time periods and spatial scales, accounting 
        for changes and variations in climate.

  <bullet> A comprehensive set of information related to changes in the 
        surface hydrological cycle during the past 100 years, a key 
        aspect of regional and sectoral assessments.

    Question 2c. Will these tools focus on both mitigation and 
adaptation decisionmaking?
    Answer. Some of the resources listed above focus on mitigation and 
adaptation decision making.
    Question 2d. Which ``decisionmakers'' are the intended audience? 
Please be specific.
    Answer. A core component of the CCSP is its emphasis on decision 
support resources to provide information to support national policy and 
regional/sectoral resource management. Depending on the information 
provided, the intended audience includes: the general public, 
interested stakeholder groups, resource managers, and Members of 
Congress.

                                  <all>

</pre></body></html>
